<html>
<title> - AVIATION SAFETY: THE ROLE AND RESPONSIBILITY OF COMMERCIAL AIR CARRIERS AND EMPLOYEES</title>
<body><pre>[Senate Hearing 111-448]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 111-448

                     AVIATION SAFETY: THE ROLE AND
                      RESPONSIBILITY OF COMMERCIAL
                       AIR CARRIERS AND EMPLOYEES
=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 17, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                        U.S. GOVERNMENT PRINTING OFFICE
51-751 PDF                    WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3354435c73504640475b565f431d505c5e1d">[email&#160;protected]</a>  









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
MARK PRYOR, Arkansas                 SAM BROWNBACK, Kansas
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 17, 2009....................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator DeMint......................................     3
Statement of Senator Lautenberg..................................     4
Statement of Senator Johanns.....................................     4
Statement of Senator Begich......................................     5
Statement of Senator Thune.......................................     5
Statement of Senator Klobuchar...................................    48
Statement of Senator McCaskill...................................    51

                               Witnesses

James C. May, President and CEO, Air Transport Association of 
  America, Inc...................................................     6
    Prepared statement...........................................     8
Roger Cohen, President, Regional Airline Association.............    10
    Prepared statement...........................................    12
Captain John Prater, President, Air Line Pilots Association, 
  International..................................................    16
    Prepared statement...........................................    17
Scott Maurer, Father of Lorin Maurer, Representative of the 
  Families of Continental Flight 3407............................    27
    Prepared statement...........................................    29

                                Appendix

Letter dated June 12, 2009 to Hon. Byron L. Dorgan from Dan 
  Hanley, Former United Airlines B-777 Captain...................    59
Response to written questions submitted by Hon. Claire McCaskill 
  to James C. May................................................    63
Response to follow-up written questions submitted by Hon. Claire 
  McCaskill to James C. May......................................    64
Response to written question submitted by Hon. Mark Begich to 
  James C. May...................................................    65
Response to written questions submitted by Hon. Claire McCaskill 
  to Roger Cohen (Submitted July 22, 2009).......................    65
Response to follow-up written questions submitted by Hon. Claire 
  McCaskill to Roger Cohen.......................................    66
Response to follow-up written question submitted by Hon. Claire 
  McCaskill to Roger Cohen dated August 7, 2009..................    67
Response to written questions submitted by Hon. Mark Begich to 
  Roger Cohen....................................................    68
Response to written questions submitted by Hon. Mark Begich to 
  Captain John Prater............................................    76


                     AVIATION SAFETY: THE ROLE AND



                      RESPONSIBILITY OF COMMERCIAL



                      AIR CARRIERS AND EMPLOYEES

                              ----------                              


                        WEDNESDAY, JUNE 17, 2009

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We'll call the hearing to order.
    This is a hearing of the subcommittee of the Senate 
Commerce Committee, the Subcommittee on Aviation.
    I want to thank all of you for joining us today to talk 
about the importance of the issue of aviation safety. This is 
the second hearing that we have held this month to discuss the 
subject of aviation safety, with a particular focus on the 
safety of regional carriers.
    In this hearing, we will receive testimony from 
representatives of the Nation's network carriers and regional 
carriers from the Air Transport Association and from the 
Regional Airline Association, respectively. We'll also hear 
from the Air Line Pilots Association and from Mr. Scott Maurer, 
representing the Families of Continental Flight 3407, which 
crashed on February 12 of this year in New York.
    I do want to say, as well, as we start this hearing, that I 
had intended and wished to have representatives of the carriers 
themselves at a hearing. And so, we did not accomplish that 
today. I'm not minimizing at all the representatives of the 
two--the ATA and the RAA, but I will wish to extend invitations 
and have representatives of the airlines themselves in here 
within the next month or so. It is important, I think, that 
they would accept an invitation to come, and so, I will extend 
those invitations again.
    In this country, I think it is safe to say that we have a 
remarkably safe system of air travel. It's not my intention, 
with hearings about aviation safety, to alarm anyone about 
taking a flight on a regional carrier or a network carrier. We 
operate aircrafts all across this country every day, and 
provide critical air service to many people who would not 
otherwise have that kind of transportation service or that kind 
of option. But, we do have a responsibility, it seems to me, to 
ask questions and to get answers to the questions of, Do we 
have one level of safety, do we have one standard of safety 
that now exists, or have we drifted some?
    If the traveling public ever has doubts about the 
consistency of safety in our airspace system or with airline 
travel, the airline industry inevitably will suffer. So, we 
have to move together to make certain that people have no 
reason to question the oversight or the application of aviation 
safety across the country.
    I've said before that I've read extensively about the most 
recent crash that occurred in our country, the crash by Colgan 
Air in Buffalo, New York. Frankly, a number of things happened 
on that flight that caused me great, great concern. There were 
a number of mistakes that occurred, a number of things that, to 
me, were revelations that were quite stunning and led me to 
question, Is this--was it an aberration, was it something that 
happened only in the cockpit of this one plane, or is there 
something else at work? Is there a set of standards that is 
applied one way in one set of carriers and another way in 
another set of carriers? I don't know the answer to that, but I 
think it is important that we ask those questions.
    The plane that crashed in New York was a Bombardier Dash 8 
Q400 operated by a captain and a copilot who had commuted--both 
commuted long distances to get to work, and were found to have 
had reasonably little rest before the flight. The copilot 
raised issues, in the transcript that I read of the 
conversation in the cockpit, of her inexperience with icing 
conditions. They, clearly that evening, were flying in 
significant icing. The captain had failed a number of flight 
tests during his career, which the carrier themselves were 
unaware of and did not have information about.
    We're going to hear from those that are investigating this. 
The NTSB, I know, is doing substantial investigations. But, the 
larger question for me, here, is, What about the airlines and 
the FAA's ability to prevent a double standard or two different 
standards of experience in the cockpit? What about the 
enforcement of rules with respect to familiarity with certain 
kinds of conditions, familiarity with equipment? We are 
supposed to have, dating back to the mid-1990s, ``one level of 
safety,'' for both regional and major carriers. And I want to 
hear, from our witnesses today, whether you think that is 
actually the case, whether the system has kept up with changes, 
or whether there have been changes that have occurred that have 
drifted us away from one standard?
    I'm particularly concerned, from some of the things I've 
learned in the last hearing--for example, that a carrier does 
not easily have full access to the records of pilots they are 
considering hiring. I'm talking about all of the records. They 
have access to the records of everything that has occurred with 
respect to an airplane. An airplane that comes off the line and 
is put in service, everything that happens to that particular 
airplane is a matter of record that anyone can access. And that 
is not the case with respect to the record of the pilot or the 
people in the cockpit.
    I think that there is some reason to be encouraged by what 
the new administrator, Randy Babbitt, has done. He called for a 
meeting, Monday of this week, which reflects a concern that he 
wants to understand these things quickly and take whatever 
action is necessary. It is also the case that he indicated 
that, after--2 years after the NTSB suggested a rulemaking on 
access to records for pilots, that Mr. Babbitt indicated to me 
that the next time he came to a hearing and I asked the 
question, ``Have you begun a rulemaking?'' he indicated that he 
expected the answer to be affirmative rather than negative.
    So, I think we're making some progress, here. But, this is 
very, very important, and it's something that we have to ask 
questions about. They are tough questions, but necessary and 
important questions.
    I want to thank the witnesses for being with us.
    Senator DeMint is the Ranking Member of our Subcommittee, 
and I know Senator DeMint wishes to make a comment and then, I 
think, also introduce Mr. Maurer, more formally, who is a 
member of your state.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. And I thank you 
again for conducting these hearings.
    And I would just add my comments to yours. I agree with 
everything you said about the concerns about this flight. A lot 
of us get on regional flights ourselves, every week, going back 
and forth to our home states, and we assume a lot when we get 
on a plane. And I know all Americans do. And we do need to make 
sure there is a standard of safety for every American.
    I'm looking forward to working with the Chairman on 
language that would reveal all the pilot records, just as we 
have them for an airplane. And some things seem to make common 
sense right now.
    But, I do have the pleasure of introducing Mr. Scott Maurer 
this morning. Mr. Maurer is the father of a 30-year-old woman 
who was on Flight 3407 crash, Lorin Maurer. Mr. Maurer was born 
and raised in Reading, Pennsylvania, where he and his wife 
raised their daughter, Lorin. He currently lives in South 
Carolina.
    I appreciate him taking the time to come to Washington. I 
think this is his third trip here, and I know this is very 
difficult for him to continue to recount this tragedy in 
public, as well as private.
    Mr. Maurer comes before this Committee this morning as a 
representative of over 150 people and the families of the 
Flight 3407 group. They've come together as a result of the 
terrible tragedy, with the goal of making changes in the 
airline industry and the FAA, hoping to keep an accident like 
3407 from happening again, and saving many other families the 
sadness that they are continuing to endure. Mr. Maurer is also 
joined this morning by his wife, Terry, and Lorin's boyfriend, 
Kevin Kuwik.
    I am deeply impressed with the work of the Maurers and Mr. 
Kuwik and all the families of the victims of Flight 3407. As a 
father of four and a grandfather of two, I can't begin to 
imagine the pain that comes from so tragically losing a loved 
one. It speaks very highly of all the families here today that 
you're working to take what must be such a deep sorrow and 
focusing it on improving airline safety and helping other 
Americans.
    I'm looking forward to hearing your testimony, Mr. Maurer, 
and the recommendations, this morning. And both the Chairman 
and I--and I know I speak for everyone on the Committee--thank 
you for the sacrifice that you're making to try to improve the 
system for others.
    Senator Dorgan. Senator DeMint, thank you very much.
    I would--let me ask others if they would limit opening 
comments to 2 minutes, and then we'll have 7-minute rounds for 
questions when we've heard from the witnesses.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Yes, Mr. Chairman, very quickly, thank 
you for calling this hearing, because, though our flight safety 
record is so outstanding, when we look at the total of aviation 
and its services, the situation with the Colgan flight is one 
that is--shook our bodies, our minds.
    The plane took off from Newark-Liberty International in 
February. It cost the lives of 50 people. Flight 3407 taught us 
that we need to improve pilot training, address flight-crew 
hours of service, and implement consistent safety standards for 
both regional and large air carriers. And just last year, we 
saw disturbing reports about safety inspection failures, where 
the FAA let planes filled with passengers take off with cracked 
hulls. And these failures forced the cancellation of thousands 
of flights by airlines who may not have taken safety as 
seriously as they should have.
    And so, we're anxious to learn whatever we can about the 
failure of good precautions, with Flight 3407, and we extend 
our sympathies, also, to Mr. Maurer, and that we would like to 
be able to make the promise, when we're finished with these 
hearings, Mr. Chairman, that we will have done whatever we can 
to make this excellent safety record that exists with American 
aviation even better. And we look with interest at what our 
witnesses----
    Senator Dorgan. Senator Lautenberg----
    Senator Lautenberg.--have to say.
    Senator Dorgan.--thank you very much.
    Senator Lautenberg. Thank you.
    Senator Dorgan. Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you. My comments will 
be very, very brief.
    But, let me tell you what I'm thinking about and hoping to 
accomplish through this process. I think the burden is on the 
airlines to prove to the American people that, when we get on, 
for the price of our ticket, whatever that is, that we're going 
to have a well-experienced crew, who will treat us politely and 
decently, an airplane that is safe as can possibly be. And I 
think, really, the burden is there.
    When I think about this flight in--and I feel so badly for 
these families, but this hearing is bigger than that one 
flight--I think about questions like, Is the plane safe? What's 
the inspection background of this airplane? What would the 
service records show me if I were to take a look at them? I ask 
myself, Has the crew got the training, the talent, the 
background, the discipline, have they gotten a good night's 
sleep, so they can handle all situations?
    I had a pilot at--a dear friend of mine; he flew small 
planes--who said to me, ``You know, flying is hours and hours 
of boredom followed by moments of sheer terror.'' And, you 
know, that always stuck with me.
    I ask myself, Does the crew know when they are entering a 
situation that is beyond their capability, or their airplane's 
capability? Are they trained well enough, and do they have the 
talent and experience and background, to see this situation and 
say, ``I'm not going to expose my passengers to that risk. I 
don't care what somebody above me is trying to say?''
    And those are the things that I hope to accomplish in this 
hearing. So, my hope is, we can focus on some of those 
questions, and others.
    And I'll wrap up by just saying, Mr. Chairman, thanks for 
calling this--such an important topic. And--just glad to be 
here today.
    Thanks.
    Senator Dorgan. Thank you very much.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. I will 
be very, very brief. I'll look forward to the questions and 
answers.
    But, I'll be looking at this from two perspectives. One is 
United States Senator, but also someone who lost a family 
member, my father, in a plane crash. So, I look at it from two 
different perspectives. And I will be anxious to ask several 
questions. And I don't want you to take them, any of them, 
personally. I think this is an important issue, as just 
described by several Senators here, of--in regards to safety 
for our air flights, because people do walk onto the planes 
assuming they are safe transportation modes, and it's going to 
be important that we make sure they continue to improve on the 
record you have today.
    But, again, I'm going to be coming from two perspectives, 
and I hope you recognize that.
    Thank you very much.
    Senator Dorgan. Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Mr. Chairman, I, too, want to thank you for 
calling the hearing.
    And I want to thank our panelists for being here, 
especially you, Mr. Maurer. Again, our condolences to you and 
your family and all the families. A very tragic, tragic 
incident, and I applaud you for committing yourself to making 
sure this doesn't happen to any other families. Thank you for 
your efforts and for the courageous work that you're doing.
    Coming from a state like mine, we have a heavy reliance on 
regional airlines. They play an important role in transporting 
passengers from smaller communities who otherwise would not 
have scheduled air service. And, while I don't, you know, 
think, again, that we can--no one's arguing that we shouldn't 
take our overall aviation safety record for granted, I also 
believe there's room for improvement. And we want to ensure 
that the FAA and the airlines are doing everything they can to 
improve the overall safety record, when it comes, not only to 
regional airlines, but to all airlines.
    And I particularly want to home in on something that we 
discussed at the Subcommittee hearing last week, Mr. Chairman, 
and that is the need to incorporate more information regarding 
the background of pilots. I think it just makes sense that we 
work to ensure that the FAA incorporates a more accurate 
picture of a perspective--prospective pilot's flight history 
when an airline is looking to make a hiring decision. And 
voluntarily requesting this information just isn't good enough. 
I think there is more that Congress can require, when it comes 
to updating the Pilot Records Improvement Act, and I hope that 
we can work on that in this Committee to make some of those 
changes, because, I think, clearly that came into play in this 
very tragic incident.
    But, again, thank you for holding the hearing, and I want 
to thank our panelists, and I'll look forward to hearing from 
you.
    Thanks.
    Senator Dorgan. Senator Thune, thank you very much.
    As several of my colleagues have mentioned, we look at 
these issues through the lens of tragedy, regrettably. But, in 
many cases, I--and I expect Mr. Maurer is here in the hope that 
what we learn will save other lives and improve airline safety. 
And I--all of us would, I think, embrace that goal.
    So, with that in mind, we have four witnesses, and I want 
to call on Mr. Jim May first today. Mr. Jim May is President 
and Chief Executive Officer of the Air Transport Association of 
America.
    Mr. May, you and I have discussed all of the issues that 
have been discussed this morning. I--the same is the case with 
Mr. Cohen; we've had these discussions.
    Let me call on you--let me say, to all four of you, that 
your entire statements will be made a part of the permanent 
record, and we would ask that you summarize your remarks.

         STATEMENT OF JAMES C. MAY, PRESIDENT AND CEO, 
           AIR TRANSPORT ASSOCIATION OF AMERICA, INC.

    Mr. May. Thank you, Mr.----
    Senator Dorgan. And would you pull that very close and turn 
that on.
    Thank you.
    Mr. May. Thank you, Mr. Chairman, and good morning.
    Let me also share my condolences with Mr. Maurer and the 
other representatives of the families that lost loved ones 
aboard the Colgan Air flight. It is a terrible, terrible 
tragedy.
    In the airline industry, safety is our highest priority. We 
try very hard to assure that we never compromise safety because 
of economic conditions. We work closely with all members of the 
aviation community, including regional airlines, to achieve 
extraordinary records--no fatalities for mainline carriers in 
the past number of years. And it really is in that spirit that 
I appear before you today, with an understanding that no 
accident is acceptable. We have a responsibility to understand, 
through rigorous and searching inquiry, the causes of the 
Buffalo accident, and then to take whatever single or multiple 
corrective measures are needed.
    In light of that responsibility, we're very fortunate that 
there are three expert government forums in which scrutiny is 
happening today, right now. This is as it should be. The public 
needs to be confident in the responses to aviation safety 
issues.
    The National Transportation Safety Board's ongoing 
investigation is going to produce a far more complete picture 
than we have today. In this, as in previous accidents, the 
Board is the authoritative source for making that determination 
and recommending corrective action.
    In addition, the Department of Transportation's Inspector 
General recently began an assessment of the Federal Aviation 
Administration's oversight of certification, pilot 
qualification, training, and other issues. That is in response, 
Mr. Chairman, to your very direct inquiry.
    When this review was announced, we immediately offered our 
resources and full cooperation to the inspector general. His 
evaluation and constructive suggestions that we know will 
result from it will augment the NTSB's effort.
    Finally, the FAA's Call to Action, held on Monday of this 
week, is a broad-based initiative to look at safety issues, 
including those raised at this morning's hearing. We attended--
multiple representatives of ATA attended Monday's meeting and 
were impressed by the participants' focus on concrete issues 
and their understanding of the need for very prompt solutions. 
We look forward to being engaged with the FAA and other 
interested stakeholders in this vital work.
    Now, I don't believe that any topic should be off the table 
in the Call to Action. We need to have a full and frank 
discussion about safety and the factors that contribute to it. 
If there are disparities between mainline and regional safety 
programs they should be closed, and closed quickly.
    Let me suggest six or seven steps that need to be pursued 
right now, today.
    First, I think we need to apply FOQA, Flight Operational 
Quality Assurance programs used by major carriers, to regional 
airlines. FOQA works. The collection and analysis of data 
recorded during flight improves safety.
    Second, apply ASAP, Aviation Safety Action Programs, which 
encourage voluntary reporting of safety issues and events that 
come to the attention of employees, to those regional airlines 
that don't currently have such a program.
    Third, identify advanced-training best practices of 
mainline carriers to be used by regional carriers. It's an AQP 
program, in the jargon.
    Fourth, we need a centralized database of pilot records, to 
give airlines easy access to complete information about 
applicants from the time they begin their flying career.
    Fifth, let's see if the FAA needs to increase compliance 
with the ``sterile cockpit'' rule, and what measures it should 
use to do that.
    Sixth, let's examine flight-crew preparedness when pilots 
report to work. This means looking at crew-member commuting. If 
this means examining flight and duty-time issues, I think 
that's perfectly appropriate--but, tie it to the commuting side 
of the equation--as long as any examination is based on 
science, not anecdotes.
    Each of these initiatives can and should be achieved in 
short order. We're looking forward to working with this 
Committee, the FAA, the IG, and the NTSB in as cooperative a 
fashion as possible.
    Thank you, Mr. Chairman. I'll be pleased to answer any 
questions.
    [The prepared statement of Mr. May follows:]

        Prepared Statement of James C. May, President and CEO, 
               Air Transport Association of America, Inc.
    The crash of the Colgan Air aircraft near Buffalo on February 12, 
2009, was a tragedy that has produced heartache for the relatives and 
friends of the victims of that accident. Words are faint consolation 
for their grief.
    Two basic considerations need to guide us in the aftermath of that 
tragedy.
    The first consideration is that in the aviation community, no 
accident is acceptable. We need to understand through rigorous and 
searching inquiry the cause of the Buffalo accident. Completion of the 
ongoing National Transportation Safety Board investigation will produce 
a far more complete picture than we have today of what so tragically 
unfolded that evening. Moreover, the Department of Transportation 
Inspector General recently began an examination of Federal Aviation 
Administration (FAA) oversight of certification, pilot qualification, 
training and other issues that will augment the NTSB effort. The ``call 
to action'' initiative that the Secretary of Transportation announced 
last week will enhance these two efforts. The call to action meeting 
that the FAA held this Monday enabled stakeholders to review pilot 
training, cockpit discipline and other issues associated with flight 
safety. We enthusiastically support this initiative. ATA and its 
members actively participated in last year's FAA runway safety ``call 
to action.'' We look to the same type of involvement with this latest 
``call to action.''
    The second consideration is that it is the certificate holder--the 
air carrier that has received the authority from the FAA to serve the 
public--that is ultimately responsible and accountable for the safety 
of its operations and for complying with the requirements that the FAA 
imposes on air carriers.
    It goes without saying but I will say it: We do not compromise 
safety for economic reasons. ATA members and their employees have 
achieved an extraordinary safety record because of their single-minded 
focus on safety. This has occurred, I would emphasize, during the most 
turbulent era in our industry's history. It is in the spirit of the 
pursuit of safety that I appear before you today.
    Understandably, much has been written about the Buffalo accident. 
Speculation, however, is not the foundation for a meaningful response 
to any aviation accident. We need to get it right. That is why we all 
rely on the NTSB in these situations. After its investigation is 
concluded, the Board will prepare and issue a detailed narrative report 
that analyzes the investigative record, identifies the probable cause 
of the accident and makes specific recommendations for fixing the 
causes of the accident.
    That kind of rigor is indispensable in developing a fact-based, 
informed and effective response to the accident. It is the kind of 
diligence that characterizes other safety-related efforts in our 
industry. We approach safety issues collaboratively with commitment and 
know-how within the bounds of the Federal Aviation Regulations (FARs).
    In the airline industry, safety is the highest priority. That is a 
shared commitment and we work closely with other members of the 
aviation community to achieve it. Together with the FAA, manufacturers, 
labor unions and other interested parties, we have achieved an 
extraordinary safety record. That impressive accomplishment, however, 
does not mean that we can rest on our laurels. We continuously pursue 
safety. Improving safety is work that is never done; we always seek to 
improve.
    Commercial aviation has built this record through a disciplined and 
analytical approach to improving safety performance. That scrutiny 
includes benefiting from experience and from a forward-looking search 
to identify emerging issues. The Commercial Aviation Safety Team 
(CAST), for example, brings together stakeholders to improve safety 
performance by applying data-driven analyses to spot issues before 
accidents occur and to establish safety priorities. Increasing reliance 
on two industry-led safety programs, the Aviation Safety Action Program 
(ASAP), which encourages voluntary reporting of safety issues and 
events that come to the attention of employees of certain certificate 
holders, and the Flight Operational Quality Assurance (FOQA) program, 
which involves the collection and analysis of data recorded during 
flight to improve safety, have also added immeasurably to our 
knowledge. This empirical approach, coupled with the expertise and 
commitment of our frontline employees, provides the underpinning for 
industrywide safety efforts.
    Participation in these programs underscores that ATA members' 
efforts go well beyond compliance with governmental regulatory 
directives. This willingness to exceed minimum requirements is often 
overlooked. It is tightly woven into the safety culture of airlines, 
whether they are mainline or regional.
    No accident or incident is acceptable. We seek to learn from each 
event. Consequently, ATA has formed a Senior Advisory Task Force to 
address the matters raised during the recent NTSB hearing about the 
Buffalo accident. The task force is comprised of airline presidents, 
chief operating officers and their peers. It will ensure that our 
support of the FAA, airlines, unions and others is responsive, targeted 
and thorough.
    ATA member airlines highly value their relationships with regional 
airlines and the customer benefits those arrangements provide. 
Customers, communities and the marketing and operating carriers benefit 
immensely.
    The bedrock principle in civil aviation is that the entity to which 
the FAA has issued a certificate is solely responsible for its 
activities. Whether that entity is an air carrier, an airman or a 
dispatcher, that responsibility cannot be delegated or assumed by 
others. That principle avoids any confusion about ultimate 
responsibility, an absolutely essential consideration in promoting 
safety. It is a principle that dates back to 1938, when Congress 
created the Civil Aviation Authority, the predecessor of the FAA.
    As separate regulated entities, regionals are independent of 
mainline airlines. As I noted previously, they hold operating authority 
that the FAA has granted them. The FAA certificates regionals under 
Federal Aviation Regulation Part 121. This means that the certificate 
holder--the regional airline--maintains the responsibility for, and 
direct control of, its operations and safety programs. The FAA has the 
mandate to assure compliance with Part 121 and other FAR requirements.
    We should also remember that in the mid-1990s, in evaluating the 
need for improvements in the regulatory structure under which commuter 
airlines--the former term for regional airlines--operated, the FAA 
responded with the support of ATA and its members by requiring them to 
adhere to FAR Part 121, the same regulation under which mainline 
airlines operate. As a result, the rule that became effective on 
December 20, 1995 imposed a ``one-level-of-safety'' standard that 
continues to this day. It required aircraft with 10 or more passenger 
seats and all turbojets operated in scheduled passenger service to 
operate under and comply with FAR Part 121 operational requirements. 
These included dispatch requirements and the use of certificated 
dispatchers, new flight/duty time rules, manuals and procedures for 
flight and ground personnel, cabin safety and flight attendant 
requirements for 20- to 30-seat airplanes, and new training rules.
    Moreover, the Department of Transportation, for more than a decade, 
has required in 14 CFR Part 257 that codeshare arrangements be 
disclosed to customers before they purchase a ticket. This ``operated 
by'' language underscores the importance that the government has 
recognized in maintaining the distinction between the mainline airline 
and the regional airline.
    FAA implementation of uniform mainline and commuter regulatory 
requirements has raised questions about mainline and regional operating 
environments. The most significant of those concerns and our responses 
follow.
    ``Two-tiered safety environment.'' As noted previously, since 1995 
the FAA has imposed one level of safety on the air carrier industry--
whether with respect to training, flight deck crew competency, etc. If 
the NTSB or FAA determines that regional airline performance within 
that unitary regulatory structure requires additional attention, it 
should reformulate its compliance efforts as necessary.
    Flight/duty time regulations. An issue that has arisen in the 
Buffalo accident is the role of flight-deck personnel commuting. That, 
it should be clear, is not a flight/duty time issue. Commuting is 
within the exclusive control of the pilot or copilot. It is expected, 
and the law assumes, that they will report fit to work. It is the 
responsibility of the crew member to inform the carrier if he/she is 
unable to fly because of fatigue, whether because of commuting or for 
any other reason. That is why Part 121 airlines staff reserve crew 
members.
    Flight deck crew compensation. With but one exception, pilots at 
all larger regional airlines are represented by unions and they work in 
a seniority-based system. Compensation is a function of collective 
bargaining. Neither legislation nor regulation can effectively peg what 
is the right compensation in such a system of negotiated wages, 
benefits and working conditions.
    Sterile cockpit rule. The FAA imposed the sterile cockpit rule in 
1981. Its longstanding prohibition against ``nonessential conversations 
within the cockpit'' is well-known. To the extent that compliance with 
the rule is a concern at any Part 121 carrier, it is a matter for the 
FAA to pursue.
    Centralized pilot record database. A centralized database of pilot 
records would make it easier to evaluate the backgrounds of applicants 
for flight deck positions. We urge the FAA to determine if such a 
database can be efficiently implemented. To be successful, however, it 
must be complete. Results of all pertinent actions relating to the 
pilot's competency must be recorded and accessible to an airline 
evaluating an applicant.
Conclusion
    We will work diligently with other stakeholders in evaluating and 
responding to the results of the NTSB investigation of the Buffalo 
accident and the Inspector General's assessment of the FAA regulatory 
oversight program. This week's FAA ``call to action'' meeting was part 
of a vital initiative that we believe will contribute appreciably to 
this effort. It is in that informed context that any further action to 
improve safety should be examined.

    Senator Dorgan. Mr. May, thank you very much.
    And next, we'll hear from Mr. Cohen.
    Mr. Cohen, you may proceed.

             STATEMENT OF ROGER COHEN, PRESIDENT, 
                  REGIONAL AIRLINE ASSOCIATION

    Mr. Cohen. Thank you. Chairman Dorgan, Senator DeMint, and 
members of the Subcommittee, I'm Roger Cohen, and I'm President 
of the Regional Airline Association.
    I want to express our deepest sympathies for the lives of 
the passengers and crew of Flight 3407 that were lost, and for 
the families affected by the crash. We deeply share in their 
grief.
    And I also want to express, today, not only for our member 
airlines, but for our 60,000 highly trained professionals, our 
total unwavering commitment to safety.
    As we work toward ensuring this post---as we work toward 
this--let's make sure this post-accident process does not have 
to be repeated. We will take whatever steps are necessary so 
that our flight crews and our aircraft are as safe as humanly 
possible.
    The safety of our Nation's skies is a shared 
responsibility. At Monday's FAA summit, five of our regional 
airline CEOs and other senior leaders in--five of our CEOs 
joined with Federal agencies, major airlines, and union 
representatives to candidly explore all of the issues making 
headlines over these past few months. Regional airlines have 
but one objective, and that's to prevent any future accidents.
    And as we do that, as this Committee has noted, it's 
important to keep our perspective and to reassure the American 
public that flying is extremely safe. In fact, until this 
recent tragedy, commercial airlines had gone the longest period 
in aviation history without a fatal accident.
    Working collectively, rolling up our sleeves with all 
parties--government, labor, manufacturers--airlines have 
steadily improved our safety record over the course of many 
decades of safety initiatives, investigations, and reviews of 
accidents and incidents, large and small. Nevertheless, we can 
and must do better. Our industry's number-one goal has been, 
and always will be, zero accidents and zero fatalities.
    Mr. Chairman, at your request, our member airlines provided 
the Committee very detailed information about their operations, 
their training, their hiring, and their employees. Today, we 
will try to better define the airline--the regional airline 
industry to clear up some of the misconceptions. More 
importantly, we will talk about the steps that regional 
airlines have already taken and the actions we plan to take to 
further focus our total commitment to safety and accident 
prevention.
    Our airplanes typically carry up to 100 passengers. More 
than 50 percent of all of the scheduled airline passenger 
flights in the United States are on regional airlines. And, 
most notably, three out of every four commercial airports in 
this country are served exclusively by regional airlines.
    Our airlines, as you've indicated, largely operate in 
seamless partnership with the major airlines. Regional airlines 
provide the crew and the aircraft, while major airlines set the 
flight schedules, the fares, and the customer-service policies.
    Regional airlines and our major airline partners operate as 
a single, integrated system. One ticket, one trip, one safety 
standard. All passenger airlines are subject to the exact same 
FAA safety standards and requirements. It has been this way for 
more than a decade.
    Our goal is to prevent accidents, and that's why we are 
earnestly and eagerly supporting the FAA's Call to Action, and 
why the Regional Airline Association has embarked on our own 
Strategic Safety Initiative to underscore our safety culture 
and to help prevent accidents.
    This Strategic Safety Initiative has four elements:
    First, we'll be bringing together our safety professionals 
to review all of the procedures and address any issue that can 
even be perceived as a contributing factor to an accident.
    Second, we will conduct a thorough review of fatigue, 
looking at all the human factors in the scientific field to 
minimize the risks associated with fatigue.
    Third, we will implement a Fatigue Awareness Management 
Program so that our airlines keep this issue top-of-the-mind 
for both our flight crews and, just as importantly, airline 
management.
    Fourth, we will reach out in partnership, with you in 
Congress, across the government, and to our fellow stakeholders 
in labor and throughout the aviation industry, to explore the 
full range of issues which could help us improve safety and 
prevent future accidents. And among those are, number one, 
establish a single integrated FAA database of pilot records. 
Second, explore random fatigue testing. Third, examine the 
practice of commuting. Fourth, extend the period for background 
checks from 5 to 10 years. And fifth, seek to analyze the 
information from cockpit voice recorders in settings other than 
accident investigations. And mine all this tremendous data of 
check rides to look for trends to help prevent future 
accidents.
    Mr. Chairman, the Regional Airline Association thanks you 
for the opportunity to testify today and for opening the 
dialogue on these critical issues. We look forward to keeping 
you informed. And I welcome any questions you might have.
    [The prepared statement of Mr. Cohen follows:]

             Prepared Statement of Roger Cohen, President, 
                      Regional Airline Association
    Good morning Mr. Chairman, Senator Hutchison, and Members of the 
Committee. My name is Roger Cohen. I am the President of the Regional 
Airline Association. Our 31 member airlines carry more than 90 percent 
of the passengers traveling on regional aircraft.
    The circumstances that prompted the Committee to convene today's 
hearing are tragic. We share the Committee's concern for the lives of 
the passengers and crews that have been lost and the grief suffered by 
their families and loved ones.
    The challenge now facing this Committee, Federal aviation safety 
agencies, and the aviation industry is to review all of the issues and 
take whatever steps are necessary to prevent accidents in the future.
    We appreciate the open lines of communication this Committee has 
kept with our industry, including the opportunity to meet with Aviation 
Subcommittee Chairman Dorgan to share our thoughts in advance of this 
hearing as well as the opportunity to include our members in a survey 
of commercial airline safety programs and industry best practices. We 
hope you find this continuing dialogue to be as valuable as we do.
    Federal safety statistics clearly show that flying is the safest 
mode of travel. A person is far more likely to have a fatal accident 
traveling in a car, train, or bus than traveling by air. According to 
the National Safety Council, the fatality rate for cars is 7,700 
percent higher than for commercial aircraft and the fatality rate for 
trains and buses is 300 percent higher. This remarkable safety record 
is the result of decades of dedicated work from aviation safety 
professionals, both in the government and in the industry.
    Nevertheless, the pursuit of improved aviation safety is a shared 
and continuous effort, to which regional airlines are committed, along 
with everyone else in the commercial airline industry. The industry's 
overarching goal has been and always will be zero accidents and zero 
fatalities. We are committed to working with Congress, the FAA, the 
NTSB, and aviation safety experts in academia to ensure that we can 
meet this goal.
    Mr. Chairman, for the purposes of aiding this Committee with its 
inquiry, our testimony will focus on two broad areas.
    First, we will take a few moments to reacquaint the Committee with 
the regional airline industry. Anyone who has done background research 
on the industry prior to this hearing would have found a large number 
of inaccuracies portrayed in the media, and such misconceptions will 
not help the Committee carry out its responsibilities.
    Second, we will talk about the steps regional airlines have already 
taken and the actions they plan to take to even further intensify their 
focus on aviation safety. The regional airlines are launching a new 
initiative to advance industry safety standards. We also believe that 
Congress can provide additional safety tools for the industry.
Regional Airlines
    Regional airlines operate regional jets or turboprop aircraft 
ranging in size from about 10 to 100 seats and provide scheduled 
passenger service on short- and medium-haul routes that connect more 
than 600 smaller towns and mid-size cities to each other as well as to 
the Nation's major hub airports. This network offers passengers 
seamless service to almost every community in the country and many 
around the globe, serving 160 million passengers last year.
    Shorter flights to less heavily populated areas on smaller aircraft 
should not be equated with fewer flights or limited reach. Over the 
last 20 years, the industry has worked to match aircraft size to the 
market, leading to vast improvements in service to many communities 
that would otherwise not have air service. Today, more than 50 percent 
of all scheduled flights are operated by regional airlines and three 
out of every four commercial airports in the United States are served 
exclusively by regional airlines.
    Regional airlines operate in full partnership with major airlines. 
Indeed, major airlines either contract with regional airlines to 
provide service on selected routes or have an ownership stake in 
regional airlines.
    In this relationship, a regional airline is responsible for 
providing the crew and maintaining the aircraft. The major airline, for 
which the regional carrier is providing service, determines flight 
schedules and fares and sets customer service standards.
    From the passenger's perspective, the brand of the major airlines 
is in full view throughout the travel experience. In most cases, the 
passenger buys the ticket from the major airline, typically checks in 
at the major airline's counter, may find the in-flight magazine of the 
major airline, and may even sip a beverage placed on the cocktail 
napkin of the major airline.
    Regional airlines and their major airline partners operate as a 
single, integrated system. The notion of two separate systems is a 
misconception.
    That misconception extends to safety standards and it needs to be 
corrected if Congress is to have an accurate grasp of the situation. 
The fact is that all carriers are subject to the same strict FAA safety 
standards and requirements and receive the exact same level of safety 
oversight, notwithstanding so many erroneous press accounts.
    Pilot Qualifications. Regional airline pilots are subject to the 
same training requirements that apply to pilots working for major 
carriers. The rules are the same for all airlines.
    Pilots must complete rigorous classroom and simulator training and 
regularly pass extensive flight checks given by FAA-approved examiners 
throughout their careers. Each and every check tests a pilot's 
knowledge and ability to perform both routine and emergency procedures. 
Each and every question, procedure and maneuver must be executed fully 
to FAA standards. Unlike many professional tests, the checks that 
airline pilots must complete are unforgiving. What this means is that 
airline pilots must complete every aspect of their flight check 
successfully, in effect scoring a grade of 100 percent, or they cannot 
fly for the airline. If any aspect of the flight check is not passed, 
the pilot must receive remedial training and successfully complete a 
recheck before being allowed to fly again.
    The FAA also requires pilots to be separately trained and qualified 
on every type of airplane that they will be operating.
    Regional airlines comply with these strict safety standards and 
regularly operate under internal standards above and beyond FAA 
requirements. For example, the average experience of the RAA member 
airline flight crews is 3,075 total flight hours for first officers and 
8,500 for captains, which far exceed the FAA minimum requirements of 
500 and 1,500 hours, respectively.
    Pilot Background Checks. All airlines conduct in-depth background 
and safety checks on pilots before they are hired. Two separate sources 
are consulted.
    The FAA maintains a database of pilot information established by 
the Pilot Records Improvement Act of 1996 or PRIA. This database 
includes information about a pilot's certificates, ratings, medical 
status and any rule violations for the previous 5 years. In addition, 
this law requires airlines to contact the pilot's previous airline 
employer to obtain information about his or her training performance, 
drug and alcohol tests, and employment status. FAA maintains a separate 
database, not subject to the PRIA law, which includes a pilot's history 
of FAA check ride disapprovals. Certainly, integrating a real-time 
database containing all pilot records would improve access to this 
vital information.
    Pilot Fatigue. Rested, alert, and focused pilots are essential for 
aviation safety. All parties--the FAA, airlines, and pilots--have a 
role to play in ensuring that pilots are well rested.
    The FAA has rules in place to avoid fatigue. These rules apply to 
all pilots and all airlines.

  <bullet> Pilots cannot fly more than 100 hours per month. In 
        practice, pilots typically fly less than that--80 to 82 hours 
        during a month.

  <bullet> Pilots can fly no more than 8 hours per day.

  <bullet> Pilots are required to get at least 9 hours of time off 
        between trips.

    All airlines construct their pilot schedules in strict adherence to 
Federal rest rules. In addition, many airlines have agreements with 
their pilot unions, further limiting the length of their scheduled 
working days. Computers are used to track pilots' flight and duty time 
to ensure that they are working within the FAA rest rule limits. Pilots 
are also required to maintain their own log books and are directed to 
alert airline management if they are approaching a limit. These systems 
alert airline management if a pilot is approaching FAA limits.
    Additionally, airlines provide training to pilots so that they can 
accurately recognize the signs of fatigue. It is the professional 
responsibility of every pilot, if he or she does not feel sufficiently 
well rested, to say so and not fly. Airlines have non-punitive policies 
in place that allow pilots to drop the trip if the pilot feels 
incapable of flying alertly. Backup flight crews are in place 
specifically for this purpose.
    Pilots must maintain this professional responsibility and ethical 
obligation to passengers and their fellow crewmembers to conduct 
themselves in a manner that ensures they are well rested. In fact, the 
great majority of regional airline pilots are consummate professionals 
that embrace their responsibilities without hesitation and without 
compromise. While there are strict FAA rules and regulations in place 
to ensure pilots have enough time off between duty periods, it is the 
pilot's responsibility to ensure they get enough rest during their time 
off and to notify the airline promptly in any case where the pilot did 
not get sufficient rest.
    Among the other issues of interest to this Committee, which I would 
like to review, is pilot compensation.
    Pilot Pay. The entire airline industry--regional, majors, and low-
cost airlines--has a highly unionized workforce that is paid a fair and 
reasonable wage. Pay levels, the option to commute, and virtually all 
other work rules are negotiated through the collective bargaining 
process.
    The average salary for a regional pilot with the rank of Captain at 
an RAA member airline is $76,000 a year. This salary is comparable to 
other professions that utilize similar skills. For example, according 
to the Bureau of Labor Statistics, the average salary in the 
architecture and engineering fields is $71,430 per year. In the 
computer industry or in mathematical sciences the average annual salary 
is $74,500.
    A First Officer has less seniority and responsibility than a 
Captain. The average salary for a First Officer, working at an RAA 
member airline, is $32,000 a year. Again, this salary is in line with 
comparable professions. The average salary for a paramedic is $31,980; 
medical assistants average $29,060 per year.
    Pilots earn a fair and reasonable wage and also receive valuable 
benefits such as free airline travel, paid leave, and comprehensive 
benefits. Also, pilots, while on duty, receive collectively-bargained 
per diem expenses.
    Commuting. Some pilots choose to commute and live away from their 
crew base, which is the airport from which they will begin and end 
every flight assignment. In fact, commuting is a common and long-
standing practice among crewmembers at all airlines, regional and 
major.
    Whether to commute and what constitutes an acceptable commute is a 
choice made by each individual crewmember. In fact, the ability to live 
where they want to and to fly to where they work is a valuable perk 
that attracts pilots to the profession. It is important to note that, 
while many pilots commute, many others do not. Commuting is not 
necessitated by economics. In fact regional airlines have crew bases in 
dozens of attractive and affordable communities across the country.
    On the other hand, those who choose long commutes have a 
professional responsibility to arrive at work properly rested. As I 
mentioned earlier, the airlines have non-punitive policies in place to 
relieve a pilot who is not rested or feels fatigued.
Moving Forward: Strategic Safety Initiative
    RAA is a strong supporter of and full participant in the FAA's call 
to action. At the request of the Administrator, senior officials from 
the regional airlines, including five RAA member CEOs, attended the 
FAA's Call to Action meeting on Monday, June 15. The consensus reached 
at Monday's meeting is that safety is a shared responsibility. In fact, 
many specific safety objectives discussed at Monday's meeting were 
already included as part of the Strategic Safety Initiative (discussed 
in detail below) launched by RAA member airlines last week.
    We will continue to support and participate in this valuable 
dialogue as FAA conducts similar safety summits across the Nation this 
summer, at which we will address our shared safety goals with our 
partners within labor and government and with our mainline partners.
    Indeed, the purpose of the Regional Airline Association's Strategic 
Safety Initiative is to study and recommend actions responsive to 
challenges facing the airline industry. The initiative has four 
elements:

    1. Review Safety Procedures
      The Regional Airline Association will form a task force comprised 
            of safety directors and operations directors from the 
            regional airlines to review safety procedures, giving 
            particular attention to any issue or procedure cited by the 
            NTSB as a contributing factor to any accident.

    2. Study Impact of Fatigue
      RAA will commission a study to look at the impact of fatigue and 
            other human factors on pilot performance. The study will be 
            conducted by an independent and expert organization, in all 
            likelihood a university with a respected aviation program.
      The study will be framed by a Strategic Safety Advisory Board 
            comprised of industry experts drawn from the ranks of 
            academia, industry, and safety regulators.

    3. Fatigue Awareness Management Program
      The Regional Airline Association will create a fatigue awareness 
            management program for use by its member airlines.

    4. Recommendations to Congress
      We are committed to working with Congress on this initiative and 
            believe that Congress can provide the aviation industry 
            with additional safety tools, including:

      a. Single Data base of Pilot Records
                Requiring the FAA to maintain a single, integrated 
                database of pilot records would provide airlines with 
                critical, real-time information about pilot 
                qualifications and performance, thereby improving the 
                process of recruiting, hiring, and training new pilots.

      b. Random Fatigue Tests
                Airlines are already required to conduct random drug 
                and alcohol tests on pilots. RAA recommends exploring 
                with FAA and all industry stakeholders the concept of 
                random fatigue tests on pilots to help ensure that 
                pilots are indeed rested before flying.

      c. Commuting
                We believe it would be prudent for Congress, working 
                with all stakeholders, to examine commuting in depth, 
                including the possibility of limiting commuting time 
                prior to beginning a work assignment.

      d. Extend Background Check Time Frame
                Under current law, an airline conducting a background 
                check on a pilot can only review the last 5 years of 
                the pilot's safety records, qualifications, and 
                training. Extending the review period to 10 years will 
                help airlines identify safety risks.

      e. Explore Use of Cockpit Voice Recordings for Accident 
            Prevention
                Currently, cockpit voice recordings can be reviewed 
                only as an accident investigation tool, and RAA clearly 
                understands the sensitive privacy issues involved and 
                the years-long debate about access to the CVRs. Yet, as 
                we saw in the flight 3407 accident, pilots have 
                violated the rule requiring sterile cockpit below 
                10,000 feet. In our collaborative safety effort, 
                stakeholder groups must look at all potential tools to 
                improve flight safety, including reaching out to our 
                employee groups to explore random, non-punitive ways in 
                which this essential information can be used to prevent 
                accidents. Similar to ASAP and other diagnostic 
                preventative safety programs, an initiative permitting 
                random audits could provide valuable information.

      f. Improved Tracking and Analysis of Check Rides
                Current discussion suggests confusion relating to check 
                rides--the image of pilots who have failed check rides 
                continuing to fly aircraft. Every airline pilot is 
                required to pass frequent check-rides during their 
                airline service, and pilots cannot fly until they have 
                successfully completed their required check rides. We 
                believe FAA and the airlines may be able to increase 
                the level of safety through a more detailed analysis of 
                this testing over the entirety of a pilot's career. By 
                working with regulators and the employee groups, the 
                industry may develop a better methodology for assessing 
                pilot performance and instituting remedial training 
                programs that will ensure a higher level of safety.

    We will be moving expeditiously to implement this initiative and 
have already begun compiling a list of aviation experts as candidates 
for our Strategic Safety Advisory Board. We will keep the Committee 
informed of these activities.
    Mr. Chairman, the Regional Airline Association appreciates the 
opportunity to testify before the Committee this morning and I welcome 
any questions you might have.

    Senator Dorgan. Mr. Cohen, thank you very much for your 
testimony.
    Next, we will hear from Captain John Prater, the President 
of the Air Line Pilots Association.
    Mr. Prater----
    Captain Prater. Thank you----
    Senator Dorgan.--you may proceed.

         STATEMENT OF CAPTAIN JOHN PRATER, PRESIDENT, 
           AIR LINE PILOTS ASSOCIATION, INTERNATIONAL

    Captain Prater. Thank you, Chairman Dorgan.
    We commend this Committee for calling this hearing to take 
a closer look at some of the critical issues affecting airline 
pilots and our charges. Many of these issues--pilot screening 
and hiring standards, training and mentoring--were at the top 
of the agenda at the FAA's Call to Action Summit in which we 
participated, on Monday. While this meeting was a critical 
first step toward developing solutions to these problems, we 
encourage the FAA to take a more structured approach in working 
with the airlines and labor to establish an agreed-to 
implementation plan for all parties to adopt.
    In recent years, we have to look more at the system. The 
major airlines have come to rely heavily on codeshare 
arrangements with the so-called regional airlines to connect 
large, mid-sized, and small cities in the U.S., in Canada, in 
Mexico, to their international hubs. This has resulted in the 
exponential growth of the regional sector of the industry. 
Still, the major carriers exert a great deal--almost total 
pressure on the regional airlines to provide their service at 
the lowest possible price. They control ticket pricing and 
schedules, and they regularly move flying between their 
regional partners. This exacerbates breaking the chain of pilot 
experience. Couple that with 160 or more bankruptcies in the 
airline industry, and airline pilots leaving the industry 
because there has been no way to protect and retain that 
experience in the cockpit, we start over again and again.
    Some of the major airlines, even today, are outsourcing 
their flying to the regionals and laying off their own pilots, 
losing those decades of experience to the profession. These 
experienced pilots cannot afford to work for one of these so-
called ``regional carriers'' as a newly hired first officer. As 
a result, many of the smaller regional carriers hire pilots 
near the FAA minimum standards and do not employ adequate 
screening processes during hiring that identify that ideal 
candidate.
    As was brought out during the NTSB's recent hearing on the 
tragic accident in Buffalo, many pilots who fly for the 
regional airlines are not getting adequate training or enough 
rest. Airlines are requiring pilots to work longer days, and 
more of them each month. Fleet and frequent base changes are 
forcing pilots to decide between commuting or possibly taking 
another pay cut to train on new equipment.
    The consequences? The quality of airline pilot careers has 
been greatly diminished, and the severe erosion of benefits and 
quality of life are motivating experienced aviators to move to 
other professions.
    Current training practices do not take into account the 
drastic change in pilot applicants' experience. Instead, they 
assume that pilots are far more experienced than they may 
actually be. ALPA believes there must be a new focus on 
standardization and even on fundamental flying skills.
    To meet this challenge, airlines and other training 
providers must develop methodologies to train for that lack of 
experience and to train for judgment. Current training 
practices may also need to be adjusted to account for the 
source and the experience level of that new pilot entering into 
initial training with his or her airline.
    ALPA also believes there should be more stringent academic 
requirements to obtain both commercial and airline transport 
pilot ratings in preparation to starting a career as an airline 
pilot. The FAA should develop and implement a structured and 
rigorous ground school and testing procedures for pilots who 
want to qualify to fly for Part 121 airlines.
    ALPA also recommends that airlines provide specific command 
and leadership training courses for new captains, to instill in 
them the necessary skills and traits to be a real leader on the 
flight deck. Airlines should also implement mentoring programs 
for both captains and first officers as they first enter 
operations in their new crew positions to help them apply the 
knowledge and skills to line operations from their more 
experienced peers.
    Flight experience and pilot capabilities cannot be measured 
by mere flight hours. We must remember that each and every 
pilot out there today has met the FAA standards, has met and 
trained and exceeded the standards of their airline, who's 
responsible for certifying them.
    Turning to another area of concern, for two decades you 
have heard me and my predecessors speak about the pilot--
problem of pilot fatigue. It's time. We need to address those 
rules, and we need to change them.
    Other means to enhance safety and improve airline 
operations, we agree with Mr. May, data collection and analysis 
programs, such--in FOQA and ASAP--we need to share that 
information across the industry and then modify our practices 
to make sure that the best practices are being used by the 
entire family of airlines. In order to allow those programs to 
grow and make these reports more readily obtainable, additional 
legislative protections will be needed to limit the use of ASAP 
and FOQA data in civil liability cases and to ensure that the 
information is used to increase safety.
    The best safety device on any airplane is a well-trained, 
well-rested, highly motivated pilot. A strong safety culture 
must be instilled and consistently reinforced from the highest 
levels within an airline and among its codeshare regional 
partners.
    Thank you for the opportunity to address you, and I'll be 
ready to take any questions.
    [The prepared statement of Captain Prater follows:]

         Prepared Statement of Captain John Prater, President, 
               Air Line Pilots Association, International
    Good morning. I am John Prater, President of the Air Line Pilots 
Association, International (ALPA). ALPA is the world's largest pilot 
union, representing nearly 54,000 pilots who fly for 36 airlines in the 
U.S. and Canada. ALPA was founded in 1931 and our motto since its 
beginning is ``Schedule with Safety.'' For more than 77 years, ALPA has 
had a tremendous impact on improving aviation safety. ALPA is a 
founding member of the International Federation of Air Line Pilots 
Associations (IFALPA) and the U.S. and Canada representative to the 
Federation which joins the pilots of over 100 nations together in 
safety and security harmonization efforts. Today, ALPA continues to be 
the world's leading aviation safety advocate, protecting the safety and 
security interests of our passengers, fellow crewmembers, and cargo 
around the world. ALPA has lived up to its mandate to the extent that 
many in the industry, including a former FAA administrator, have 
referred to us as the ``conscience of the airline industry.''
    We applaud the Committee for holding this hearing and appreciate 
this opportunity to testify about ``Aviation Safety: The Role and 
Responsibilities of Commercial Air Carriers and Employees.'' We would 
like to begin our testimony by discussing crewmember fatigue.
Crewmember Fatigue
    Fatigue may adversely affect every flight crew member every time 
they fly. Due to airline economic conditions which require pilots to 
work longer days and more of them than ever before, fatigue has reached 
alarming levels within the industry. The FAA's flight and duty time 
regulations are woefully inadequate to address today's situation and 
have not significantly changed in over 60 years, since well before jet 
transports came into use in the late 1950s. The current U.S. flight and 
duty time rules are a patchwork of regulations that are intended to 
address disparate domestic, international flag, and supplemental 
operations. There have been a number of attempts to revise the 
regulations over the past 25 years, but those attempts have met with 
generally abysmal results because of the contentious disagreement by 
the stakeholders as to which changes were appropriate or needed.
    One fact about pilot fatigue that is not widely known is that 
airline pilots frequently spend much more time at work each day than 
the number of hours recorded actually flying an airplane. This is 
especially true in the regional industry although the work schedules at 
the so-called ``legacy carriers'' are by no means free of these same 
concerns. Currently, airline pilots are routinely assigned duty days of 
up to 15 hours. During a typical 14- to 15-hour duty day, a pilot can 
expect to be assigned fewer than 8 hours of flying but up to 8 
individual take offs and landings, in various types of weather and 
across multiple time zones. The time not flying may be spent performing 
duties such as checking weather, dealing with routing, dispatch and 
flight paperwork, overseeing aircraft loading and unloading, dealing 
with mechanical issues, waiting on the ground between flights, and 
similar activities. Thus, although a pilot may have only flown 7 or 
fewer flight hours by the end of a duty day, he or she could easily 
have been on duty 14 or 15 hours. This work pattern may be repeated 
over a period of several days. The weight of the scientific evidence 
accumulated over the last 20 or so years has firmly established that 
the vast majority of humans simply cannot be expected to reliably and 
safely perform operational tasks beyond 12 to 14 hours on duty. It 
cannot be overstated that pilots are making their most critical 
decisions on landings at the very end of their duty day which, due to 
unplanned circumstances, can easily be 20 hours or more since their 
last rest period. It is worth noting in this context that most fatal 
accidents occur during the landing phase of flight.
    The airlines are required to give pilots only an 8-hour break after 
any duty day, regardless of its length. Unfortunately, this 8-hour 
minimum break does not provide an adequate opportunity for recuperative 
sleep because the break is not an opportunity for 8 hours of sleep, but 
rather a period of time away from the aircraft. During the 8-hour 
break, it is not unusual for a pilot to be left with a maximum 4 or 5 
hours of sleep opportunity. This occurs because the FAA has defined all 
time away from the airplane (``release to report'') on a trip as 
``rest.'' Incredible as it may seem, the time a pilot spends waiting 
for a hotel shuttle and going through airport security screening is 
defined as ``rest'' under the current FAA regulatory scheme. A pilot 
must also attend to all of his or her other non-work-related daily 
physical and nutritional needs and requirements during this 8-hour 
break away from the aircraft. It is not at all unusual for a pilot to 
elect to forego a meal so as not to further reduce their sleep 
opportunity. This situation is highly objectionable-sleep experts agree 
that most adults require 7 to 8 hours of sleep each night to meet their 
physiological needs and restore their alertness. Pilots need a longer, 
and genuine, daily rest period than is allowed under current 
regulations.
    Another serious deficiency in current regulations is the failure to 
acknowledge circadian rhythms. Every human has an internal circadian 
cycle that determines sleep and wakefulness. Typical ``circadian low'' 
cycles (i.e., a period of reduced wakefulness and energy) will occur 
from approximately 3 to 5 a.m. and again from 3 to 5 p.m. Performance 
and alertness may be decreased during the nocturnal window, which is 
from approximately 2 a.m. until 6 a.m., depending on individual 
variability. Flight and duty regulations need to acknowledge this 
cycle.
    Because the FAA's present fatigue regulations are antiquated and 
outmoded, they have frequently been augmented by contractual work rules 
negotiated between pilots and their employers in the decades from 1960 
to the mid 80s. Through the restructuring of pilot contracts in 
corporate bankruptcies (note: over 160 U.S. airlines have gone through 
bankruptcy since 1980) and the complete absence of negotiated work rule 
improvements at many carriers, there has been non-uniform treatment of 
flight duty and rest limitations at the various airlines, leaving only 
the antiquated Federal Aviation Regulations to govern maximum duty days 
and minimum rest periods for thousands of airline pilots. Further 
exacerbating the problem is the fact that pilot wage rates and pensions 
were slashed by more than 30 percent in corporate bankruptcies forcing 
pilots to accept even more flights or face their own financial crisis. 
Fatigue provisions are rarely found within any pilot contract, 
especially within a regional airline agreement. Of the regional 
contracts that do have such provisions, only one of which we are aware 
allows a pilot to recoup his or her lost pay. All contracts of which we 
are aware contain real threats of disciplinary action if the company 
determines that a pilot's claim of fatigue was fraudulent.
    In recent times, there has been severe pressure on individual 
airlines to slash pilot staffing and reduce rest periods to minimum 
levels due to a belief that such actions would result in 
``productivity'' increases necessary for economic survival. The demands 
for more monthly and yearly flight hours flown by fewer pilots has lead 
to endemic fatigue levels, and with fewer pilots staffed on reserve or 
standby duty for weather disruptions, pilots are forced to fly more 
flights to the upper limits of the FARs or watch as scheduled flights 
are canceled for lack of available rested crews. The fatigue cushion 
once provided by negotiated work rules has been virtually eliminated 
largely due to a single-minded focus by airline managements on 
minimizing the labor costs associated with flight operations. This 
elimination of the fatigue protections once provided by negotiated work 
rules that were developed over decades of experience at most 
established air carriers means that today, for more and more pilots, 
the bare minimum protections afforded by the FAA flight and rest 
regulations have become a daily way of life.
    The current cumulative effects of reduced rest resulting from 
working to minimum FAA limits, combined with the effect of personal 
financial stress and uncertainty brought about by nearly 8 years of 
severe economic downtimes in the industry, have taken a severe toll 
upon pilots. Many pilots feel that they are just hanging on to a barely 
tolerable job instead of pursuing a once-promising career. Today's 
airline pilot is typically working substantially more hours for less 
money and spending more hours away from home than his or her 
predecessors. In addition, regularly required training events are 
crammed on top of the monthly flight schedule often paying less than 3 
hours of pay for 8 hours of training with none of that time counting 
toward the FAR flight time limits. The repeated attempts by airline 
managements in recent years to return U.S. airlines to an era of 
profitability by cutting labor costs continues to be paid for by the 
daily sacrifices and toil of airline pilots and other workers.
    ALPA joins the National Transportation Safety Board (NTSB), which 
since 1990 has identified reducing accidents and incidents caused by 
human fatigue as one of its ``Most Wanted Transportation Safety 
Improvements'' in the United States, in calling for revisions to the 
current FAA regulations based on fatigue research, circadian rhythms, 
and sleep and rest requirements. The current FAA rules glaringly fail 
to adequately address any of these issues and reform is decades 
overdue. Other U.S. Federal agencies have moved toward scientifically-
based worker fatigue regulations; the FAA is simply lagging behind 
other agencies when it comes to the need to modernize its fatigue 
rules.
    When addressing possible revisions to the current FAA flight duty 
and rest regulations applicable to pilots, airlines and their pilots 
are immediately at cross-purposes. Managements are looking for more 
availability and ``productivity'' from flight crews. For flight crews, 
safety advocates and scientists, the question is often not whether to 
change the current rules, but rather how much to reduce the current 
maximum flight and duty limitations to enhance safety, raise human 
performance to acceptable levels, and reduce risk. Hence, the past 
approach of creating proposed regulations on notions of operational 
necessity without the assistance of scientists and technical advisors, 
or reference to the technical literature, has failed. Needed are rules 
which are grounded in the results of scientifically based fatigue 
studies and safety reports.
    The International Civil Aviation Organization (ICAO) has enacted 
standards that will become effective in November 2009 which will 
require participating states to adopt rules limiting airline pilot duty 
periods that are based on science. The United States' airline pilot 
fatigue rules currently do not meet this new international standard and 
the FAA will be under pressure to comply. In Europe, new regulations 
governing airline pilot flight time limitations were enacted in 2008. 
While implementation of these new regulations in individual European 
Union member states is an ongoing process, the design and 
implementation of scientifically-based airline pilot fatigue rules has 
been underway in Europe for some time. For example, the United Kingdom 
has for years had science-based airline pilot flight and duty time 
regulations. The U.K.'s rules, embodied in Civil Aviation Authority 
document CAP 371, account for human circadian rhythms and adjust 
maximum pilot duty periods based on time of day, number of flight legs, 
time zones crossed, acclimatization to local time and other factors. 
Under these scientifically-based rules, if a pilot who is normally 
awake during the day and asleep at night reports for duty during the 
middle of the night, he or she is simply not permitted to work as long 
as if he or she reported during normal daylight hours. The current FAA 
rules incorporate none of these modern, scientifically-justified 
fatigue protections.
    Pilots performing commercial flying duties must have regulatory 
safeguards which provide them with an opportunity to get an adequate 
night of sleep before each duty day of flying. In some cases, pilots 
may lack access to adequate rest facilities to obtain needed 
recuperative sleep in order to prepare to safely operate the next 
flight or series of flights. Unfortunately, the combination of duty 
periods and personal or industry economic circumstances may in some 
cases operate to deny a pilot a realistic opportunity to obtain 
facilities for needed rest. Ensuring that a meaningful opportunity for 
rest is provided combined with a scientifically determined maximum 
length duty day, including provisions for the type of flying 
accomplished--whether it be traditional short haul, multiple sector 
flying or flights across multiple time zones--is essential to ensure 
that the U.S. air transportation system continues its envied record of 
safety. We believe it is possible to implement needed regulatory 
changes that will adequately address safety needs and the issues 
related to pilot fatigue without negatively impacting the ability of 
the Nation's airlines to serve the needs of the public.
    To that end, we were pleased the Commerce Committee included a 
provision in S. 1300 to arrange for a study by the National Academy of 
Sciences on pilot fatigue which will examine recommendations made by 
the NTSB and the National Aeronautics and Space Administration (NASA) 
on this subject, and provide recommendations concerning the FAA's 
flight and duty regulations. ALPA stands ready to work with regulators 
and the industry to develop science-based rules that will adequately 
address the problem of fatigue.
Fatigue Risk Management Systems
    A fatigue risk management system (FRMS) is a science-based, data-
driven process used to continuously monitor and manage fatigue risks. 
An FRMS is intended to be implemented within an airline's safety 
management system (SMS) to allow operational efficiency for unique and 
specific operations when needed while also mitigating fatigue-inducing 
factors. An FRMS offers an effective, alternative means of evaluating 
and managing risk when compared to a purely prescriptive scheme but it 
is intended to be built upon--and create synergy with--defined, 
prescriptive flight and duty time regulations. I would invite the 
Committee to review ALPA's white paper on FRMS, published in June 2008, 
for additional information on this subject.
    Revised regulations must provide guidance based on science that 
accounts for start and stop times related to crew circadian rhythms, 
the number of takeoffs and landings related to crew duty days, and any 
time zones that must be crossed. Science-based regulations, coupled 
with an FRMS, can allow some flexibility in unusual flight operational 
situations.
    Since fatigue is such a critical factor in daily airline 
operations, ALPA published The Airline Pilots' Guide to Fighting 
Fatigue in October 2008. This booklet may be carried by crews and 
provides guidance to understanding and dealing with fatigue. 
Understanding and mitigating fatigue is extremely important and assists 
crews in flying in as rested a state as possible, given the inadequate 
regulations governing the tempo of operations. We are presently 
updating this document to give pilots guidance on ``responsible 
commuting.''
Airline Training Programs
    Most airlines, which include many of the major or ``legacy'' 
carriers and the larger, ``mature,'' regional airlines, do an 
outstanding job of hiring and training pilots. They normally require 
significant flight experience including substantial amounts of multi-
engine and turbojet time. However, some smaller regional airlines which 
may have very thin profit margins due to the economics of the contract 
between them and their major airline, have traditionally not offered 
compensation packages which enable them to hire experienced pilots. As 
a result, they must often employ pilots with little experience and bare 
minimum qualifications who are willing to take these low-paying 
positions in exchange for an opportunity to build experience so that 
they can move to a career airline.
    Some airline training programs, including those at mature regional 
airlines, are extensive and exceed the regulatory minimums. When pilot 
experience at the new-hire level dropped severely below 1,000 hours, or 
less than a year's worth of total flight experience, these airlines 
wisely extended their training process and doubled the initial 
operating experience (IOE) program requirement for these pilots. 
However, this cannot be said for all airlines.
    Economic pressures push some airlines to train to the minimum 
requirements set by regulations. These minimums were established 
decades ago and were based on pilots coming into the airlines with much 
more experience than many pilots have today. Experience allows pilots 
to broaden their approach to problem solving and decisionmaking above 
the technical proficiency needed to fly the aircraft. It allows for the 
recognition of outside patterns and trends that develop during the 
course of routine flights and permits crewmembers to accomplish tasks 
specific to their cockpit position as well as be aware of the tasks 
being performed by other crewmembers. Experienced pilots tend to 
identify more pertinent clues and generate more alternatives in problem 
solving and decisionmaking than inexperienced pilots
    ALPA believes the licensing and training methodologies used 
successfully in the past may not work where airline pilots entering 
airline operations do not have the background or experience that 
previous generations of incoming airline pilots possessed. In meeting 
this challenge, the airlines and other training providers must develop 
methodologies to ``train experience'' that in the past was acquired in 
the traditional maturation and progression to becoming an airline 
pilot. This training should include extensive and detailed academic 
courses of learning taught in classrooms by well-qualified instructors.
Screening
    Few, if any, airlines tailor their training programs based on their 
new hires' past flying experience. The airline industry has seen 
significant changes--some of which involve pilot demographics--that 
have not been reflected in our training practices. For example, there 
are considerably fewer former military pilots in the airline ranks than 
in years past. The military services extensively screen their 
candidates, who are generally required to have a four-year college 
degree, before being accepted into pilot training. Once accepted, 
military training provides intense and rigorous classroom academic 
instruction as well as in-depth flight instruction that takes over 1 
year. Additionally, pilots today coming from non-military backgrounds 
often do not have the challenging experience of their predecessors on 
which to build--e.g. flying corporate, night freight, or flight 
instructing--before being hired at entry-level, or regional air 
carriers. These demographic changes require a new focus on 
standardization and professionalism training and even some fundamental 
flying skills. The previous training programs based on the assumption 
of more experienced pilot candidates will not be sufficient; ``one-
size-fits-all'' training is ill suited to the task.
    The financial commitment of training and the historical time 
commitment to build experience to qualify to be hired by an airline 
through the civilian route and the considerable time and sacrifices 
needed to serve in the military acted as a screening process to 
eliminate those only marginally interested in becoming an airline 
pilot. However, with new pilots being hired with as little as 200 hours 
total flight time (much of which could have been in a simulator) and 
fewer military pilots seeking airline jobs, this de facto screening 
process that helped ensure only the highest performing people make it 
to the airlines is no longer effective. Today, many regional airlines 
do nothing to discourage their experienced pilots from quitting so as 
to hire lower-paid replacements.
    Flight experience and pilot capabilities cannot be measured by mere 
flight hours. Airlines used to have an extensive screening process that 
included psychological tests, academic knowledge tests, simulator 
flying skill evaluations and medical conditioning exams. As the number 
of pilot applicants declines and airlines become more desperate to fill 
the positions, these screening processes have been reduced and some 
elements completely eliminated.
    Airlines need to reestablish thorough screening processes, or their 
equivalent, to ensure that the applicants they hire will be able to 
maintain an equivalent or better level of safety, professionalism and 
performance than their predecessors. Flight schools need to implement 
extensive screening processes for students pursuing a professional 
pilot career. Regulators need to provide the oversight to ensure that 
these screening tools are implemented effectively by the airlines and 
flight training organizations, as well as modify pilot qualification 
regulations to include much more rigorous education and testing 
requirements in order to provide a screening process that begins prior 
to initial pilot certification and continues at the airlines.
Command and Leadership Training
    The FAA does not currently require command training for pilots who 
upgrade to captain. The agency does require that an applicant for an 
airline transport pilot certificate have knowledge of aeronautical 
decisionmaking and judgment, as well as crew resource management, to 
include crew communication and coordination. We do not consider these 
requirements to rise to the level of command training. The difference 
between the two approaches is a focus on knowing what to do versus 
knowing how to do it. Training in decisionmaking, for example, might 
emphasize all the things that a pilot must investigate in order to make 
a sound decision, but might not provide strategies for how to stick to 
that good decision in the face of pressure from outside entities to 
compromise.
    The role of captain includes far more than the ability to fly the 
aircraft from the left seat and perform the checklists. Some airlines 
have courses for teaching prospective captains how to lead a crew, 
exercise command authority, take charge of a situation, and so forth, 
all of which are critical safety skills that must be learned. They are 
not simply inherent to being the one ``in charge.'' Specific training 
should include emphasis on setting the tone for compliance by adhering 
to standardized procedures. Other topics that should be trained include 
reinforcing the skills, aptitude, and character necessary to lead 
fellow crewmembers (informally or otherwise) in compliance with 
procedures.
Need for Stronger Academic Emphasis
    The Joint Aviation Authority (JAA), now the European Aviation 
Safety Agency (EASA), and FAA pilot licensing requirements are both 
ICAO-compliant. The single biggest difference between EASA and FAA is 
knowledge requirements. The FAA theoretical knowledge is simply not as 
demanding as EASA, which has 14 written exams versus one by the FAA, 
which is a multiple-choice exam. The EASA exams require the student to 
be tested for 30-40 hours. By stark contrast, the FAA publishes its 
exam questions with answers provided so a student can purchase them, 
study the questions, and pass its single exam. Examination questions 
are not available for EASA exams in such a manner.
    The least demanding Federal Aviation Regulations which govern 
commercial pilot license requirements (i.e.,  61.125 and  61.155) 
specify the aeronautical knowledge requirements for commercial and 
airline transport pilot ratings. These rules were written decades ago, 
when there was no expectation that they would be used as minimum 
standards to train pilots to take jobs as airline first officers. The 
requirements emphasize weather and navigation, including interaction 
with air traffic control. There is some mention of aircraft 
aerodynamics and human factors, including aeronautical decisionmaking 
and judgment as well as crew resource management. The regulations allow 
self-study and many such training courses emphasize passing the test 
rather than learning the material. We do not feel these requirements 
are adequate to prepare a professional airline pilot. The ground 
instruction of these subjects needs to be strengthened with required 
formal classroom academic instruction and more extensive testing and 
examination.
    The EASA-approved training course for a commercial airline pilot 
tends to be rather structured and rigorous. FAA should develop and 
implement a corollary ground school and testing process in FAR Part 121 
for all pilots who seek commercial airline careers. Testing akin to the 
quality of the Certified Public Accountant (CPA) exams or bar exam for 
attorneys would benefit aviation by serving as a screening tool to 
ensure that, in the future, only the most knowledgeable and dedicated 
pilots join the ranks of airline pilots.
Airline Relationships
    The past several years have been very turbulent ones for the major, 
legacy airlines which have experienced numerous bankruptcies and 
changing operations. Rather than using their own pilots on the mainline 
seniority list to fly the 50- to 90-seat jet aircraft or modern 76-seat 
turboprop aircraft into mid-size and smaller cities in the U.S., Canada 
and Mexico, they have established economic relationships with regional 
airlines to provide this service and feed the major carriers through 
their hub cities. The major carriers exert a great deal of economic, 
and other pressures on the regional airlines to provide their service 
at the lowest possible price. The major carrier controls all aspects of 
ticket pricing and schedules and regularly moves flying between their 
regional partners, which forces major changes of pilot domiciles among 
the regional carriers. An operational and safety relationship providing 
surveillance and oversight of regional airline operations must be 
required and maintained by those major carriers who either own or 
contractually use regional airlines. Even with these relationships, 
there is no guarantee that ``One Level of Safety'' will be provided by 
the dependent carriers. Safety comes not just from oversight from an 
outside airline or organization but is an intrinsic value built into an 
airline from the highest levels of internal management. Given 
operational criteria and guidance, this value must be recognized and 
nurtured to realize true safety in operations. ALPA's endeavors to 
establish One Level of Safety and contract standards have been rebuffed 
by the managements of some mainline and regional carriers.
    Before the practice of codesharing with regional partners began, 
ALL flying was done by the pilots of an airline on one, single pilot 
seniority list. This practice ensured that several years of airline 
operations experience for newly hired airline pilots--even those with 
military or thousands of hours of previous civilian flight time--was 
earned before assuming the command responsibilities of an airline 
captain. The pilots of the name brand airline were trained and met the 
same high standards, whether they flew 70-seat DC-9's or 400-seat B-
747's, or they were not promoted to be an airline captain. The pilots 
that once flew for such regional airlines (which were in the 70s and 
80s referred to as ``national carriers'') as Ozark, Southern, North 
Central, Hughes AirWest, AirCal , Allegheny, Piedmont, PSA, and 
Frontier, held career jobs at those carriers. They flew 40-50 seat 
propeller-powered aircraft and 70- to 100-seat jet aircraft. They had 
good jobs with pensions, work rules, and wages that made them career 
destinations. Those pilots were not just trying to gain experience to 
get a job with a major airline. Their pilot seniority list operated to 
guarantee stability and years of cockpit experience before assuming 
command. The merger mania of the 80s saw those carriers swept into the 
major or legacy airlines.
    Then, as competitive cost concerns increased with the post-
deregulated upstart carriers, the legacy airlines began to outsource 
the flying to as many as a dozen new ``regional'' partners flying 30- 
to 50-seat props and 50- to 90-seat jets. The name brand airline then 
began the practice of having their ``partners'' bid against each other 
to maintain these ``fee for departure'' outsourcing contracts. As the 
legacy airlines replaced more and more mainline flying by this 
outsourcing scheme to regional operators, they furloughed hundreds of 
highly experienced pilots, and refused to allow these experienced 
pilots to fly for the contractor carrier, effectively replacing them 
with lower paid and lower experienced pilots.
    With this overriding concern on lowering costs by the legacy 
carrier, the stable and experienced regional partners were whipsawed 
against each other and forced to continually lower their costs to 
today's substandard levels or be replaced by another newly created 
contractor. This system of replacing one regional with another has 
created unprecedented, rapid growth at a few low-cost regionals where 
newly hired pilots are upgraded to Captain with less than 1 year of air 
line flying experience. A copilot seeking to upgrade to captain with 
the minimum of 1,500 total hours has not been through several years of 
thunderstorms and winter storms despite the fact that they meet the FAA 
minimums. He or she has not flown with hundreds of other Captains nor 
been through several years of annual training and checking events. 
Before this unconscionable focus on outsourcing mania began, most 
airline pilots would have 10 or more years of airline experience as a 
co-pilot before qualifying for command.
    The legacy airlines grant these outsourcing contracts to the 
regional carriers for short periods from 2 to 7 years so that higher 
costs and their experienced pilots can once again be replaced by new 
airlines with new pilots. Today, even though the ``regional'' carriers 
are flying up to 40 percent of the U.S. airline domestic system, few of 
the regional airline pilot jobs created by the outsourcing schemes are 
worthy of an experienced aviator career. The duties and responsibility 
of a captain and a co-pilot flying 30 to 100 passengers for a regional 
partner airline is just as important to their passengers as a Captain 
flying a B-777 or Airbus 330 for a legacy carrier. In a further example 
of this safety compromising business practice, the legacy airline, will 
oftentimes during growth periods refuse to hire the experienced 
``regional'' pilot from one of their fully owned or contract partners 
to become a co-pilot on a 100-120 seat mainline airplane. However, that 
same pilot may be a captain flying a complex jet aircraft with 70 
passengers on 5 or 6 flights per day in the service of the codeshare, 
mainline airline which sold the ticket to the passengers. This cycle of 
outsourcing with very little oversight by the ticket-selling carrier 
has created a very unstable environment which has broken the One Level 
of Safety mandate.
    The NTSB has performed several safety studies of the regional, air 
taxi, and air carrier industry. As a result of those studies, the Board 
called upon major airlines and their code-sharing partners to establish 
a program of operational oversight that would include periodic safety 
audits of flight operations, training programs, and maintenance and 
inspection as well as emphasize the exchange of information and 
resources that will enhance the safety of flight operations. The Board 
believes that there may be large differences between code-sharing 
partners in terms of the knowledge, expertise, and other resources for 
assuring safe operations. They noted that this is particularly true 
when a code-sharing carrier uses the brand identity name and paint 
scheme of the larger carrier. Passengers have no choice but to fly on 
the code-share carriers even though they purchased their ticket from 
the major carrier and deserve the same level of operational oversight, 
control and service, which the code-share partner may not be able to 
deliver.
    The regional airlines, in their own cost-saving measures, have gone 
to extraordinary lengths to provide their product at the lowest 
possible price. As an example, Trans States Holdings, which operates 
Trans States Airlines, established a second subsidiary airline, GoJet 
Airlines, which operates United Express flights from United Airlines 
hubs at Chicago O'Hare, Denver, and Washington Dulles airports flying 
Bombardier CRJ700 Regional Jets. A passenger buying a ticket on United 
Airlines may very well, unwittingly, end up on a GoJet flight. As a new 
airline, GoJet can abrogate prior relationships their parent airline 
may have with service providers to provide cheap airline seats for 
their codeshare partner.
    Another example of this type of cost pressure can be seen at 
Midwest Airlines which has outsourced over 75 percent of its flying to 
regional partners. They have laid off 75 percent of their experienced 
pilots and replaced them by contracting with Republic and Skywest 
Airlines. Midwest Airlines refuses to train their long-time pilots in 
the new smaller jet aircraft. This has the effect of the Midwest pilots 
with over 15 years of airline experience being replaced by pilots with 
less than 3 years experience in a blatant disregard for the value of 
its own employees. Economics of outsourcing to cheaper contractors has 
clearly trumped the safety value of maintaining experience in the 
cockpit.
    Pilots flying for airlines like GoJet, Gulfstream, Colgan and 
others are at the bottom of the economic scale with starting salaries 
below $20,000 per year. In many cases, pilots have accumulated 
extraordinary costs just to earn the basic FAA licenses of commercial, 
instrument and multi-engine ratings. A 4-year flight education at a 
college or university can cost from $120,000 to $180,000, or more. It 
is difficult to repay these expenses and maintain any sort of 
reasonable lifestyle on the starting pay of a regional pilot. So these 
jobs frequently end up as a stepping stone to a major carrier, an 
opportunity to build valuable flight time before moving on to a more 
lucrative job with a major carrier. In fact, some airlines publicly 
call themselves ``stepping stones'' without reservation, as could be 
heard in a recent NTSB public hearing. This type of relationship 
effectively represents a disincentive to provide more than the bare 
minimum training or to provide any motivation for experienced employees 
to remain. Typical wage differences between major and regional carriers 
can be as much as $70,000 for a Captain and $50,000 for a first officer 
at 5 years of service. The differentials increase dramatically the 
longer the pilot is employed.
    When an economic downturn comes, operations contract, major 
airlines park their airplanes, and employees are furloughed. These 
furloughed employees will generally not take the jobs in the regional 
industry; they have other skills to market. It is a telling factor that 
as pilots were called back from furloughs following the 9/11 downturn, 
a majority chose not to return even to the major airlines; they found 
other jobs, many times in an entirely different industry, or returned 
to full-time military service. In today's economic and outsourcing 
business practices, pilots with decades of experience are laid off from 
the legacy airlines and cannot afford to work for one of the regional 
partner airlines as a newly hired first officer. Their experience is 
not given any value for employment at the legacy carrier's codeshare 
partners and they are faced with starting over as a first officer for 
less than $20,000 per year.
    In today's airline industry, the legacy major airlines have farmed 
out the flying to the lowest regional bidder while rejecting any 
attempts to retain their experienced pilots within their extended 
airline systems.
    Retirement benefits have also been reduced within the regional 
industry. Managements have refused to grant sufficient improvements for 
retirement benefits due to, among other reasons, the (assumed) belief 
that the pilot will not be there long anyway. However, as we have seen, 
the overall longevity of pilots staying at the regional level has 
increased as the economic outlook has changed. Major carriers have 
reduced their overall capacity steadily in recent years, and at the 
same time reduced their pilot headcount. When combined with the 
increase in retirement age to 65, the regional pilot may have little 
choice but to maintain employment at a carrier that offers lower wages, 
with lower health and retirement benefits and far less in quality of 
life.
Commuting Pilots
    Aviation is a turbulent industry; numerous cost and operational 
pressures occur daily. Airlines frequently make adjustments to their 
fleets' size and geographical distribution. Crew bases open, close, or 
change, sometimes with little or no notice to employees stationed 
there. An airline that services a city or town with a Bombardier CRJ700 
jet today may serve it with an ATR-42 turboprop tomorrow and next week, 
service may cease entirely. As these operational decisions are made, 
crew bases move, change, or close. A CRJ base may become an ATR-42 base 
and the CRJ base may move to a different part of the country. When 
companies make such changes, the pilots involved may have several 
alternatives. They can move to the new base where CRJs are being flown, 
they can remain where they live and commute to the new base, or, if 
permitted by their employer, they can be trained in the new airplane 
now being flown out of their old base, which may require a large pay 
cut. Any of these can be very disruptive for the pilots and in turn, 
their families.
    A pilot may want to stay on the CRJ, for example, but cannot or 
does not want to move to the new base. Any number of factors can 
influence that decision, including children in school, relationships 
with friends, or housing costs. For instance, the cost of living in Des 
Moines, Iowa is considerably less than the cost of living near JFK in 
New York. Thus, the pilot is more likely to maintain his home in Des 
Moines and commute to work, reducing his days off, his free time and 
his overall lifestyle. That decision to stay on the CRJ will 
necessitate commuting to the new base. The pilot may share or lease an 
apartment, plan to stay with friends, or use a hotel for accommodations 
in the new base. Generally, economic factors determine the course of 
action, but the basic problem of a relocated crew base is out of the 
pilot's control; it is forced by the industry and pilots cope as best 
they can. Most regional carriers, while they offer some expenses toward 
the moving of displaced crewmembers, offer little if anything to 
voluntary moves. The difference between voluntary and displaced 
movement is often a blurred line between having a job and losing a job. 
However in today's circumstances, even the limited monetary help a 
regional carrier may provide does not cover the costs of moving a 
family many times over a pilot's career.
    Commuting has a number of complicating factors, which include:

  <bullet> employer's sick leave and attendance-reliability policies

  <bullet> very few seats are available for pilots forced to commute on 
        today's full airplanes,

  <bullet> airline policies which prohibit positive-space 
        transportation,

  <bullet> inadequate or non-existent relocation provisions, and

  <bullet> commuting policies which require pilots to depart home base 
        with several backup flights.

    This difficult reality adds to the creation of stress and further 
increases pilot fatigue factors. ALPA encourages airline managements to 
work with their pilots to establish new or improved commuting policies 
and scheduling practices that take into account these lifestyle issues.
Safety Data and Reporting Programs
    What should be done to make improvements now while we are 
implementing the previously discussed changes in training and 
qualifications? There are programs available to the aviation industry 
today, such as Flight Operations Quality Assurance (FOQA) and Aviation 
Safety Action Program (ASAP), that can provide important and needed 
oversight information, not only internally within air carriers, but 
also for the overall air transportation system. The safety data 
provided by these programs are making differences in safety and 
efficiency of air carrier operations. Approximately 90 percent of the 
data provided through ASAP is sole-source data. This is safety data 
that will not and cannot be gathered by other means and it can be 
critical and essential to improve the safety performance of our 
industry.
    Safety Management Systems (SMS) are mandated by ICAO standards. SMS 
programs are being developed for use by U.S. aviation entities. Safety 
reporting and safety data are intrinsic in SMS programs and ASAP and 
FOQA should be an integral part of any SMS.
    In order to make the data more readily obtained and available for 
safety improvements only, protections need to be put in place that will 
limit the data use in civil liability cases. Restraints also need to be 
strengthened for the use of the data for safety purposes only. The data 
has an important safety benefit and it must not be compromised. Unless 
there are improved protections that will limit the use of the data to 
solely safety purposes, the flow of reports will cease. These programs 
are a critical safety benefit for the industry that need to be 
nurtured, protected, and promoted at all levels of the air carrier 
industry.
Promoting Professionalism in the Industry
    The best safety device on any airplane is a well trained, well 
rested, highly motivated pilot. A safety culture at an airline must be 
instilled and consistently reinforced from the highest levels within 
the organization. An organizational safety culture will encourage the 
highest levels of performance among professional pilots.
    This high level emphasis must go hand-in-hand with appropriate 
training. Standard operating procedures must be just that; they should 
be the operating norm for all flight crewmembers and deviations should 
not be allowed except for extraordinary circumstances. Pilots-in-
command should be encouraged to mentor their first officers and instill 
in them the desire to maintain the highest standards of operational 
safety.
    ALPA offers professional standards programs and structure which 
reinforce professional conduct in the cockpit. Similarly, airlines need 
to provide special command training courses for new captains to instill 
in them the necessary traits to be a real leader on the flight deck. In 
addition to basic required skills such as aeronautical decisionmaking 
and crew resource management, new captains should receive training to 
reinforce the skills, aptitudes, and character necessary to properly 
lead a crew, exercise command authority, and maintain the highest 
levels of safety in the face of internal or external pressures that may 
tend to lower operational safety margins.
    In the case of the Colgan Air accident, the pilot group was new to 
ALPA, and unfortunately the professional standards structure was just 
being established.
Mentoring Programs
    In addition to promoting professional conduct among crewmembers, at 
least one airline whose pilots ALPA represents has a detailed, 
structured, pilot-mentoring program. This program provides a wide 
variety of resources and benefits to new-hire crewmembers as they 
become acquainted with their airline and becoming an airline pilot. The 
program pairs experienced line pilots with new hire pilots in an effort 
to answer many of the frequently asked questions, such as bidding, jump 
seat travel, vacation, etc., from new hires. Pilot mentors also assist 
new hires as they transition from the training environment to flying 
the line, and throughout their first, probationary year. There is also 
another aspect of the program that assigns a senior captain or check 
airman to newly upgraded captains once they are online and out on their 
own. This greatly assists new captains as they become accustomed to 
requirements for command.
Call to Action
    On Monday, June 15, 2009, the FAA held a meeting, a ``Call to 
Action'', for industry and FAA to identify a few key initiatives that 
can be incorporated voluntarily by operators. The subjects discussed 
included many of the very issues we are discussing here; crew 
education, professional standards and flight discipline, training 
standards, and mentoring. This was an important first step toward 
recognizing and acknowledging problems and developing and implementing 
solutions. We stand ready and look forward to future meetings so we can 
truly and thoroughly address airline safety issues and make real 
progress toward realizing One Level of Safety.
Conclusions and Recommendations
    In conclusion, ALPA believes that it is essential, and long 
overdue, that the flight and duty time rules for commercial aviation 
operations be revised based on readily available science. Issues that 
must be addressed include providing crewmembers a minimum rest period 
that will allow an opportunity for 8 hours of sleep, and there should 
be provisions for operations on the back side of a pilot's circadian 
rhythms. Additionally, a pilot's duty day length should be based on 
when the day begins and how many flight segments are scheduled.
    In regard to training, we feel there should be more stringent 
academic requirements in FAR Part 121 to obtain both commercial and 
airline transport pilot ratings. Airlines should provide specific 
command training courses for new captains to instill in them the 
necessary skills and traits to be a real leader on the flight deck. 
Airlines should also implement mentoring programs for both captains and 
first officers as they first enter operations in their crew position to 
help them become comfortable and reinforce the knowledge and skills 
learned in training and apply them to line operations.
    Airline training needs to account for the source of their pilots 
and assume the minimum experience level. There should be structured, 
in-depth oversight of code-share partners by the major carriers to 
include periodic safety audits of flight operations, training programs, 
and maintenance and inspection. The best practices in use by major 
carriers need to be mentored into their smaller codeshare partners.
    Safety data provided through important data sharing programs such 
as FOQA and ASAP needs to be vigorously protected from inappropriate 
use and preserved for the sole purpose of improving safety and 
operational efficiency. Further, these programs need to be promoted at 
all levels of the industry.
    Finally, airline managements and their pilots should work closely 
together to promote policies and practices that instill a strong safety 
culture throughout the organization; reinforce the importance of 
professionalism in all aspects of operations; and recognize the value 
of well trained, well rested, and highly motivated employees.
    Thank you, again, for the opportunity to testify today. I would be 
pleased to address any questions that you may have.

    Senator Dorgan. Thank you very much, Captain Prater.
    And finally, we will hear from Mr. Maurer, Mr. Scott 
Maurer, who is a representative of the Families of Continental 
Flight 3407.
    Mr. Maurer, I know that your daughter, Lorin, was a 
passenger on that flight, and I know that it is likely 
difficult for you to speak publicly about these issues, but, on 
behalf of the families, I believe that all of you wanted an 
opportunity to do that, and I am pleased to give you that 
opportunity. And our thoughts and sympathies are with you and 
the families.

      STATEMENT OF SCOTT MAURER, FATHER OF LORIN MAURER, 
   REPRESENTATIVE OF THE FAMILIES OF CONTINENTAL FLIGHT 3407

    Mr. Maurer. Thank you. And bear with me.
    On behalf of the Families of Continental Flight 3407, we 
would like to thank you, Chairman Dorgan and Ranking Member 
Senator DeMint and all of the other subcommittee members of 
aviation, for the opportunity to speak to you today.
    My name is Scott Maurer, and, you've heard, my daughter, 
Lorin Maurer, was a passenger on Continental Flight 3407.
    Tomorrow night, at 10:17, it will be 18 weeks since our 
lives were changed forever. The minutes, hours, days, and weeks 
that have passed since this tragedy have been an unbelievable 
nightmare for all of us. It's a pain that you will never know, 
and certainly one we hope no one else will face.
    We believe very strongly the crash did not have to happen, 
and was preventable. As such, we are here today, and will be 
here tomorrow and beyond, to ask for your help and push for 
change so that other families can be spared this pain.
    When my 30-year-old daughter, Lorin Maurer, an athletics 
fundraiser at Princeton University and future athletic 
director, purchased her ticket from Continental Airlines, she 
assumed the pilots would fly--who would fly that plane were 
competently trained. She thought they had significant 
experience and knowledge of the plane and all of the flight 
control features. As she took her seat in 3A for an exciting 
Valentine weekend to join her boyfriend, Kevin Kuwik, in 
Buffalo, I am sure she believed that the pilots at the controls 
had been trained to handle cold-weather flight conditions, 
stalls, and other emergency situations that all pilots are 
expected to be prepared to confront. There are many other 
examples I could share from the victims' perspective, but time 
limits will not allow, today.
    The critical message I do want to relay to you here today 
is that when the American public buys a ticket from an airline, 
they assume and expect that safety is in their--that their 
safety is in good hands. Sadly, we find that that is not always 
the case, and we are here today imploring you for assistance 
and action.
    So, how can you help?
    Number one, let's put the best pilots in the cockpit and 
set them up for success. Now, this sounds very simple, but, in 
reality, it takes money to do this, and the airline industry 
has not stepped up to the plate. Pilot hiring procedures, 
training, fatigue management, and compensation have all been 
discussed throughout these hearings. The media attention 
focused on the failures of Colgan Air and its flight crew have 
resulted in a hastily called emergency summit meeting, earlier 
this week, bringing together representatives of the FAA and the 
airline industry to discuss these very same issues. 
Unfortunately, meetings of this magnitude have been done 
before, resulting in little change, as the costs have always 
been too high for implementation. The breakdown--to break down 
the bureaucratic logjam, the families of the victims are now 
forced to ask Congress to intervene and do the right thing for 
public safety.
    Number two, better aviation oversight by the Federal 
Government. Americans believe that the role of the FAA is that 
of a gatekeeper, an agency that is technically trained and 
expertly qualified to watch over the airline industry for the 
safety of the American public. We have certainly identified 
leaks in this dike. While we are optimistic that the newly 
appointed administrator hears our pleas for action, we fear 
that the obstacles thrown up by the airline industry and pilot 
unions will be very hard to overcome. Again, we are asking for 
Congressional intervention, as history of these organizations 
voluntarily taking action to improve safety has been woefully 
inadequate.
    Number three, NTSB recommendations. Why are we willing to 
accept an 85-percent implementation rate of NTSB 
recommendations by the FAA, when 100-percent would save lives? 
Would I even be sitting here talking to you today, had previous 
recommendations for training and cold-weather flight management 
been acted on? These recommendations must be taken seriously 
and acted on jointly by the FAA and the NTSB. We must learn 
from accidents so we can prevent future occurrence.
    My wife, Terry, my son, Christopher, and Lorin's boyfriend, 
Kevin, miss Lorin every minute of every day. I will not have 
the opportunity to walk my daughter down the aisle and give her 
away in marriage. She will not experience the joy of a growing 
child within and raising a loving family, as we did. Our 
traditional Christmas Eve visit to New York City for some last-
minute shopping and taking in Mass at Saint Patrick's Cathedral 
will be--will probably come to an end this year; it'll just be 
too painful to make that trip without Lorin.
    Many of my fellow crash-victim families sitting behind me 
also have similar stories and similar losses.
    So, now it's up to you to make a difference. Everyone in 
this room today, and those who were here last Wednesday, 
expressed that they have come before you to make the necessary 
changes in safety. Winter is coming. If we do not implement 
critical safety changes before then, and another accident 
occurs, we can only blame ourselves for the losses of those 
families. I do not wish to shoulder that burden, and hope and 
believe that you agree with me.
    Mr. Chairman, Ranking Member Senator DeMint, and all of the 
other Aviation Subcommittee members, thank you for your time. 
And I'm open, also, to answering questions.
    [The prepared statement of Mr. Maurer follows:]

      Prepared Statement of Scott Maurer, Father of Lorin Maurer, 
       Representative of the Families of Continental Flight 3407
    On behalf of the Families of Flight 3407, we would like to thank 
Chairman Dorgan, Minority Leader Senator DeMint, and all other members 
of the Senate Subcommittee on Aviation for the opportunity to speak to 
you today. My name is Scott Maurer. My daughter, Lorin Maurer, was on 
board Continental Flight 3407.
    Tomorrow night at 10:17 p.m. will be 18 weeks since our lives were 
changed forever. The minutes, hours, days, and weeks that have past 
since this tragedy have been an unbelievable nightmare for all of us. 
It is a pain that you will never know, and one that we hope no one else 
must face. We believe very strongly that the crash did not have to 
happen and was preventable. As such, we are here today, and we will be 
here tomorrow and beyond, to ask for help and to push for change so 
that other families can be spared this pain.
    When my 30-year-old daughter, Lorin Maurer, an Athletics Fundraiser 
at Princeton University and future Athletic Director, purchased her 
plane ticket from Continental Airlines, she assumed that the pilots who 
would fly the plane were competently trained. She thought they had 
significant experience and knowledge of the plane and all of the flight 
control features. As she took her seat in 3A for an exciting Valentine 
weekend trip to join her boyfriend, Kevin Kuwik, in Buffalo, NY and 
attend the wedding of his brother, I am sure she believed that the 
pilots at the controls has been trained to handle cold weather flight 
conditions, stalls, and other emergency situations all pilots must be 
prepared to confront.
    When 45-year-old Darren Tolsma, father of two beautiful young 
children and a highly specialized defense systems engineer, took the 
opportunity to board an earlier flight than originally planned to 
return home sooner to be with his wonderful family, he believed that 
all airlines use thorough pilot hiring practices to ensure competent 
and qualified employees. This would include a review of previous 
employment experience and demonstrated proficiencies to insure the 
skill levels necessary to transport civilian passengers on commercial 
aircraft safely.
    When 33-year-old Coleman Mellett and 64-year-old Gerry Niewood, two 
very gifted musicians for the Chuck Mangione jazz band, climbed aboard 
Continental 3407 to join fellow band members in Buffalo to perform a 
concert for a very excited western New York community, they thought 
that the FAA had conducted due diligence in its oversight of airlines, 
pilot training and operations to ensure the safety of all air 
travelers. They believed, as most Americans do, that there are enough 
checks and balances in place between government officials and the 
airline industry to ensure proper management of aviation safety. These 
wonderfully talented individuals were completely unaware of codeshare 
ticketing and the regional airline alliances with major airlines, and 
they were certainly unaware that such arrangements result in trickle 
down airline management that directly has an adverse effect on safety 
standards and procedures.
    As 57-year-old Beverly Eckert, an advocate for the victims of the 
September 11, 2001 terror attacks after she lost her husband Sean in 
the South Tower of the World Trade Center, made plans to journey to 
Buffalo to celebrate his birthday anniversary with family and friends, 
she was unaware that many pilots commute great distances to start their 
work day. The commute can be from Seattle, Washington to Newark, New 
Jersey, as was the case for the First Officer on Continental Connection 
Flight 3407, and can occur on the same day the pilot is scheduled to 
fly. This commute time is not part of the work schedule time 
established by the FAA to manage the dangerous condition of flight crew 
fatigue.
    When Doug Wielinski, father of four lovely daughters, intended to 
end his day enjoying his hobby with sports memorabilia and collectibles 
in the dining room area of his home on Long Street, he knew little of 
the low wages regional airline pilots are paid to begin an aviation 
career. Such low wages might deter talented and skilled pilots from 
pursuing an aviation career or cause those who do accept the entry 
level wage to moonlight with a second job to make ends meet, which 
might also contribute to pilot fatigue.
How Can You Help???
    1. ``Put the Best Pilots in the Cockpit and Set Them Up for 
Success''--We need to ensure that only the best pilots are placed in 
the cockpits of planes carrying passengers over American skies. Airline 
hiring practices must be reviewed and upgraded to bring more 
experienced pilots with demonstrated skills to the regional airlines. 
It is imperative that flight crews' full piloting histories are 
disclosed and/or readily accessible to airlines considering applicants 
for hire. PRIA provides some of this history, but other means of 
disclosure must be developed to allow the airlines to know who they are 
hiring. For example, requiring an authorization to obtain a pilot's 
complete airman file is one way to ensure that the prospective airline 
is fully aware of the pilot's history.
    At the NTSB public hearings, some of the testimony and comments 
from the witnesses and board members gave us a glimpse into the reality 
that the major airlines have substantially better training protocols, 
methods, and procedures than their regional partners. Additional 
simulator time and the most advanced training programs all cost money, 
and consequently are seen with much more frequency in the training 
departments of the major carriers. These major carriers also benefit 
from all the years of experience and knowledge that have accrued in 
their training departments due to their longevity. And their greater 
resources allow them to take full advantage of the most modern safety 
data analysis programs like FOQA (Flight Operation Quality Assurance 
program) and LOSA (Line Observation Safety Audits) where their regional 
partners can not. We simply ask is it too much for these major airlines 
to work closely with their respective codeshare partners to ensure that 
they provide their pilots with the best safety tools possible in terms 
of training and other industry best practices.
    Federal regulations regarding management of fatigue need to be 
updated to reflect the most recent scientific research information on 
this issue. Time to commute to duty work stations, flying during day 
time versus at night, and crossing multiple times zones all should be 
considered in updating this regulation of work time limits and rest.
    Compensation wages should be reviewed and upgraded to promote the 
attraction and retention of highly skilled pilots without concern for 
dual employment to make ends meet.
    2. ``Better Aviation Oversight by the Federal Government''--
Americans believe that the role of the FAA is that of a gatekeeper, 
staffed by people who are technically trained and expertly qualified to 
watch over the airline industry for the safety of the American public. 
We have studied numerous accidents over the past fifteen years in which 
the NTSB has provided safety recommendations to the FAA designed to 
prevent the same accidents from reoccurring. Many of these 
recommendations are still classified by the NTSB as having an 
unacceptable response to this day. Because the rulemaking process is so 
cumbersome, the FAA often attempts a workaround solution known as a 
Safety Alert (SAFO). Unfortunately, these SAFO's are offered to the 
airline industry to adopt or administer voluntarily. During testimony 
by Colgan's FAA Principal Operations Inspector at the NTSB hearing, we 
learned that because SAFO's are voluntary, they are not monitored for 
implementation and, in practice, they are routinely not adopted. 
Voluntary safety recommendations made to cash-strapped airlines cannot 
protect the flying public. It is imperative that the mechanism for 
translating NTSB safety recommendations into mandated practice be 
streamlined to eliminate what is often years of delay between 
recognition of a safety concern and action to correct it.
    From the transcript of the cockpit voice recorder, we learned of 
the ongoing and extended conversation between both pilots below the 
10,000 feet altitude sterile cockpit requirement. The current self-
reporting process used to monitor and address this FAA requirement 
clearly has gaping holes that invite abuse. An audit process must be 
implemented. Despite all of the commentary regarding pilot 
professionalism, we must recognize that these individuals are human and 
susceptible to human fault. Without implementing a true check system 
with accountability, it is improbable that this safety requirement will 
ever be met as intended. Indeed, violations of sterile cockpit are seen 
all too often in fatal crashes.
    We are encouraged by the appointment of a new FAA administrator, 
Randy Babbitt. Some of the family members were fortunate enough to meet 
Mr. Babbitt prior to his confirmation, and we are hopeful that he will 
offer a NEW beginning in leadership for the FAA. We hope he employs the 
``One Level of Safety'' attitude he used as president of the Air Line 
Pilots Association. Even the best-run companies are better served by 
audits and double checks on how they conduct business. The above 
examples only reconfirm to the families the need for the FAA to become 
more ``hands on'' in its oversight of the airline industry.
    3. NTSB recommendations--Earlier we mentioned that several NTSB 
recommendations were made with unacceptable responses returned by the 
FAA. To the families, it appears as though the NTSB and FAA are not 
working jointly together in the best interest of aviation safety. We 
ask that Congress intercede to get these agencies functioning like the 
team they were intended to be. Airline safety now and tomorrow is 
depending on it. We know you can learn from mistakes. Under the process 
as we understand it, the NTSB conducts an unbiased investigation to 
identify recommended solutions/actions to the FAA for development and 
implementation. On paper this process looks very good and should work 
but through the years we have seen very little progress.
    In regards to the safety recommendations derived from the Flight 
3407 investigation, the families and public wish to see immediate 
action. We expect 100 percent resolution between recommendations made 
by the NTSB and timely implementation by the FAA. We have repeatedly 
heard the proud commentary of ``85 percent implementation of all NTSB 
recommendations to date.'' We believe if both agencies work together 
they can find solutions that will yield 100 percent implementation and 
make airline safety much improved.
Summary
    In summary, the Families of Continental Connection Flight 3407 
would again like to thank the members of the Aviation Subcommittee for 
this opportunity to express our concerns and desires. Following 
previous accidents of a similar nature, the airline industry and the 
FAA have had ample time to do the right thing in terms of addressing 
threats to aviation safety, but still, our loved ones perished in a 
preventable crash. Now we must ask Congress to intervene in the 
interest of public aviation safety. As you make aviation policy 
decisions moving forward, please consider our requests and do NOT react 
to the influence of economics, lobbyists, personal interest groups, the 
airline industry, the airline pilots unions, or others with personal 
agendas. The families do NOT have such financial or influential 
resources as those listed above, putting us at a significant 
disadvantage.
    So we ask that these policy decisions be made by each of you 
individually as though your wife, husband, son, daughter, mother, 
father, brother, sister, other family member or loved one are boarding 
a plane. Please ``DO'' make changes that will prevent a tragedy like 
Continental Connection Flight 3407 from happening again. This tragedy 
was and is preventable. You can make a difference . . . please do.
    Chairman Dorgan and Minority Leader, Senator DeMint, I will 
entertain any questions the Committee might have at this time for the 
families.
                                 ______
                                 
                   In Memory--Continental Flight 3407

 
 
 
Mary Julia Abraham                   Georges Abu Karam
Clarence A. ``Larry'' Beutel III     David Borner
Ronald and Linda Davidson            Alison Des Forges
Beverly Eckert                       John J. Fiore
Ronald Gonzalez                      Brad S. Green
Zhaofang Guo                         Steven L. Johnson
Kevin W. Johnston                    Ruth Harel Katz
Ellyce Kausner                       Nicole Korczykowski and Johnathan
                                      Perry
Jerome Krasuski                      Brian Kuklewicz
Beth Ann Kushner                     Sean Lang
Madeline Linn Loftus                 Lorin Maurer
Don McDonald                         Coleman Mellett
Dawn Monachino                       Donald, Dawn, and Shawn Mossop
Jennifer Neill (and Baby Neill)      Gerard Niewood
Mary ``Belle'' Pettys                Donna Prisco
Matilda Quintero                     Ferris Reid
Capt. Marvin D. Renslow              Julie Ries
John G. Roberts III                  Kristin Safran
Rebecca Lynne Shaw                   Dipinder Sidhu
Jean Srnecz                          Darren Tolsma
Susan Wehle                          Ernest West
Douglas C. Wielinski                 Shibin Yao
Clay Yarber                          Joseph J. Zuffoletto
 

                                 ______
                                 
                         The Gaping Hole . . .
    . . . left in our lives by the needless loss of 51 loved ones on 
the night of February 12, 2009.

    They came from all over the country and world . . .

        8 countries--USA, Canada, Jamaica, Israel, Lebanon, India, 
        China, and Liberia

        9 states--NY, NJ, CT, PA, OH, CA, WA, FL, TX

    They valued education . . .

        2 were undergrads, 1 was in Law School, 2 were pursuing an MBA

        There were 5 Ivy League degrees among them

    They made the world a better place . . .

        There was a 9/11 activist and a human rights activist

        6 veterans of our armed forces, 7 combat tours, and 2 purple 
        hearts

        4 defense contractors dedicated to protecting our soldiers 
        lives

    They were talented . . .

        2 members of the Chuck Mangione Jazz band

        2 former collegiate athletes

    They were faith-filled . . .

    A cantor at a Jewish temple and an elder in a Jehovah's Witness 
congregation

    Most of all, they loved their families . . .

        21 left behind spouses, and 3 were engaged

        There were 2 married couples and one young boyfriend/girlfriend 
        couple

        1 passenger was 6 months pregnant

        20 children under the age of 18 lost a parent

        14 children lost a grandparent

        11 daughters lost their fathers and will never have their Dad 
        walk them down the aisle

        8 fathers lost their daughters and will never be able to give 
        their hand away in marriage

        17 mothers had to say goodbye to their sons

    . . . And we loved them.
                ``FAMILIES OF CONTINENTAL FLIGHT 3407''

    Senator Dorgan. Mr. Maurer, thank you very much.
    I indicated, in the last hearing, that I have some 
discomfort about a good many things, here. Reading the 
transcript of the cockpit recording demonstrated to me a number 
of errors occurred, a number of deficiencies occurred, in the 
management of that flight. I also said that that young copilot 
and pilot perished in that accident, as well, and they're not 
here to speak, they're not here to speak for themselves, and 
they have families who miss them terribly. And so, I'm 
discomforted by that. And yet, we have no choice but to proceed 
aggressively to find out, What are the standards, here? And are 
these accidents--was this an accident that could have been 
prevented? How do we prevent future accidents in circumstances 
like this?
    Let me ask a few questions, if I might. My understanding--I 
would say to Mr. May and Mr. Cohen, my understanding is that 
we're hiring pilots to put in a cockpit of commercial airlines 
with 30, 50, 80, 90 passengers behind the cockpit--we're hiring 
some of them for $10 an hour. Is that correct?
    Mr. Cohen. Mr. Chairman, the pay--the average pay of a 
regional airline captain is $72,000 per year. The average pay 
of a first officer at a RAA-member airline is $32,000 a year. 
That's very comparable to other professions that have lives at 
stake--medical assistants, paramedics----
    Senator Dorgan. But, Mr. Cohen, I'm asking what your--is it 
the case that we're hiring pilots to put in the cockpit of 
commercial airplanes and paying them $22-23,000 a year? That's 
$10 an hour, roughly. Isn't that the case? And if that's the 
case, one wonders, What is the capability of pilots that are 
coming out of school with a good many hours, who meet the 
technical qualifications, get hired for $10 an hour, and then 
live with their parents in Seattle and fly to Newark to a duty 
station, all night long. And at that salary, are they to going 
to hire a crash pad or maybe rent a hotel to get some sleep? 
Don't think so.
    So, my question is--a very specific question--isn't there a 
significant issue, here, about experience and funding and 
salaries at the entry level on some of these airplanes, where 
we're getting--all of us are getting on? The name is the same. 
We think it's--you know, it's Northwest, it's Continental, it's 
Delta, the same name; it's just--it's a different carrier, with 
a completely different standard, it seems to me, of hiring new 
pilots that are entering that cockpit. Am I wrong about that?
    Mr. Cohen. Mr. Chairman, I think I heard a couple of 
questions in there--let me just try to expand on a couple of 
things.
    First of all, and most importantly, compensation and safety 
are not related. The NTSB has never, in all of its accident 
investigations, ever cited compensation or pay as a causal 
factor, even a contributing factor, to an aircraft accident. 
The pay is fair and competitive in a very difficult industry. I 
am a 35-year veteran of the airline industry, and I will tell 
you that it is as Captain Prater pointed out, a very difficult 
industry. For the first time opportunity that a person comes 
into, these people are proficient, they are well trained, they 
are well qualified or we would not put that person in charge of 
that airplane, in charge of that crew, the safety of that 
flight--we would not do it, if that person weren't well trained 
and prepared.
    Senator Dorgan. Well, let me ask--do you have the chart 
with respect to commuting?
    [The information referred to follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Dorgan. Let me ask a question of Captain Prater. 
The--this chart shows the commuting for Colgan Airlines, but I 
assume it's a chart that applies to most airlines, people 
flying all over the country to get to their duty station. That 
shows Newark, and it shows the pilots, where they're living in 
order to fly to Newark to get to a duty station. Does that make 
any sense to you, Captain Prater? I understand you might say, 
``Well, you know what, it has always been that way. People need 
to get there. They've got be on their own, they've got to get 
adequate rest,'' and so on. But, this case had a copilot that 
flew all night long to get to her duty station. And so, does 
that make sense?
    Captain Prater. It makes sense. And I would agree with you 
that that is--represents the reality of our air transportation 
system and our pilots. However, I think we have to take a very 
close look, again, at the system that has created this. You 
can't open and close domiciles on a regular basis and transfer 
flying and lay off pilots at one airline and not give them some 
ability to either move to their new station or to get to work. 
Even if I am based in Houston and the company needs me out of 
Newark, they will deadhead me to Newark, they will get me to 
where I should start my flight. There is a huge responsibility 
that professional aviators take very near and dear. None of us 
get into a cockpit believing that we're going to fail that day. 
Every one of these aviators face the weather, the same weather 
and the same situation; engines fail, we have emergencies, and 
our pilots do it.
    Senator Dorgan. But, with very different levels of skill 
and experience. Do you agree?
    Captain Prater. Yes, without a doubt.
    Senator Dorgan. All right. Look, I have very limited time. 
I'm going to stay here and ask all my questions, at the end of 
this. I don't want to disabuse--or abuse, rather, the--my 
colleagues. But, the question of pilot records--Captain Prater, 
do you have a problem with--if we know everything about an 
airplane, that we--that a potential employer should know 
everything about a pilot's records?
    Captain Prater. I believe that the Record Act can be 
improved. I do think that history and performance is necessary 
and good, but don't look at that in a--as the entire story. We 
are constantly going through training, and must meet the 
standards every month, every week, every year. So, just like 
when you create an airplane, you test it to destruction; as 
pilots, we are trained to a point outside of what we can do. We 
must find our limit. You must push pilots, in their training, 
to be able to meet and succeed. But, many times that takes a 
lot of training, more than we're getting today.
    Senator Dorgan. You seem to imply, in your testimony, that 
there were two standards with respect to commercial--excuse me, 
commercial aviation. One would be the trunk carriers or network 
carriers, and the other, the regional. Do you believe there are 
two standards in the cockpit?
    Captain Prater. I'll say it succinctly. We have one level 
of regulation. We do not have one level of safety.
    Senator Dorgan. So, different levels of enforcement.
    Captain Prater. Yes.
    Senator Dorgan. Mr. May, do you agree with that?
    Mr. May. Mr. Chairman, I do agree, to this extent; FAR Part 
121 is the single standard that the FAA has promulgated, to 
which we all must adhere. I don't think there is any question 
that mainline carriers exceed that FAR Part 121 base far more 
often than most.
    Senator Dorgan. But, that which exists in law or rule is 
relevant, only to the extent you have a Federal agency that 
says, ``You know what, we're going to force you to own up 
to''--
    Mr. May. That is--
    Senator Dorgan.--``the law and the rule, and we're going to 
enforce it, and enforce it aggressively.''
    Mr. May. That is correct.
    Senator Dorgan. Do you believe that's the case now?
    Mr. May. I think that we could have greater enforcement. 
And if the Committee and the FAA choose, you can even change 
some of the parameters. We've suggested, as I said in my 
testimony today, you ought to have FOQA programs, ASAP 
programs, required as part of the base. I think you can use AQP 
programs on training. I think there are a number of issues on 
pilot records that you can resolve. All of those things could 
be done to further improve the environment.
    Senator Dorgan. One final point. Mr. Cohen and Mr. May, as 
I indicated when I started this hearing, I want to invite the 
folks that run the carriers, themselves, to come to that table. 
And we have made some invitations, and apparently have not had 
acceptance of those invitations. And we'll remake them, fully 
understanding that they will be accepted, and have another 
hearing with the airlines themselves.
    Captain Prater. Mr. Chairman, you have our commitment. 
Whoever you want, whenever you want, we will provide them here.
    Senator Dorgan. Thank you very much.
    Senator DeMint?
    Senator DeMint. Thank you, Mr. Chairman.
    I think we need to get a little more specific. And, Mr. 
May, I appreciate you mentioning specifics about what we can do 
with training. But, what I'm not hearing here today are 
specific ideas about, what do we need to change to prevent 
something like this from happening again? There have got to be 
things that come to mind that we need to change. Obviously we 
have some situations of violating current rules--no sterile 
cockpit, in this particular crash--that the pilots themselves 
violated rules. We need to make sure that that doesn't happen 
again. But, what do we need to do? What do the carriers need to 
do? What do we need to do, from a regulatory perspective? And 
do we need legislation that the regulators can't carry out? So, 
what we're looking for here is what we can do.
    And so, I would just like--Mr. May, starting with you, 
because you mentioned training--but, what we need are 
specifics, here, of things that can be done to improve safety, 
perhaps that this crash brings to light, that we're currently 
not doing or not requiring or not auditing. We have, so far, 
gotten a lot of assurances that safety is our main concern, but 
the reason we're here is that that broke down. So, I'm just 
looking for some ideas. We need to know if we need to push the 
regulators to do something different, we need to pass 
legislation, or do we need to insist on the carriers to do 
something that they're not doing?
    Mr. May, I'll go with you and then go----
    Mr. May. Senator DeMint, I think I made seven very specific 
recommendations in my oral testimony. I'll recap them for you 
today.
    I think there needs to be a requirement that regional 
carriers implement FOQA programs and ASAP programs, both of 
which Captain Prater, I think, would agree are all fully in use 
at mainline levels, and would make a marked difference, if 
applied at the regional levels.
    I think, number three, we need to put in a new training 
standard, if you will. There's a long, open NPRM on training at 
the FAA. I think probably it would be wise for the FAA to 
implement an ARC, an Aviation Rulemaking Committee, and take a 
hard look at AQP programs--Advanced Qualification Programs, if 
you will--that are--have been developed by mainline carriers, 
could be mentored and transported to regional carriers to 
improve safety, in terms of training.
    Number four, I think you need to take--or, have the--direct 
the FAA to take a hard look at how they'd better enforce the 
sterile cockpit rule. We recognize that there are privacy 
issues involved, here, but I think there needs to be some kind 
of monitoring of cockpit tapes, on a frequent basis, that we 
can----
    Senator DeMint. Just random----
    Mr. May.--adjust that.
    Senator DeMint.--auditing of----
    Mr. May. Yes, at some point. And I suspect Captain Prater 
would acknowledge that, as long as we protect the privacy of 
the pilots, there's a way that can be done.
    Next, I think you need to have a very specific program 
promulgated by the FAA on records so that when a carrier goes 
out to hire an individual pilot, they have access to all of 
that pilot's records in the same place and in the same format, 
so that they can have a complete look at what has gone on 
there.
    And finally, I think you need to make sure that we have a 
very close look at the whole process that is used by the FAA to 
regulate 121, and how many of these issues need to be 
incorporated in it, or whether or not the standard is fine, it 
just needs to be an enforcement issue. So, those are some very 
specific----
    Senator DeMint. That's very----
    Mr. May.--recommendations----
    Senator DeMint.--very helpful. I think we need to somehow 
get that in a--some joint letter to the FAA, to make sure that 
we're at least reviewing those recommendations.
    The other witnesses, do you agree some things----
    Mr. Cohen. Senator DeMint, I----
    Senator DeMint.--need to be added?
    Mr. Cohen. Senator DeMint, members of the Committee--we 
would wholeheartedly support the points that Mr. May pointed 
out. I think the industry--again is, one industry, and in full 
concurrence on these type of issues.
    Let me also point out two specific things, in addition. The 
integrated database of pilot records is something that Congress 
can direct the FAA to do, and to do it immediately, so that the 
access to this information is readily available about the 
people as we hire. As we have better information about 
everybody in the system, the safer it will be.
    And as to the other issue, let me please underscore the use 
of CVRs. And, I think, as you all talked about in your remarks, 
it is a tragedy that we are here, and all of the issues that 
Congress, the FAA, are learning about had to be after the 
tragedy. And that is a shame, because if there is a tool out 
there that can be used to help prevent accidents, that is 
getting information about how to prevent accidents before they 
happen, and we are not even touching it, that is a real 
tragedy.
    Senator DeMint. Captain--
    Captain Prater. Sir, I'd like to respond. We're talking 
Band-Aids, here, and we need to look at the system. The thought 
that somehow we can monitor cockpit voice recorders and somehow 
improve the safety or the compliance of pilots, let us focus on 
the professionalism and the training of those airmen who do 
this day in and day out. We're missing something, here. We're 
missing that these airmen have been doing their job.
    Now, let's not take this accident and try to say it was 
caused because pilots were talking in the cockpit. You have to 
communicate, you have to relay. I'm not going to talk about 
this one, obviously, because it's still under investigation and 
we're analyzing. Do we want to improve it? Yes. But, where do 
you learn to become a professional? You learn it from the men 
and women that you respect. You break the chain, and you keep 
moving around, flying, and where do you get that experience? 
All of a sudden, a new first officer is flying with somebody 
who's only been flying for 3 years. That wouldn't have happened 
if the airlines wouldn't keep pushing flying around the system. 
It took me 12 years to make captain. That used to be the norm. 
We went through 12 years or 8 years or 5 years of airline 
operations. Now it's much quicker.
    Senator DeMint. Let me just be clear. You object to random 
reviews of cockpit recordings just to verify that we're keeping 
sterile cockpits and following other rules? You object to that?
    Captain Prater. I don't object to it, as long as it's done 
in a system like an ASAP program, where it can be protected and 
we learn about safety. If you want to use it to monitor--you'll 
actually create a cockpit that may not be as safe. Let's not 
mistake that ``sterile cockpit'' means we're focused upon 
flying the airplane at critical points. That is standard. 
That's what goes on. I think we're assuming a little bit too 
much. If it's protected and used as safety data, then we should 
be able to find a way to make the system safer. And that is our 
shared goal.
    Senator DeMint. Because I know just about every service 
company I call on the telephone now, bank or whatever, is going 
to say, ``This call may be audited for quality purposes.'' And 
you can't improve what you don't measure. And I think, to 
assume that a one-time training scheme is going to monitor 
potential problems over the lifetime of a pilot is like 
assuming the same thing for an airplane. So, I'm a little 
concerned that you consider that a Band-Aid. Do you consider 
getting the records--keeping records of pilots over their 
career--is that a Band-Aid?
    Captain Prater. Again, are we going to compare apples with 
apples? Which training school did they come out of? You don't 
want to create a system, where, ``Hey, Joe, go to X, Y, Z 
Training School, because they don't flunk anybody. You won't 
have anything on your record.'' Or, do you want them to go to 
the hardest school out there, where they push you to your 
limits, push you to a failure, not of a check ride, but all 
these are maneuvers that we must be trained in over and over, 
whether they're emergencies or back-to-basic flying skills. So, 
you don't want to create a system that actually finds a way of 
getting around that. Don't create a loophole----
    Senator DeMint. I know I'm over time, but can we allow Mr. 
Maurer just to comment to the suggestions in the----
    Mr. Maurer. I guess I'd just like to remind everybody, when 
you're sitting in the passenger section of the plane--again, 
you're unaware of who's up there on the other side of those 
doors. Is full disclosure too much of a thing to ask when your 
life is at hand?
    Another comment. Chairman Dorgan had that chart up there. 
My commute to work is 7 miles. Members of the Senate, I know 
that you've--you come from pretty far away, but you have a 
residence here, you have someplace here. Perhaps the airline 
industry needs to consider providing for that kind of thing if 
we're going to allow pilots to commute these great distances.
    I happen to travel probably every other week, and it's not 
uncommon for me to be sitting side by side with pilots who are 
commuting to their base location. They're tired. I get in 
conversations with them all the time. They're tired. Those 
hours don't count toward the critical restrictions. I mean, 
these are things that we've got to take into account. We 
learned, in our accident, of long hours that were taken just 
getting to work, and then you're going to climb on a plane and 
fly.
    So, I just--let's keep the human element in mind, let's not 
be defensive.
    Senator Dorgan. Senator Lautenberg?
    Senator Lautenberg. Thanks.
    I think there was a response to a question by Senator 
Dorgan that kind of missed the boat, about the relatively 
modest wage that--or, wages that are paid to people, such as 
the fellow who flew copilot in that flight, 3407, because it--
you said it's kind of a pay scale that might be applied in 
other professions and--but, I think the point was missed, 
because if someone is not making enough money to take care of 
themselves and their families, it will typically mean a second 
job, a second opportunity to earn some more money, is in the 
cards. As a consequence, there is more effort, there is more 
opportunity for fatigue to creep into the individual's 
operation.
    And so, I think that when we talk about a profession that, 
in the year, might pay $20,000 a year, we're talking about, 
that's almost minimum wage for any kind of a job, whether it's 
a janitor or otherwise, a bank teller. So, we have to look at 
these in realtime.
    And, you know, I--at the previous hearing that we held on 
aviation safety, one of the questions that I raised was, How 
many times does an inability to pass a test be allowed at--
before it's three strikes, or whatever the number is, and 
you're out? I mean, would you--would anyone here want to go 
into major surgery--heart, head, whatever--and have a physician 
there who flunked his tests five times before he--they squeezed 
him through the operation and put him--put life in his hands? I 
don't--I think there's a point in time when you have to say, 
``Hey, if you can't master this in two or three times, then 
this is--then find something else to do.'' People love to fly. 
I know a lot of pilots. I sat a lot in second seats in small--
second seats in small airplanes. And flying is--it's a 
glamorous job, it really is. I don't know how it is as, 
commercial operation when you're sitting in seats to fly back 
home or otherwise away from home, et cetera, but I think 
there's a point in time, Mr.--Captain Prater, that--say, ``Hey, 
this is not the kind of a''--the simulators have--replicate 
emergency situations?
    Captain Prater. Very much so. You can really do a good job 
of training for emergencies. It doesn't replicate, though, the 
fact that, when you're in an airplane, it's much more three-
dimensional, all the forces on you. So, sometimes you have to 
go to--back to that basic airmanship.
    But, to your point, sir, at most of the airlines, that 
``three strikes and you're out'' is just about the way it 
works. That's oversimplified, but we give an airman two 
chances, there's a training review board, where the company, 
the industry--we may even send the pilot out for a physical, a 
psychological exam, a fitness for duty--is there something else 
going on why that individual--but, basically, by the third time 
of that failure, trying to master the same maneuver or the same 
airplane--and pilots' jobs are at risk at that point.
    Senator Lautenberg. The--so, this was an oddity, that had 
the captain of this flight failing five times over a period of 
years. The records didn't go back far enough to dig out the 
information.
    Captain Prater. Again, I think we have to make sure that we 
are comparing apples with apples. If he had problems in his 
private pilot license or commercial pilot license, with basic 
airmanship skills, and had to be retrained there. But, we can't 
get away from the fact that he met--all of them met the FAA 
standards, and they met the standards that their employer had 
set, as required by the FARs.
    Senator Lautenberg. The--is the testing--the training for a 
regional pilot the same as it is for pilots in the major 
airlines?
    Captain Prater. Yes, it is, Senator.
    Senator Lautenberg. It is. Would the--do the regular 
airline companies--aviation companies pay as little as $20,000 
a year and put someone, even alongside a trained captain, in 
the cockpit?
    Mr. May. Senator, as a practical matter, the pilots that 
are hired by the mainline have significantly more seniority, on 
average, and are paid at a higher level. Pay is a function of 
collective bargaining, and it's generally also conditioned on 
number of hours, number of hours in a particular type of 
aircraft, whether or not they've been a pilot in command, 
whether or not they're a first officer. So, there are a number 
of factors involved in pay, but it is effectively the exclusive 
jurisdiction of collective bargaining and seniority.
    Senator Lautenberg. Before someone achieves the status of 
captain, is there a requirement in the regionals that they fly 
a particular number of hours--have flown a particular number of 
hours?
    Mr. Cohen?
    Captain Prater. Basic FARs require 1,500 hours of total 
flight time, to be age 23 years old. That's the basics. That's 
not a lot of time. In many cases, pilots do exceed that before 
they check out as captain, but in rapidly expanding 
environments, it is of a concern. It's also of a concern of how 
much actual experience. Time isn't the only generator. If you 
flew a B-52 for 20-hour missions, it's not the same amount of 
training as making six take-offs and landings a day in an 
airline environment. So, time doesn't cure all here.
    Mr. Cohen. Senator, excuse me, if I might.
    Senator Lautenberg. Yes, go ahead.
    Mr. Cohen. For the record, our average captain at a 
regional airline has 8,500 hours. That's pretty experienced. 
And our average first officer is well over 3,000 hours.
    Senator Lautenberg. Maybe not dealing with averages, but 
rather with specifics might be called for, to say, ``Well, the 
captain of an airplane that's got a less-skilled copilot has to 
be--have had more experience than the basic experience.'' And 
that might be a good rule to put into play, that if you're 
going to take someone who's new at this job--and, again, 
considering all of the factors, and they're complicated as 
could be--but, when you look at what is required of the 
passenger flow today in major airlines, that--or regionals--the 
passengers are examined so thoroughly to make sure that they 
can't bring down an airplane. And when we look at the skills 
and the training and the reaction ability of a pilot, well, 
that's much more casually done. And I think we can learn from 
that. Not to change the security process, but, rather, to say 
that the person who's up in the front of that airplane has to 
really be able to manage all situations.
    Mr. Maurer, I know that it's painful for you to review 
this, but you're doing a noble job when you say, ``Let my loss 
be a lesson for others,'' and I think we have to take that very 
much to heart. Thank you.
    Thank you, Mr. Chairman.
    Senator Dorgan. Thank you. Senator Johanns.
    Senator Johanns. Thank you, Mr. Chairman.
    Mr. Cohen, how many regional airlines are in operation out 
there today? How many would that be?
    Mr. Cohen. Mr. Chairman, Senator, as it has been talked 
about, the term ``regional airline'' is more of a term almost 
of art rather than of science. There are 31 RAA member 
airlines, and those 31 members carry 90-plus percent of the 
passengers in scheduled service.
    Senator Johanns. OK. How many of those would be profitable 
today? How many are actually making money?
    Mr. Cohen. Mr. Chairman, Senator, many of them are 
privately held, so they do not report their finances publicly. 
And I just don't have that information available to me.
    Senator Johanns. Of those who are not privately owned, 
could you get that information for us?
    Mr. Cohen. We would be glad to get it to you and provide it 
to the Committee, absolutely.
    [The information referred to follows:]

                               Regional Airline Association
                                                    Washington, DC.
Hon. Mike Johanns,
Russell Senate Office Building,
Washington, DC.

Dear Senator Johanns:

    On behalf of the Regional Airline Association member airlines, 
thank you again for the opportunity to appear before the Senate 
Aviation Subcommittee hearing on June 17, 2009. Our industry is 
committed to the constant improvement of safety in commercial aviation.
    Following up on your request for information, please find attached 
a spreadsheet outlining the profitability of publicly traded RAA member 
airlines. The chart was compiled from public data available through the 
Morningstar rating service. It summarizes the financial performance of 
the six publicly traded, Part 121 passenger airline members of RAA. 
These include: ExpressJet Holdings; Gulfstream International Group: 
Great Lakes Aviation; Pinnacle Holdings; Republic Holdings and Skywest. 
(Publicly traded Mesa Air group is not currently an RAA member, so is 
not included here). Also included are website links providing 
additional information on each company. Please note that a number of 
RAA member airlines are wholly or partially owned subsidiaries of major 
airlines, including American Eagle, Comair, Compass, Horizon, Mesaba, 
Piedmont, and PSA.
    Again, thank you for taking the initiative to increase airline 
safety. We would welcome a chance to further discuss this information 
and other issues with you directly and will contact your office to 
arrange a convenient time.
            Respectfully,
                                               Roger Cohen,
                                                         President,
                                          Regional Airline Association.
CC: Hon. Byron L. Dorgan

                 Regional Airline Association (RAA): Publicly Traded, Member Reported Net Income
----------------------------------------------------------------------------------------------------------------
                                     Net Income   Net Income   Net Income   Net Income   Net Income   Net Income
                                       (Loss)       (Loss)       (Loss)       (Loss)       (Loss)       (Loss)
                             Stock     FY2004       FY2005       FY2006       FY2007       FY2008     FY2009 Q1
Company Name   City  State  Symbol -----------------------------------------------------------------------------
                                    in Millions  in Millions  in Millions  in Millions  in Millions  in Millions
                                       of USD       of USD       of USD       of USD       of USD       of USD
----------------------------------------------------------------------------------------------------------------
ExpressJet    Houst  TX     NYSE:X        122.8         98.0         92.6       (70.3)       (88.2)       (10.6)
 Holdings,     on            JT
 Inc.
Gulfstream    Ft.    FL     AMEX:G         N/A*         N/A*          1.2        (3.1)       (14.8)          0.7
 Internation   Laud          IA
 al Group      erda
 Inc.          le
Great Lakes   Cheye  WY     OTC             5.6          1.2         15.7         19.2          1.9         0.09
 Aviation,     nne           BB:
 LTD                         GLUX
Pinnacle      Memph  TN     Nasdaq         40.7         25.7         77.8         34.6        (4.9)         18.8
 Airlines      is            GS:PN
 Corp.                       CI.
Republic      India  IN     Nasdaq         44.8         60.7         79.5         82.8         84.6          2.2
 Airways       napo          GS:RJ
 Holding,      lis           ET
 Inc.
Skywest Inc.  St.    UT     Nasdaq         82.0        112.3        145.8        159.2        112.9          9.4
               Geor          GS:SK
               ge            YW
----------------------------------------------------------------------------------------------------------------
* Gulfstream International Group Inc. was incorporated in December 2005.
Information provided by Morningstar, Inc.


    Senator Johanns. OK. Let me understand your business model, 
because I think that bears on some issues, here.
    As I understand it, the cost of the ticket that I would 
purchase is not determined by that regional, it's determined by 
the carrier they contract with. Is that correct?
    Mr. Cohen. For the vast majority of business operations, 
yes.
    Senator Johanns. How are your revenues determined, then? 
How--is it based on that ticket cost?
    Mr. Cohen. There are a variety of business arrangements, 
which are proprietary in nature, but it's my general 
understanding that it can be one of a couple of ways. Probably 
the predominant way is now what's called ``fee for departure'' 
or--that, basically, the regional airline is given a schedule 
and is paid, in some fashion, based on the number of flight 
hours, the number of trips, the performance of those trips, and 
so forth. There are regional airlines that are wholly owned 
subsidiaries of major airlines. That may be a different 
relationship. There are some independent flying regional 
airlines; that's a smaller group. There are some business 
models that actually have a little bit of a mix--where the 
ticket price may be split; but, that is a very small 
percentage.
    Senator Johanns. Is it impacted by the number of people on 
the plane? So, if you're flying 50, versus 5, your revenues are 
going to be better?
    Mr. Cohen. Only in those instances where the regional 
carrier would be sharing in the risk of the revenue for the 
flight.
    Senator Johanns. OK. What's----
    Mr. Cohen. But, again, these are proprietary. I've never 
seen one. That's just my general understanding.
    Senator Johanns. There are statistics as to how many of 
these regionals have gone bankrupt, because, of course, that's 
a public sort of event. How many would that be?
    Mr. Cohen. I've been the president of the Regional Airline 
Association for a little over two and a half years, and, of our 
members, I believe two may have gone out of business in those 
two years, of our members.
    Senator Johanns. OK. On the pilots themselves--you know, I 
started out as a young lawyer, and, had you asked me, at age 
23, ``Are you ready to handle the most complex cases in a 
courtroom setting?'' I would have said, ``Absolutely. I've got 
my law degree, I've got my bar certificate. Let's go.'' I 
wasn't anywhere near ready.
    Is the regional airline regarded as the training ground for 
pilots? Kind of, you go there, you pick up some hours, you do 
some flying back and forth to whatever you're--and you pick up 
those hours, and then eventually you, hopefully, get to a big 
carrier, and maybe eventually go transcontinental--I don't know 
what the next steps would be. Is that the case?
    Captain Prater. Unfortunately, that's what this system has 
produced. And it's not the safest model, sir.
    Senator Johanns. Yes. You see, Mr. Cohen, averages mean 
nothing to me. You know, when I walk on that airplane, and I 
stick my head in the cockpit and say, ``Boy, I feel so good 
that the average salary here is'' whatever you told me it was--
I would never say that. I want to know that they are trained 
and ready and can handle thunderstorms and icing and keep me 
out of trouble. So, your averages just don't land anywhere with 
me; they miss the mark completely.
    What would be the minimum salary per year that a pilot 
would be hired to come onboard?
    Mr. Cohen. Mr. Chairman, I don't have--Mr. Chairman, 
Senator Johanns, I don't have the minimum. Again, the average, 
which is--we--I believe we provided some information to the 
Committee. I can get you that of our member airlines. We can 
provide that to you.
    Senator Johanns. I want you to get that.
    Your averages mean nothing.
    Captain Prater. That new--that new pilot, sir, would be 
making between $16- and $18,000 a year for a full-time job, and 
less if he or she is on reserve.
    Senator Johanns. And doing that kind of commuting.
    Captain Prater. Yes, sir.
    Senator Johanns. OK.
    Now, I traveled extensively when I was in the Cabinet. I 
must admit, I got tired of it. But, one of the things that 
really, really hammered me was the constant time changes, the 
poor diet, the lack of exercise, because you can never have a 
schedule. When these folks are traveling from out at the West 
Coast over to the East Coast, and they've gone through all 
those time changes, how does that compute? If you see somebody 
that has spent the whole night, can they literally land in New 
Jersey and get on an airplane and start flying?
    Maybe the pilot. Captain?
    Captain Prater. While it is possible, it's also true that--
may have flown that flight across the country--5-hour flight in 
the middle of the night--and then be expected to sit around for 
a couple of hours, as many as 5 or 6 hours, and then fly the 
trip. So, I would put it in the terms of, Where is it more--is 
it any more restful sitting in coach seat trying to get to work 
for 2 hours, or driving to an airport for 2 hours? I think we 
have to look at that.
    Obviously, the subject of commuting has some focus, 
especially on our first duty day. Is--that first duty day, are 
you sufficiently rested to do your next 16 hours of duty? 
That's what we have to look at, those extensive periods.
    But, I think, in this case, what also is forgotten is, that 
copilot could have flown that trip instead of just ridden on 
it, and been legal to fly, that afternoon, and fly that trip. 
That's a fact.
    Senator Johanns. Let me--and I'm out of time, so I'm going 
to zero on this in a very focused way. But, let's say I grew up 
in Florida, and I get my training in Florida, and I'm used to 
thunderstorms, but I have no idea of what icing is about, never 
flown in it, maybe got a little bit of training on it, but no 
experience whatsoever. Could a regional hire me to fly a 
northern route?
    Mr. Cohen. Mr. Chairman, no, that person would be trained 
extensively in the type of operations that he or she is going 
to be flying in.
    Senator Johanns. Now, Captain, how much----
    Captain Prater. I would disagree with that statement, from 
this point. That pilot has check-passed the minimums for all 
types of operations and all types of weather, and if his or her 
experience has been specifically in one area or one region of 
the country, they could be thrown into the worst weather of the 
Northeast or the mountain flying, or whatever, without further 
training. And that's--we have to talk about specific training 
at different points.
    When you move pilots around this system, we must continue 
that training cycle. And I think it's deficient in that area.
    Senator Johanns. OK. I'll just wrap up, Mr. Chairman, with 
this very, very quick thought.
    I ask these questions--and I'll be very candid about it--
because I worry that, because of economics, or whatever, we're 
trying to do this on the cheap. And we are hiring pilots at a 
very low wage. I don't know how you'd live on that salary. And 
you know what you're ending up with? People who are trying to 
build their hours to move out of the regional system. If that 
is the case, that's very worrisome.
    Now, Mr. Cohen, you represent these fine folks. Prove to me 
I'm wrong. The burden is on the airlines to prove the safety of 
our travel.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Begich?
    Senator Begich. Thank you very much, Mr. Chairman.
    And, Mr. Maurer, thank you very much for your testimony.
    And, as I said in my opening, you know, I have experienced 
tragedy in my family and--in a plane crash with my father, but 
even to a more extreme, that the plane was never recovered. And 
it took a tragedy, back then, to change the rules of requiring 
locator beacons in planes, because of that incident. And it was 
the largest air recovery attempt in this country's history. And 
so, it seems, always, when we deal with air traffic safety, 
it's always a tragedy that moves us to the next stage.
    So, I appreciate you being here. I'm very, very 
sympathetic, from personal reasons.
    But, you know, as I was listening to the testimony, Mr. 
Cohen--and I feel like you're, like, on the hotseat, and I 
appreciate your being here--but, as I was listening to you, I 
asked my staff--because I know all associations have 
conferences and meetings and so forth--so, while you were 
testifying, I said, ``Go get me a copy'' of your last 
conference, which was held in mid-May. And it was a 4-day, 5-
day conference. This is now 2, 3 months after the significant 
incident--as you described it, a very significant incident in 
the regional airlines' history. But, yet, when I looked through 
the conference agenda of four and a half days, I see very 
little mention of safety, except in the last--let me just 
finish--in the last couple of days.
    Now, I'm assuming, through the discussion of the 
conference, you had conversations. I know, as a former mayor, 
when the Katrina disaster happened, we spent a whole conference 
on that, because of the importance of safety in our 
communities.
    And so, as you talk about the ideas and suggestions, I want 
to--and I think Mr.--Senator Johanns said it very clearly--it's 
on you. And I can only look at what's been done and your 
comments today.
    So, I want to take a couple of steps. And if you want to 
quickly comment on the convention, that's great. It's--and I'm 
not going to read the agenda, because you know what was there 
and the kind of things you covered, but it just seems that that 
should have been forefront. And maybe it was, and your agenda 
that's on your website doesn't show that. And I just--it seems 
such an important issue.
    Mr. Cohen. If I might.
    Senator Begich. Yes.
    Mr. Cohen. To that point, Senator, the reason why RAA was 
created, and every year for the last 34 years, has been to 
promote the safety within the industry. The safety directors of 
our member airlines meet for the entire length of that 
conference. That is a meeting at which everything is shared--
among the airlines--with the FAA, with members of the NTSB that 
are there. And it is not a public meeting, so that they can 
share those experiences.
    And so, you are exactly correct, that was not on the public 
website. They meet for 10 hours a day, and in a windowless 
room. And we would urge you when--the next time, when they meet 
here--they meet regularly--I would urge members of this 
Committee to come to--you are invited. We would love to have 
you there.
    Senator Begich. Would you share the outcome of your last 
conference meetings from that with the Committee?
    Mr. Cohen. We will do so.
    Senator Begich. And if it needs to be confidential, or 
whatever the rules are, I'm happy to oblige.
    Mr. Cohen. Yes.
    [The information is maintained in Committee files.]
    Senator Begich. Let me go to another issue, again Senator 
Johanns asked, and that was regarding the pay rate. And I--I'm 
not going to debate you. I--it surprised me that you did not 
know the beginning salary, or a range. So, do you have--has the 
Association ever done a salary study? I'm just guessing they 
must have had some analysis over the many years you've been in 
existence. And if so, can you provide that to the Committee?
    Mr. Cohen. Mr. Chairman, Senator, we will provide you the 
information of our member carriers, what is publicly available, 
and we'll get that to you.
    Senator Begich. And I guess I would push you a little bit 
further. I mean, we have rules here; we can keep things 
proprietary information. So, I would like you to stretch 
further, if you can.
    Mr. Cohen. Will do so.
    Senator Begich. The issue on the pay. And I know you 
mentioned that the compensation is not necessarily a driving 
factor. I would disagree with you, just so it's clear on that 
fact, because as, again, a former mayor, managing over 500 
police officers, 300 public safety people in the area of 
paramedics and fire, what I never wanted them to have was a 
second job. I wanted one job. And one job was doing the safety 
of the community. So, we paid them very well. The net result 
was, we had very limited or--limited problems, because of that, 
because they didn't have to worry about their family and taking 
care of them.
    So, I want to disagree with you on that and ask you this 
simple question, and taking it--as the Chairman has talked 
about $22-23,000. In Alaska, small planes, regionals--and we 
have some great regionals in Alaska, from the ones that operate 
currently there--but, the pay seems to me an important factor 
in creating quality, so the quality of a pilot doesn't 
literally--and I'll use these words carefully--``fly'' to the 
majors, to keep them for long-term careers. Do you honestly 
think--and I'm going off the Pilots Association, because they 
obviously know, because they get the paycheck--that $22-23,000 
is adequate for us to have people flying planes with--I don't 
care if it's one person or 20 people or 50 people?
    Mr. Cohen. Two points to that, Senator, that the pay at 
virtually every one of our member airlines, all but one, is 
collectively bargained.
    Senator Begich. That's not my question. I--again, as a 
former mayor, I deal with collective bargaining all the time. 
Is it the right kind of pay to have? And should we require 
minimums that are guaranteed pay levels for pilots in regional 
planes? This is a question I asked last week to folks.
    Mr. Cohen. Senator, again, it's a very complex issue--we 
believe, fundamentally, that the quality of the people that we 
have flying is good. We would like to get even better. That's 
one of the reasons why we strongly support a number of the 
issues that have been discussed today, to get better training, 
to get better--there is an investment, here, too. It's 
interesting that this committee, which is, responsible for so 
much of the next generation of technology and spending billions 
of dollars, that we believe that there can be some money spent 
on the human capital in our aviation safety system, and we 
would strongly support that.
    Senator Begich. And I'm running out of time, so let me ask, 
if I can, to both of you, I guess--to you, and also--oh, Mr. 
May, you could answer this, too, and also Mr. Prater, if you--
Captain Prater, if you want to answer this very quickly. And 
it's a very simple question. And that is the whole issue of 
downtime and FAA's minimums that they currently have. And I 
know each one of you have mentioned the FAA minimum standard 
requirements for pilots. Do you think the minimums are too low? 
The minimum standards of FAA for pilots for downtime, as well 
as other training and other issues, do you think they're too 
low and need to be raised up?
    And, Mr. May, can we start with you? Is that OK?
    Mr. May. Certainly, Senator Begich, I assume you're talking 
about flight and duty time now?
    Senator Begich. Yes.
    Mr. May. I think they're probably appropriate, one.
    Two, we made a commitment, at the FAA's Call to Action on 
Monday, to enter into a science-based study to determine 
whether or not they are currently appropriate or not. There has 
been a recent proceeding, on ultralong flying, that the FAA has 
done. It was science-based. Plenty of skilled people available 
to do that. I think we probably ought to incorporate--the 
Chairman has raised this issue of commuting--I think we ought 
to incorporate that into the process.
    And so, we would strongly endorse a process being 
established by FAA to look at flight and duty time, current 
standards, how they might differ for regionals, for example, 
with lots of takeoffs and landings, versus long haul. All of 
that needs to be put on the table.
    Senator Begich. Mr. Cohen? Mr. Prater? And my time is 
definitely up, so if you can be very quick on the response.
    Mr. Cohen. Totally agree with what Mr. May said.
    Senator Begich. OK. Mr. Prater?
    Captain Prater. And we believe there has been enough study. 
We're ready to move forward with it. We do believe there's 
enough science on the record. We're going to make our 
recommendations directly to the FAA and work with the 
associations to move that process forward.
    Senator Begich. Can you share that with the Committee when 
you do that?
    Mr. Cohen. Of course.
    Senator Begich. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you for having this hearing.
    The tragedy of the Colgan Air flight brought the safety of 
our airlines back into the public eye. I can tell you, for--
Senator Begich has his own very personal story. For me, it was 
eerily reminiscent of the crash of Paul Wellstone's plane. He, 
as you know, was the Senator from Minnesota. While that was a 
private plane, the issues were ice, the issues were pilot 
training, and the issues were fatigue. So, when I hear all this 
from our hearing last week, of underpaid pilots, pilots that 
are tired, and pilots that aren't earning enough money, it 
reminds me very much of that.
    In addition to that, here you have the factor of pilots 
living far away from their bases leading to long commutes and a 
lot of time spent waiting in the airports. I know there have 
been some questions about fatigue, but I had a question about 
the reimbursement for hotel rooms in the evenings. I mean, I 
know that some of the larger airlines pay for hotel costs so 
that the pilots can get sleep before shifts. Are regional 
carriers doing the same thing?
    Mr. Cohen. Mr. Chairman, Senator Klobuchar, when pilots are 
on duty, the minute they check in, all their--their hotel costs 
on duty are paid for, 100 percent, by the company. They also 
receive a per diem expense to cover travel costs. It's the 
same, mainline and regional. There's no distinction between the 
way those policies are done between the major airlines and the 
regional airlines.
    Senator Klobuchar. Anyone else have something to add on 
that?
    Captain Prater. Well, I would say there is a fair amount of 
difference. But, I think where you're going is, is the pilot 
getting adequate rest, and a place to get that adequate rest, 
before he or she begins her first trip out of whatever domicile 
they've been assigned to? And the answer, quite simply, is, no, 
they're not provided by the airlines.
    Senator Klobuchar. Because that is--so, what they do is, 
they fly to start their first trip, from somewhere, and there 
may not be a way for them to get reimbursed for flight--for a 
hotel then, because it's not in between flights. Is that----
    Captain Prater. That's----
    Senator Klobuchar.--right?
    Captain Prater.--correct.
    Senator Klobuchar. And was that the case here, do we know, 
with the Colgan flight? Because I know she was spending the day 
in the airport----
    Captain Prater. I seriously doubt whether there is--in 
fact, it was--I can say, without a doubt, they were not given a 
place to get adequate rest, or provided for or compensated for 
a hotel room so that they could get adequate rest.
    Senator Klobuchar. OK. We heard, last week, that regional 
pilots are more likely to become tired and fatigued by flying, 
because they are flying more flights per day, rather than one 
long flight. And I'm sure that could happen with major 
carriers, too. And, in other words, they are doing more 
takeoffs and landings in one day, and they may be, actually, 
more prone to fatigue. Do you think that that's true? Anyone 
want to take that on?
    Captain Prater. Having spent more time fatigued than 
anybody else up here at the panel, I can say that there are a 
lot of different ways of lowering your readiness level, if you 
will. The fatigue of a 16-hour flight is different, but just as 
important as a pilot who's flying seven legs--seven different 
landings and takeoffs in the middle of the winter weather or 
summer weather. It is different, but to all adds to the same 
place, that a tired or fatigued pilot is not at the peak of his 
or her performance.
    Senator Klobuchar. And I----
    Mr. Cohen. Senator----
    Senator Klobuchar. Go ahead, Mr. Cohen.
    Mr. Cohen. The issue of fatigue is a very serious one and 
why it is right at the top of our Strategic Safety Initiative. 
There's a lot of new science out there on fatigue, and the 
possibility of exploring fatigue testing. Let's start gathering 
the data, let's start testing people for fatigue. We have the 
ability to do that now, but we don't, currently. And we would 
strongly urge it.
    Senator Klobuchar. Well, I think that we know. I mean, I've 
read enough sleep studies to know that if people have--don't 
have enough sleep, I don't--I mean, I'm not at all disputing 
that testing is good and finding more details about long 
flight, short flights, is good. But, the bottom line is, if 
they don't have enough sleep, because they're sitting there in 
an airport, and they haven't slept the night before, because 
they were flying from far away and they don't have enough money 
to pay for a hotel room, then I think you're going to have a 
problem. So, that's why I was glad that Administrator Babbitt, 
this past Monday, said he's going to propose a new rule on 
pilot rest requirements, which I think would be very helpful.
    I wanted to talk briefly about the de-icing issues, because 
that was clearly an issue here. I think--what was it, that the 
first officer told the pilot, in this crash, ``I've never seen 
icing conditions. I've never de-iced. I've never experienced 
any of that.'' And this was clearly a factor in the crash.
    Are regional aircraft more susceptible to problems 
associated with icing than some of the larger aircraft? Is it 
because of where they're flying or at what levels they're 
flying? Any thoughts on that?
    Captain Prater. Certainly, some of the airplanes that fly 
in the lower levels, the, if you will, surface to 18-20,000 
feet, are more likely to pick up--and spend a lot of time at 
that altitude--will pick up more icing. Certain turboprops are 
more susceptible to it, even though I believe that most of them 
are more than adequate to handle those conditions. But, you 
can't stay in it forever. And the fact that the first officer--
you know, I--this will sound strange, but there has been such a 
focus on some sterile cockpit violations--I am relieved that we 
know that that first officer in that airplane said, ``I've 
never seen icing like this before,'' because we've all learned 
something that's just as apparent as whether it's the CVR--we 
have learned something. She felt she wasn't prepared.
    Senator Klobuchar. So, what you're saying is, you can have 
violations, things go wrong, but that she was--that she said 
this is such an indication that there are problems in training 
that you really don't need anything more than that.
    Captain Prater. That, plus sharing information between 
pilots, knowing what's going on. We talk regularly so that we 
know that you know what I'm thinking. You have to voice some of 
the things that are going on in your head so that your first 
officer or your captain knows what you're doing or what you're 
planning to do. That is not a violation of sterile cockpit. 
That actually leads us to knowing what's going on between the 
two, the dynamic.
    Senator Klobuchar. What do you think--maybe someone else 
can answer this--could be done to train our regional pilots 
efficiently on how to fly in icing conditions? Anyone want to 
take that?
    Mr. Cohen?
    Mr. Cohen. Senator, we are strongly supportive, the 
training programs at our airlines are very robust. We are 
working with the FAA, our mainline partners, our employees, to 
make them as robust as they possibly can be. All--more training 
is always good.
    Senator Klobuchar. OK.
    Mr. Maurer?
    Mr. Maurer. I guess what I would comment on is, we learned, 
in the NTSB hearings, that there is software available to take 
inexperienced pilots and put them with experienced pilots. So, 
a mentoring program of some sort, where you've got an 
experienced pilot who has flown in ice, who has seen it, who 
understands it, knows what to do--put an inexperienced pilot 
with them, and perhaps we might have a better outcome. I mean, 
that's a hands-on way of learning about these things. There's 
only so much that can be done in a simulator. Let's face it.
    Senator Klobuchar. I would think icing would be harder 
condition to simulate than----
    Mr. Maurer. Right.
    Senator Klobuchar.--some of the--maybe I'm naive about it, 
but it seems like it would be.
    Mr. Maurer. And, along that line, I just wanted to make one 
other comment. The regional airlines typically are flying less 
than 2-hour-type flights, et cetera--you mentioned it--more 
takeoffs, more landings. As I've interviewed and talked to 
pilots, I mean, this is the critical time of flight, taking off 
and landing. Where, then, should we have the best skill? And 
I'm not trying to talk anything away from the majors, but 
should we not have the best pilots, the most skilled pilots, 
flying these short trips? Particularly if you're flying in 
these altitudes----
    Senator Klobuchar. That are more----
    Mr. Maurer.--where----
    Senator Klobuchar.--difficult----
    Mr. Maurer.--are more susceptible to ice----
    Senator Klobuchar. Interesting.
    Mr. Maurer.--which--that's another issue that--you know, 
pilots don't like to fly in it, but they have to.
    Senator Klobuchar. Right.
    OK, thank you very much.
    Senator Dorgan. Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman.
    I'd like to talk a little bit about maintenance. I have 
worked on this issue since I came to the Senate, on foreign 
repair stations. And I'm sure you all are aware that the IG has 
determined that regional carriers are depending on outsourcing 
maintenance, to a large extent. And my question to you, Mr. 
Cohen, is, How much of the outsourced maintenance--I believe 
the IG said that 50 percent of the regional airlines' 
maintenance is being outsourced--what percentage of that 
outsourced maintenance work is going to FAA-certified repair 
stations?
    Mr. Cohen. I'm glad you asked that question, Senator, 
because it's a good opportunity to clarify some things in that 
IG report that I think the hearing in the other body didn't 
quite get straight.
    First of all, 100 percent of all the maintenance is being 
done in an FAA-certified maintenance operation. Otherwise, it 
wouldn't be allowed to fly.
    Number two, to augment the IG study regional airlines 
outsource less maintenance overseas than even the mainline 
carriers do. Virtually all of the maintenance by the regional 
airline members is done here in this country, either by 
themselves or at their own FAA-certified maintenance operation 
here in the United States, including our manufacturers, which 
have locations in the United States--in Miami, in Tennessee, 
and in West Virginia.
    So, I hope--that may be a long way of answering your 
question, but I----
    Senator McCaskill. No.
    Mr. Cohen. But----
    Senator McCaskill. No. But, I'm interested in what you 
said, though, because I'm sure you're aware that it is 
perfectly acceptable to the FAA for the repair work to be done 
in noncertified stations. You--I mean, you're aware of that, 
right? But, you're maintaining, today, that all of the 
maintenance work is being done--because we--this is one of the 
problems we have right now, is that a repair station does not 
have to be certified by the FAA in order for it to be utilized 
by either the commercial carriers or the regional carriers. Are 
you aware of that?
    Mr. Cohen. Senator, again, it's my understanding, on the 
maintenance, that the heavy maintenance, here, that we're 
talking about the C&D checks, are conducted by what I'm 
assuming are FAA-certified facilities.
    Senator McCaskill. If you would check that, because I----
    Mr. Cohen. I will----
    Senator McCaskill.--think--I would be surprised if that 
were the fact.
    Mr. Cohen. I will----
    Senator McCaskill. I mean, we've done a fair amount of work 
on this issue, and there are a large number of--not just ``kick 
the tires,'' but serious and substantial maintenance and repair 
work that is being done by noncertified repair stations, both 
foreign and domestic. And so, I would certainly appreciate you 
following up on that, because one of the issues, of course, is, 
why do we have certified repair stations if people aren't 
required to use them? And that's, in fact, what the legislation 
that Senator Specter and I have introduced would require you to 
use, the certified repair stations. As I said to FAA a couple 
of different times in this room, I assume getting one certified 
is a good thing. Well, if it's a good thing, why aren't we 
requiring people to use them? And if it's not a good thing, why 
are we spending taxpayer money supporting them? It doesn't make 
sense to me, just using good, old-fashioned common sense, that 
we would go through a certification process and then not 
require it.
    So, if you would get back to me, I would really appreciate 
it. Because the FAA does not have good data on this. They will 
admit they do not know how much of the maintenance is being 
done at certified versus noncertified repair stations.
    Mr. Cohen. Senator, we'll get you all the information.
    Senator McCaskill. Thank you very much.
    And, Mr. May, same question to you, for the national 
carriers. Can you give me any kind of figure as to what 
percentage of the maintenance is being done in certified versus 
noncertified repair stations?
    Mr. May. I do not have that number at hand, but I would be 
happy to provide it to you, Senator.
    Senator McCaskill. That would be terrific. And while you're 
at it, Mr. Cohen has represented that none of this is being 
outsourced beyond the United States, in terms of the regional 
carriers. I am confident it is being outsourced beyond the 
United States for the large commercial carriers.
    Mr. May. That is----
    Senator McCaskill. And do you have--does your association 
have a number of what percentage of that maintenance is being 
outsourced?
    Mr. May. I don't--I'm sure we have the answer to that. I 
don't happen to have it with me. I'd be happy to provide it 
for----
    Senator McCaskill. If you have it, that would be terrific. 
It has been a very difficult amount--the information is 
difficult to come by from the FAA. They have not, I don't 
think, prioritized looking at this issue, and I don't think the 
American flying public realizes to what extent maintenance has 
been outsourced in an effort to cut costs. And what--one of the 
problems is that, in many of these places, there's not even 
alcohol and drug testing, and it seems weird to me that we have 
domestic certified repair stations, and, because we don't have 
as many of them anymore because so many have been outsourced, 
there are FAA inspectors that hang out there, that are really 
looking over the shoulder.
    And then you travel to Indonesia, and if there is ever an 
FAA inspector that shows up--by the way, the United States pays 
for that, the taxpayers pay the costs of the FAA inspector to 
go look at foreign repair stations, not the airlines. So, the 
taxpayers are actually underwriting this outsourcing. They 
aren't even doing drug and alcohol tests. And, as we have 
talked about in this hearing before, there are actually 
locations that have been on the State Department's Watch List 
for terrorist activity, where there have been repair stations 
that have been utilized.
    So, if you would get back to us with whatever information 
your associations have on this information, I think it will be 
helpful as we move forward, trying to get these important 
reforms done in the area of maintenance and repair.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator McCaskill, thank you very much.
    We will attempt to get all of that information. I'm well 
familiar with the issue of the inspections and the repair 
stations. I mean, we have--in fact, I've written about one of 
the carriers that flies an empty Airbus 320 to El Salvador for 
repair, and then flies an empty 320 back to the United States 
after having had it repaired in El Salvador, or inspected or 
maintained in--my guess is, that's probably another issue of 
dollars and cents.
    And let me go back to just a moment ago, on icing. I just 
pulled the transcript again of this. This copilot said, ``I've 
never seen icing conditions. I've never de-iced. I've never de-
iced. I've never experienced any of that. I don't want to have 
to experience that and make those kind of calls. You know, I 
freaked out. I'd have seen this much ice and thought, `Oh, my 
gosh, we're going to crash.' ''
    The actual transcript is of a copilot that appears to me to 
have had minimum training in icing conditions.
    Now, the reason I mention this is because the training 
issue has been on the table, here. What kind of training does 
someone have in that cockpit to fly in the conditions into 
which that airplane is headed? If they're flying to Buffalo, 
New York, in the winter, one would expect you would encounter 
icing conditions of some sort.
    I come from the State of North Dakota. I learned to fly, 
many, many years ago, and, you know, I've been on airplanes, 
small airplanes, with a lot of buildup on the wings, and 
watching it with flashlights. So, I--you know, I've flown in a 
lot of icing, with pilots and with others.
    And so, I think it's an important question. How much 
training exists before someone is put in a cockpit for the 
specific kind of conditions they are likely to encounter?
    I want to ask about this issue of the time in an airplane, 
because I think that's also important. In the Buffalo crash, we 
were told that that carrier had had training. They trained 
their pilots on the stick-shaker, but not the stick-pusher. And 
so, if that's the case, I guess the first question of mine is, 
If you're in a cockpit with a device called a ``stick-pusher,'' 
which is going to be a device that is going to automatically 
move you toward some sort of safety function in a--in that 
flight, and have never had experience with it, or not been 
trained in it, is that a--isn't that a significant deficiency? 
And how could that happen?
    Captain Prater, can you tell us?
    Captain Prater. I'd be glad to, Senator.
    First of all, every airplane has different characteristic, 
different safety features, and pilots should be trained to the 
proficiency in each and every one of those.
    I cannot testify toward the conditions on the training of 
this individual airman or crew, but I can say, more generally, 
is that there is a huge cost to training airmen, so it does 
come down to dollars and cents.
    I have severe concerns that the regional industry, who 
looks at their pilots as, if you will, part-time help, training 
help, may not want to spend as much money making sure they're 
aware of each and every facet. Training has been shortened over 
my three decades as an airline pilot. I think we need to look 
at it very seriously and say, Have we reduced it to below what 
should be the standards?
    Senator Dorgan. Mr. Cohen?
    Mr. Cohen. Mr. Chairman, in defense of the training 
programs at our regional airlines--is the Committee--this 
committee was provided with very detailed information about the 
training programs, which are every bit as robust. One of the 
things we talked about at Monday's Call to Action was to look 
at all of these type of training issues that have been laid on 
the table, certainly today and over the last several weeks, and 
to look at it, whether it's environmental--you know, additional 
training in environment, additional training on whatever--and 
that, in all my years in the airline industry--and I've been in 
it since 1971--I have never seen, ever seen, a decision by any 
airline regarding safety that--you know, that would jeopardize 
safety because of cost. I just want to lay that on----
    Senator Dorgan. Mr. Cohen, Senator Johanns was making the 
point, and a perfectly reasonable point, that if we're flying 
through very difficult economic conditions, if regional 
carriers are smaller companies having substantial difficulty, 
isn't it likely that you have substantially less experience in 
that airplane, you're paying lower salaries, and so on? And 
does that have an impact on the capability of that airplane to 
fly through difficult circumstances?
    Look, the airline industry has created, for the most part 
in this country, two different systems. One is a hub-and-spoke 
system, and the other is flying between city pairs, with some 
localized carriers.
    In the hub-and-spoke system, in the old days, Northwest 
Airlines, which served my State, would fly its jet carriers 
into that city, one of four cities in North Dakota, with 727s, 
had a pilot, a copilot, and a flight engineer. And I assume 
that the pilots that bid on those routes were probably pilots 
with less time in the company than somebody that bid on a San 
Francisco to Narita route. So, I understand that, you know, the 
longer routes and the bigger planes, and so on, are going to 
get the pilots with more experience. But, it just seems to me, 
the way this hub-and-spoke system has morphed is that the 
network carriers have decided, ``You know what, we're going to 
move a lot of these spokes off onto a commuter carrier, and 
that commuter carrier is going to be out there with smaller 
planes, in most cases. It's going to cost us less, although 
they're going to wear our name on the fuselage, but it's going 
to cost us a lot less, because, frankly, it can be a carrier 
that we have, perhaps 100 percent ownership of, or substantial 
ownership of, but not the same contracts we have.'' So, it will 
have pilots with less experience that they can hire for an 
entry level of $18,000 a year.
    I--it seems to me, just inevitably, that you do you have, 
then--again, without demeaning a pilot or a pilot's ability--
you do have the potential of a separate standard of capability. 
I'm not talking about training to safety minimum standard, I'm 
just talking about separate standard of capability.
    And so, the major question that we started with today is, 
the FAA said, in the mid-1990s, one standard. And passengers 
that get on an airplane, when they walk through that airplane 
door, should expect the same standard on the cockpit of a 
commuter carrier or a network carrier.
    The--I think Mr. Prater says he believes that the 
enforcement of that standard is not as rigorous as passengers 
would expect or as we would expect.
    Mr. May, what's your impression of that?
    Mr. May. Mr. Chairman, we all adhere to FAR Part 121, which 
is the single standard that was established in 1995. I think 
the reality is that mainline carriers more regularly far exceed 
that standard in Part 121 than our regional partners do. We 
have, in--with virtually no exceptions--FOQA programs, ASAP 
programs, more robust training, et cetera. And, as part of the 
recommendations that we have made before you today, and in the 
House last week, and at the FAA, we would suggest that many of 
those programs be instituted at the regional level for our 
partners.
    Senator Dorgan. But, let me ask you--I mean, the fact is, 
it is your name--that is, the name of your companies that you 
represent--on the fuselage of these airplanes.
    Mr. May. That is correct.
    Senator Dorgan. And, in many cases, you own the regional 
carrier, or own substantial portions of equity in the regional 
carrier. So, it would seem to me that it would be in the 
interest of the network carriers to require the things that you 
have recommended today prior to these recommendations.
    Mr. May. I understand that thought, Senator. There was 
actually a proposal made by NTSB, back in about 1994, when this 
whole debate came to pass and when Part 121 was created and 
putting the regionals under Part 121, to have the mainline 
carriers be the enforcement of Part 121 for their regional 
partners. That was specifically rejected by the Congress and 
the FAA, because they wanted to have a single level of 
enforcement, as well as a single level of achievement. And I 
think that decision was the correct one at the time, and I 
think it remains correct, that the FAA needs to be the 
principal enforcer. We have openly said, here today, and will 
continue to say, if we need to change those standards and 
upgrade them, then that is something that we ought to look at 
doing. By the same token, I think the enforcement needs to rest 
with the FAA.
    Senator Dorgan. Yes. Well, you know, I'd--was just in 
another committee earlier this morning and described a Federal 
agency that was willfully blind and cheerfully ignorant for 
about 10 years. And I'm--I don't ascribe that to the FAA, 
except to say that I've had a bellyful of enforcement 
requirements by certain agencies that have completely neglected 
the opportunity or the requirement to do so.
    The FAA, as we said to Randy Babbitt, the new 
administrator, last week, we need new diligence here, a new 
level of interest in making certain that we have one standard, 
that passengers can rely on one standard when they board an 
airplane. And I think that's going to require some effort by 
the FAA, and may require some effort by this Committee.
    Senator Rockefeller and Senator Hutchison, myself, Senator 
DeMint, and others, are going to be working on--I'll be putting 
together, along with my colleagues, the FAA Reauthorization 
Act. We're right in the middle of that process now, which will 
include modernization of the air traffic control system and 
many other things, all of which have to do with safety. And so, 
we're going to--I would say, to those that have raised the 
questions this morning about pilots' records and so on, my 
first expectation is that Administrator Babbitt is going to 
move quickly to address some of those issues, but we will 
introduce legislation to be certain that it is done the right 
way, as well.
    So, Senator Begich, did you wish to make any other 
comments?
    Senator Begich. No, just thank you for the opportunity.
    Senator Dorgan. Yes, I--let me thank the witnesses for 
being here.
    Again, we'll have one additional hearing, at some point, 
with the airline companies themselves. We appreciate, Mr. May 
and Mr. Cohen, your representation of them here at this 
hearing. And, Captain----
    Well, there is one other question I've not asked. And I--I 
know there's a term of art called ``crew rest,'' vis-a-vis 
fatigue, and we've talked a lot about fatigue today, and I 
think one of the Senators raised the issue of crew rest. But, I 
have been on plenty of airplanes, plenty of airplanes that fly 
in here late because of storms and so on, and we land at 
midnight at Washington National. And I know that there's a 
requirement for a certain number of hours of rest. But, I've 
sat with pilots and walked out of the plane with pilots who 
say, ``Well, I've got to be back here at X hour. That meets the 
test of the number of hours I have for rest. But, by the time I 
get to the hotel, by the time I check in, by the time I get to 
bed, I'm going to have probably 4 hours of sleep tonight.'' 
That is a crew-rest issue. And that is a regulatory issue. And 
I don't want people to think that only--that fatigue is the 
only issue here. I think there are other issues with respect to 
crew rest that we want to talk about as we go forward.
    Captain Prater. Yes, sir. I mean, it leads to the fatigue 
of that next day. If you're not allowed adequate time to 
recuperate from the up to 16-hour duty day that you had the day 
before, and you're only away from the airplane for 8 hours, 8 
and a half hours, it's not enough. We need to ensure that the 
pilots are getting at least an adequate opportunity, behind the 
hotel door, to get 8 hours of rest.
    Senator Dorgan. One thing is certain about this country, we 
are all pretty mobile, we rely on a transportation system that 
is modern and safe and reliable. And no insignificant part of 
that is the commercial airline industry. It's very important to 
our country, very important to all regions of our country. And 
we want it to be made as safe as is possible.
    I think the tragic crash in Buffalo, New York, has 
activated a lot of interest in asking questions. Did we drift 
along, here, and allow the creation of a couple of different 
standards in training, and so on, on enforcement? We'll know 
more about the answer to that as more disclosures come from the 
NTSB and so on. And we're learning some from last week's 
hearing and this week's hearing. And for that, we're indebted 
to the people who are witnesses.
    And, Mr. Maurer, we are especially indebted to you and the 
families who have decided to, in the name of those you loved, 
find a way to make a difference and make certain that others do 
not experience the same fate.
    So, we appreciate all four of you being here.
    This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]
                            A P P E N D I X

                                          June 12, 2009, Newnan, GA
Senator Byron L. Dorgan--Chairman
Senate Subcommittee on Aviation Operations, Safety, and Security,
Washington, DC.

Dear Senator Dorgan,

    In a June 10, 2009 e-mail from your staffer Mr. Rich Swayze to me, 
it was requested that I forward to your office an affidavit concerning 
commercial aviation safety issues pertaining to your upcoming June 17th 
hearing.
    I have enclosed this affidavit for perusal by your subcommittee 
members in hopes that it will be included in congressional records for 
your upcoming hearing, since I was previously advised that I would not 
be permitted to testify before your committee in open or closed 
session, nor would any other whistle blowing airline pilots from other 
airlines that I am presently in contact with through our 
`Whistleblowing Airline Employees Association.'
    As mentioned before, I am currently a federally unprotected whistle 
blower whose rights as such have been denied on multiple counts. I am 
merely asking my government to perform their duties in protecting my 
rights as such, given where I am in matters at present.
    If this information, as well as previously submitted correspondence 
and information is excluded from congressional records associated with 
this hearing, it is respectfully requested that the reason(s) why be 
addressed to me by separate correspondence from your staff. A certified 
copy of this correspondence is forthcoming to your office via United 
Parcel Service.
    Your thoughtful consideration is greatly appreciated.
            Very respectfully submitted,
                                                Dan Hanley,
                              Former United Airlines B-777 Captain.
Encl: My affidavit dated June 12, 2009
                                 ______
                                 
Affidavit of Daniel W. Hanley for Inclusion as Part of Public 
Congressional Record for Hearing Conducted by Senate Aviation 
Operations, Safety, and Security Subcommittee Chairman Senator Byron 
Dorgan of June 17, 2009

    I, Daniel W. Hanley, being first duly sworn, on oath, states as 
follows:

    1. I am of legal age and competent. This affidavit is made on my 
personal knowledge of all matters set forth and referenced herein. If 
sworn and called as a witness in this case, I could, and I would, 
testify competently as to each fact set forth and incorporated herein 
by reference.

    2. The alleged facts supported with evidence are true and correct 
to the best of my personal knowledge of the facts, evidence, 
information and belief.

    3. On June 9, 2009 at 11 a.m., I was advised by Mr. Rich Swayze, a 
staff member on the Senate Aviation Operations, Safety, and Security 
Subcommittee, that I would not be permitted to testify in either open 
or closed session of said committee, hence this affidavit is being 
provided for inclusion as part of public congressional record for this 
hearing.

    4. I am of information and belief that in October 2003, I was 
ushered through the United Airlines Employee Assistance Program (EAP) 
at United Airlines directly as a result of my submission of federally-
mandated Aviation Safety Awareness Reports which, among other issues, 
addressed concerns regarding crew fatigue, reckless scheduling of 
aircrews, aircrew morale issues, and alleged stonewalling of 
communication processes within the company, that included the Federal 
Aviation Administration Principle Operation Inspector.

    5. I currently possess documentation, mental health records, prior 
military flight and health records, and availability of credible 
witnesses in support of what I state herein. I allege that, in 35-years 
of flying civil, naval, and commercial jet aircraft, I have never 
failed a check ride, flight physical, or any psychological screening 
and have an untarnished record with no flight violations. I estimate to 
have flown over 20,000 flight hours in numerous civilian and naval 
aircraft including the P-3 Orion, as well as the B-737, B-727, A-320, 
B-757/767, and B-777 commercial jet aircraft at United Airlines.

    6. My U.S. Navy service record is available on request, which 
demonstrates that I consistently ranked in the top 1 percent of my peer 
group throughout my 10 years as a Naval Officer and aviator, and was 
recommended for accelerated promotion on all but one or two officer 
evaluation reports in 10 years. In 1978, I was selected for the 
Operations Research Program at the Naval Postgraduate School at 
Monterey, California and was nominated for the Navy Weapon System 
Acquisition Management Program (WSAM), but declined these tempting 
assignments to pursue a career in commercial aviation.

    7. Upon graduation from Primary Flight Training at NAS Saufley 
Field in Pensacola, Florida in 1973 while flying the T-34B, I was 
selected as `Student of the Week' out of 228 graduating students. Upon 
graduation from Advanced Flight Training at NAS Corpus Christi, Texas 
flying the TS-2A Tracker, I was selected as `Student of the Month'. 
Upon graduating from Replacement Air Group Training Squadron flying the 
P-3 Orion, I was ranked number one in my class. In my fleet squadron, I 
became the youngest and only Lt (jg) Plane Commander/Mission Commander 
well in advance of schedule and of that of my contemporaries. 
Additionally, I was the youngest and junior ranked instructor pilot in 
the squadron, as well as a NATOPS Safety Instructor and maintenance 
functional check pilot. Additionally, I served as a P-3 Subject Matter 
Expert in development of a training syllabus for fleet wide use for the 
P-3C Update II Project. In 1984, I received a Navy Achievement Medal 
serving as Operations Officer while attached to Patrol Squadron Sixty 
at NAS Glenview, Illinois.

    8. I was on the Dean's List at Southern Illinois University and 
graduated in 1973 with a Bachelor of Science in Applied Mathematics. 
Upon expulsion as a United Airlines B-777 Captain, during the time-
frame 2004-2006, I attended Georgia State University full-time while 
majoring in Psychology and World Religious Studies and maintained a 
near straight-A average. I am a few hours short of receipt of a 
Bachelor of Arts degree in Psychology, and have reenrolled for the fall 
2009 semester for continuance of my education.

    9. The Air Line Pilots Association motto is ``Schedule with 
Safety''. I allege, based on my own perceptions and personal 
experiences, as well as inputs received from many other aircrew members 
at United Airlines in 2003, that United Airlines Flight Operations 
management personnel engaged in a crew scheduling process during 
bankruptcy that may have endangered the lives of the traveling public, 
due to crew fatigue, poor morale, inadequate and unconcerned management 
leadership, massive problematic downgrade of pilots, and many other 
issues. These situations were precipitated by the alleged leveraged 
position of management in making outrageous concession demands of 
employees in an effort to receive an ATSB loan guarantee that was never 
granted, and which propelled United Airlines into Chapter 11 
bankruptcy. It was these and other legal, financial, and political 
pressures that greatly diminished the ability of ALPA to adequately 
address safety issues and legally support those pilots who did via 
appropriate Federal communicative processes. This perception was gained 
by me from actual statements made at the time by both my JFK Chief 
Pilot, ALPA council chairman, and others.

    10. I allege that commercial aviation safety must necessarily be 
maintained in a vacuum without external financial, legal, and political 
pressures and influences exerted on aircrew members wishing to report 
known safety deficiencies for fear of undue recriminations.

    11. The first sentences of the Air Line Pilots Association Code of 
Ethics are thus stated:

        AN AIRLINE PILOT will keep uppermost in his mind that the 
        safety, comfort, and well-being of the passengers who entrust 
        their lives to him are his first and greatest responsibility.

    <bullet> He will never permit external pressures or personal 
            desires to influence his judgment, nor will he knowingly do 
            anything that could jeopardize flight safety.

    <bullet> He will remember that an act of omission can be as 
            hazardous as a deliberate act of commission, and he will 
            not neglect any detail that contributes to the safety of 
            flight, or perform any operation in a careless or reckless 
            manner.

    <bullet> Consistent with flight safety, he will at all times 
            operate his aircraft in manner that will contribute to the 
            comfort, peace of mind, and well-being of his passengers, 
            instilling trust in him and the airline he represents.

    <bullet> Once he has discharged his primary responsibility for the 
            safety and comfort of his passengers, he will remember that 
            they depend upon him to do all that is possible to deliver 
            them to their destination at the scheduled time.

    <bullet> If a disaster should strike, he will take whatever action 
            he deems necessary to protect the lives of his crew and his 
            passengers.

    12. The Federal Aviation Administration website states:

        Our Mission

        Our continuing mission is to provide the safest, most efficient 
        aerospace system in the world.

        Our Vision

        We continue to improve safety and efficiency of flight. We are 
        responsive to our customers and are accountable to the taxpayer 
        and the flying public.

        Our Values

    <bullet> Safety is our passion. We are the world leaders in 
            aerospace safety.

    <bullet> Quality is our trademark. We serve our stakeholders, our 
            customers, and each other.

    <bullet> Integrity is our character. We do the right thing, even 
            when no one is looking.

    <bullet> People are our strength. We treat people as we want to be 
            treated.

    13. I allege that beginning in 2002 until July 12, 2003 when I 
wrote my first formal letter of complaint to Captain Paul Whiteford, 
United ALPA MEC Chairman, I had countless face-to-face and phone 
conversations and e-mail exchanges with both United flight management 
and ALPA representatives regarding a whole host of safety concerns, 
many of which had been expressed to me by other aircrew members, but 
were not being adequately addressed by company management personnel. It 
must be emphasized that throughout this ordeal that ended in December 
2003, I was attempting to be most cautious not to draw media attention 
or initiate litigation of any sort, as I feared that such actions might 
compromise the success of United's emergence from bankruptcy, since the 
company was allegedly teetering on the brink of Chapter 7 liquidation.

    14. I further allege that my actions and conduct were commensurate 
with the stated Air Line Pilots Association motto and Code of Ethics, 
in consonance with the Federal Aviation Administration Mission 
statement, and was in keeping with the highest standards of United 
Airlines stated number one priority of safety. I genuinely believed 
that what I was doing was in keeping with every legal, moral, and 
ethical principle engrained in me as a pilot since I first took flight 
in a Cessna-150 in 1968 and carried throughout my entire Naval flying 
experiences, and through my career at United Airlines. I honestly 
believed that I would have the full support of ALPA and the FAA since I 
was sustaining the legal, moral, and ethical high ground in reporting 
this to United Airlines management and the FAA Principle Operation 
Inspector assigned to the airline.

    15. On the ground while at the gate, aircraft security is 
coordinated by the captain and the ground security coordinator with the 
final decision made by the captain regarding continuance of a flight. 
Shortly after 9/11, United Airlines senior management authorized flight 
crew members, who felt they were at risk due to security concerns, to 
deplane with pay protection for that segment of their schedule. In 
2003, due to a security breach on my flight at the gate in London, 
wherein the flight attendants perhaps averted a north Atlantic 
diversion due to advisement to me of a passenger condition, I happened 
to notice flight attendant supervisors who had boarded the plane that 
was being inspected without passengers onboard that were badgering my 
cabin crew for allegedly delaying the flight. I asked them to step 
aside so that I could explain just how helpful this crew was to me in 
my making the decision to have the aircraft inspected (most of the 
passengers told me that if this passenger remained on board, they 
weren't going to take the flight). I then asked them a hypothetical 
question regarding what their actions would be if both I and the ground 
security coordinator were agreeable to taking the flight but had flight 
attendants who still experienced consternation and wanted to deplane. 
They responded that they would give the flight attendant in question a 
direct order to take the flight and, if she refused, she would be 
terminated from employment at United Airlines. I asked them both if 
this was stated United Airlines upper-management policy, and they both 
agreed that it was. Believing that this might just be a local London 
base policy, I queried both the Newark and JFK in-flight offices and 
actually saw the intimidating policy in writing. A Newark-based in-
flight supervisor wrote a stinging letter to my JFK Chief Pilot just 
because I asked to see this policy in writing, which I felt impinged on 
the CLR concepts that include effective cockpit-cabin communications.

    16. To keep this matter in house, I filed a Captain's Report to 
address my concerns, as the flight attendants serve as the eyes and 
ears in the back of the cabin since the promised TV cameras were never 
installed. A week or so later, I received a call from an ALPA safety 
representative telling me that management and ALPA had reviewed my 
report, and although they agreed with what I stated, felt that ALPA was 
somewhat restricted due to the fact that United Airlines was in the 
midst of attempting to receive post-9/11 ATSB loan moneys. 
Paraphrasing, he remarked, ``C'mon Dan, be a team player . . . we're in 
bankruptcy and need this loan. Why don't you just drop this issue? 
Management thinks that you're just being a big-mouthed whistleblower. 
How do you want me to dispose of this report?'' I told him what he 
could do with the report, but only after querying him as to where ALPA 
was drawing the distinction between aviation safety and airline 
financial survival concerns. I emphasized to him that I wasn't willing 
to compromise my principles as a captain with regard to safety issues 
in spite of the financial condition of United Airlines and the 
unfavorable negotiating position that ALPA found itself in at present. 
Subsequent discussions with numerous chief pilots and ALPA officials 
indicated to me that the entire bankruptcy process was impinging on 
aviation safety issues, hence, after repeated stonewalls of all issues, 
I intended to write CEO Glenn Tilton a letter addressing this concern. 
The remaining tragic conclusion of my aviation career may be found in 
the previously submitted affidavit.

    17. Since 2006, I have been contacted by numerous airline pilots 
from all carriers who have shared their similar stories with me. 
Additionally, other pilots who have not personally had such 
experiences, but are knowledgeable of the EAP process for removing 
`dissident' pilots have provided much information and insight and are 
willing to provide sworn testimony.

    18. In light of ASAP program cancellations last year at Delta, 
UsAir, and American, with the current pending litigation hanging over 
the head of United pilots, coupled with the exposure of whistleblower 
suppression at Colgan Air that could have possibly prevented that air 
disaster, other pilots and myself feel morally and ethically compelled 
to speak out. We already have and will continue to do so until this 
problem is rectified by the Department of Transportation and the 
Federal Aviation Administration.

    19. I could have turned my back on aviation and walked away from 
all of these concerns 5 years ago, but my conscience would not allow 
it. I may have been retired from the left seat in 2003, but I will 
always be a captain in my heart and in my soul, just as I will always 
be a Naval Aviator. It does count just how many times an airline pilot 
walks down the jet way with regard to airline safety. Poor pay and 
working conditions do very much contribute to poor morale, which also 
adds stress and distraction into the safety equation, which hasn't been 
addressed by the Transportation subcommittee.

    20. While concerns are being expressed regarding the impact of 
commuting on airline safety, please be advised that it has come to my 
attention that most first officers at the trunk carriers are working 
full-time outside the airline as their primary source of income. Many 
have told me that once they get their business established, that they 
are going to resign from their airline jobs, as the continued hassle is 
no longer worth it. Additionally, many line captains that I've talked 
to are working absolute minimum hours to keep the job since their 
pensions were stolen from them in bankruptcy. Apathy and poor morale in 
the airline industry amongst pilots is a cancer to safety more 
insidious than most of the issues addressed by the committee to date.

    21. For airline CEOs who recently stated that pilot pay has no 
impact on the level of safety in flight operations, I would suggest 
that they try living on $25,000 for a year without access to any other 
financial assets, and see what `happy campers' and just how effective 
and focused they are at their jobs.

    22. Further affiant sayeth naught.
                                           DANIEL W. HANLEY
SWORN before me on

This        day of June 2009

_____________________

          NOTARY PUBLIC

    Other documents submitted by Mr. Hanley may be found at http://
airline-whistleblower.blogspot.com/.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                              James C. May
    Question 1. How much of the maintenance work that your member 
companies outsource is performed at part 145 certificated repair 
stations, and how much is performed elsewhere?

    Question 2. How much of your member companies' outsourced 
maintenance work is performed abroad? Of the work performed abroad, how 
much is done at part 145 certificated repair stations, and how much is 
done by entities other than part 145 repair stations?

    Question 3. How do your member companies determine when to 
outsource maintenance and where to send that maintenance work once they 
have decided to outsource? Accounting for differences in the type of 
work outsourced, how much more does it cost to send work to a part 145 
certificated repair station than to a non-certificated facility? How 
much less does it cost to send work to a part 145 certificated repair 
station located abroad? How much less to send the work to non-
certificated facility abroad?

    Question 4. How do your members verify the quality of work 
performed at non-certificated facilities?
    Answer. Based upon data collected by the Department of 
Transportation's Research and Innovative Technology Administration 
(RITA) Bureau of Transportation Statistics (BTS), in 2008, thirty-eight 
percent of total aircraft maintenance expenditures by airline members 
of the Air Transport Association (ATA) went to third party maintenance 
providers.
    That figure, alone, does not provide true insight to this complex 
subject. The level of contract maintenance utilized by individual 
airlines varies significantly based on factors such as the type--or 
types--of aircraft used, the geographic region of operations, business 
philosophies, labor agreement limitations, internal cost structures, 
and commercial relationships with airframe, engine and component 
manufacturers. Without exception, all airlines rely to some extent on 
contract maintenance providers. Airlines are by no means unique in this 
regard. For example: trains, buses and cruise ships are predominantly 
maintained by companies other than those who operate them; the U.S. 
Department of Defense contracts with private companies for the 
maintenance of its aircraft, in many cases with the same companies 
utilized by commercial airlines.
    Although the majority of narrow-body aircraft maintenance work 
contracted for in the past few years has stayed within North America--
maintenance performed outside North America is limited primarily to 
wide-body which routinely transit locations abroad--it is worth noting 
that the work must always be performed in accordance with the U.S. air 
carrier's maintenance program and the applicable portions of its 
required manual--regardless of location.
    Under existing FAA regulations, all repair stations are treated as 
extensions of the air carrier's maintenance organization, air carriers 
cannot delegate the responsibility for the airworthiness of their 
aircraft and they are required to provide a level of oversight to 
ensure the standards are met.
    While some view maintenance contracting as undermining safety, the 
data reflects otherwise. U.S. airlines have logged an exceptional 
safety record while steadily expanding their use of contract 
maintenance.

    Question 5. Describe your members' programs to audit the policies 
and performance of the facilities to which they send their maintenance. 
How widely do these policies vary across your membership? Describe the 
most rigorous audit program. Describe the least rigorous.
    Answer. We're not in a position to describe our members specific 
policies on auditing, we simply don't have that kind of detailed 
information. Additionally, we would not characterize any of our members 
as having ``more'' or ``less'' rigorous programs.
                                 ______
                                 
         Response to Follow-up Written Questions Submitted by 
                 Hon. Claire McCaskill to James C. May
    Question. We would like to get more clarity from the ATA about the 
following issues:

    1. Neither of the witnesses addressed the second half of our first 
question; namely, how much work is done at part 145 certificated repair 
stations, and how much is done by entities other than part 145 repair 
stations?
    2. We would like both witness to better address the audit questions 
(the fifth question). In particular, the following passages from the 
Inspector General's report on ``Air Carriers' Outsourcing of Aircraft 
Maintenance'' issued on September 30, 2008 outline concerns about 
airline audits on the policies/performances of the facilities to which 
they send their maintenance. We would like to get a more definitive 
answer on how the airlines are addressing these issues:
    ``While all the carriers we visited had audit programs, we found 
that these programs were not always effective. As a result, maintenance 
problems either went undetected or reoccurred.
    For example, at one heavy airframe repair station, all three types 
of oversight failed-FAA, air carrier, and repair station. We found that 
two air carrier audits and two FAA inspections (CMO and FSDO) failed to 
detect significant weaknesses at this facility. These were not 
discovered until another major air carrier's pre-contract award audit 
found problems in the repair stations' maintenance practices, such as 
not properly overseeing subcontractor maintenance. The problems 
identified were so serious that repair station management stopped 
operations for over a month so it could take corrective actions.''. . .
    ``For example, on-site personnel for two carriers we reviewed only 
performed undocumented, on-the-spot inspections of work at repair 
stations. As a result, the air carriers could not use the data for 
trend analysis or ensure the repair station took corrective actions.''
    Answer. In essence, there are two separate oversight schemes, one 
regulatory and one independent, both effective in ensuring satisfaction 
of applicable FAA regulations. This comprehensive, multilayered 
approach to oversight ensures the highest levels of quality and 
safety--regardless of who does the work or where that work is 
performed.
    Initial levels of protection are contained in the Federal Aviation 
Administration (FAA) regulations which provide a basic framework to 
ensure competence among those certificated to perform aircraft 
maintenance (ref. 14 CFR parts 121, 145 and 65). Prior to granting this 
certification, the FAA confirms that an entity or individual has 
fulfilled specific regulatory requirements.
    Related to that approval process, the FAA issues Operations 
Specifications (OpSpecs) which adapt the general terms of applicable 
regulations into the specific requirements for an individual 
certificate holder (OpSpecs are as legally binding as the regulations). 
Air carrier OpSpecs contain a specific section to address aircraft 
maintenance, and repair station OpSpecs delineate the ratings and 
limitations for the maintenance that can be performed.
    Second, once certificated, air carriers and repair stations are 
inspected and monitored by the FAA for verification of their continued 
conformity with the rules.
    Third, certificated air carriers acquire the non-delegable 
responsibility for the airworthiness of the aircraft in their fleet 
(see 14 CFR  121.363). Aircraft maintenance is the primary ingredient 
of airworthiness, and FAA regulations contain detailed maintenance 
program and manual requirements (See 14 CFR  121.365; 121.367; 
121.369) which validate the related air carrier processes and 
procedures. When work is sent to a repair station, it must follow the 
maintenance program of the air carrier with whom it has contracted (See 
14 CFR  145.205).
    Fourth, air carriers conduct preliminary investigations of 
potential repair station vendors which typically include verification 
of repair station capabilities (OpSpecs) and a thorough review of FAA 
mandated Repair Station Manuals, Quality Manuals and Training Manuals. 
If that examination is satisfactory, it is normally followed by an on-
site visit to verify compliance with applicable regulations, industry 
standard audit programs and adherence to the repair station's own 
manuals. Some areas of investigation include:

  <bullet> Validation FM certificates held by persons directly in 
        charge of maintenance and/or those who perform maintenance

  <bullet> Inspection of training records of Inspectors, Technicians 
        and Supervisors

  <bullet> Examination of procedures for technical data, documentation 
        and maintenance record control

  <bullet> Examination of procedures for work processing, disposal of 
        scrap parts, tool calibration and handling material with a 
        limited shelf life

  <bullet> Review of repair station internal inspection and quality 
        programs

  <bullet> Review of previous inspection program results and corrective 
        actions

    If the repair station is selected to perform maintenance for the 
air carrier, similar on-site audits would be conducted on a regular 
basis.
    Finally, a fifth layer of oversight is provided by on-site air 
carrier representatives. These individuals monitor the day to day 
operations and coordinate the activities of the repair station related 
to the air carrier's equipment. Final inspections, and ultimately air 
carrier approval for service are also normally accomplished by these 
on-site airline personnel.
    [Note: Senator McCaskill does not feel the answers to any of the 
above questions were sufficient.]
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                              James C. May
    Question. Mr. May, please share any recommendations the Air 
Transport Association may have regarding flight duty time and rest time 
with the committee.
    Answer. Fatigue is a risk to airline safety that is taken seriously 
and must be managed effectively. The Colgan Air accident, although 
still under investigation by the NTSB, has prompted renewed focus on 
the issue of fatigue and the associated flight/duty time regulations. 
The FAA recently convened an Aviation Rulemaking Committee (ARC) to 
recommend changes to the current regulations and ATA members are 
actively engaged in that effort. We remain convinced that any changes 
to the flight/duty time regulations must be based on scientific data 
and reflect operational realities.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                 Roger Cohen (Submitted July 22, 2009)
    Question 1. How much of the maintenance work that your member 
companies outsource is performed at Part 145 certificated repair 
stations, and how much is performed elsewhere?
    Answer. As noted in our attached June 26 letter to Senator 
McCaskill also provided to the Committee, we can assert that virtually 
all of the substantial airline maintenance work on RAA member aircraft 
is conducted at FAA certificated repair stations. (See Attachment A.)

    Question 2. How much of your member companies' outsourced 
maintenance work is performed abroad? Of the work performed abroad, how 
much is done at Part 145 certificated repair stations, and how much is 
done by entities other than Part 145 repair stations?
    Answer. The attached chart from our June 26 letter to Sen. 
McCaskill indicates the percentage of maintenance conducted by region. 
(See Attachment B.)

    Question 3. How do your member companies determine when to 
outsource maintenance and where to send that maintenance work once they 
have decided to outsource? Accounting for differences in the type of 
work outsourced, how much more does it cost to send work to a Part 145 
certificated repair station than to a non-certificated facility? How 
much less does it cost to send work to a Part 145 certificated repair 
station located abroad? How much less to send the work to non-
certificated facility abroad?
    Answer. The decision to contract for maintenance is largely 
dependent on the size of an airline's fleet. For example, in deciding 
to contract for heavy maintenance checks (C & D checks) is the fleet 
sufficient in size to retain a dedicated group of mechanics that 
specialize primarily in structural inspections and that there is 
sufficient work to keep them employed through the year. The same 
principal applies to specialists for landing gears, engines, 
electronics, etc. If an airline's fleet is not large enough to support 
the inventory of parts and components to keep a specialized group of 
mechanics continually employed throughout the year, an airline may 
choose a specialized contract maintenance provider to accomplish the 
work. As stated, virtually all heavy maintenance work (landing gear 
work, engine work, electronics work) for all our members is 
accomplished by FAA approved repair stations located in the U.S. and 
Canada. Non-certificated work is very limited, such as when an aircraft 
requires service or repair at a remote outstation where the individual 
airline would not have technical staff available. In such case, the 
work must be done by an FAA approved mechanic under the direction of 
the airline's maintenance control staff.
    We have no information comparing the cost of an FAA approved repair 
station in Canada compared to one in the U.S.

    Question 4. How do your members verify the quality of work 
performed at non-certificated facilities?
    Answer. Non-certificated work is very limited to those instances 
when an aircraft may require service or repair at an outstation at 
which the airline would not have technical staff available. In such an 
example, the work done would be by an individual FAA approved mechanic 
under the direction of the airline's maintenance control staff. The 
work is accomplished in accordance with the individual airline 
operator's maintenance manuals located at all airports served by our 
members.

    Question 5. Describe your members' programs to audit the policies 
and performance of the facilities to which they send their maintenance. 
How widely do these policies vary across your membership? Describe the 
most rigorous audit program. Describe the least rigorous.
    Answer. Audit capability and oversight practices for contract 
substantial maintenance work is described within each airline's FAA-
approved Operations Specification D91. This includes an on-site 
inspection audit of the contract facility, as well as audits of the 
organizational structure, competency and training of personnel, 
manuals, facility and ability to transfer and receive data to support 
the carrier's continuing analysis and surveillance program, reliability 
program and other programs required by the carrier's manual. Every 
contract for substantial maintenance is approved by that carrier's FAA 
principal maintenance inspector via approving the OpsSpec. Also, many 
of RAA member airlines participate in CASE--the coordinating agency for 
supplier evaluation in which airlines share on-site audit results among 
participating operators. Since every operator is required to have an 
FAA approved D91 if they are to contract for substantial maintenance, 
the process is standardized among all the operators, so there are ``no 
least rigorous'' programs.
                                 ______
                                 
         Response to Follow-up Written Questions Submitted by 
                  Hon. Claire McCaskill to Roger Cohen
    Question. We would like to get more clarity from the RAA about the 
following issues:

    1. Neither of the witnesses addressed the second half of our first 
question; namely, how much work is done at Part 145 certificated repair 
stations, and how much is done by entities other than Part 145 repair 
stations?
    2. We would like both witness to better address the audit questions 
(the fifth question). In particular, the following passages from the 
Inspector General's report on ``Air Carriers' Outsourcing of Aircraft 
Maintenance' '' issued on September 30, 2008 outline concerns about 
airline audits on the policies/performances of the facilities to which 
they send their maintenance. We would like to get a more definitive 
answer on how the airlines are addressing these issues:

    While all the carriers we visited had audit programs, we found that 
these programs were not always effective. As a result, maintenance 
problems either went undetected or reoccurred.
    For example, at one heavy airframe repair station, all three types 
of oversight failed-FAA, air carrier, and repair station. We found that 
two air carrier audits and two FAA inspections (CMO and FSDO) failed to 
detect significant weaknesses at this facility. These were not 
discovered until another major air carrier's pre-contract award audit 
found problems in the repair stations' maintenance practices, such as 
not properly overseeing subcontractor maintenance. The problems 
identified were so serious that repair station management stopped 
operations for over a month so it could take corrective actions.''. . .
    ``For example, on-site personnel for two carriers we reviewed only 
performed undocumented, on-the-spot inspections of work at repair 
stations. As a result, the air carriers could not use the data for 
trend analysis or ensure the repair station took corrective actions.''
    Answer (dated August 5, 2009). This is the first time we have been 
asked this specific question or even notified about it, and as you know 
we replied directly to Sen McCaskill some 6 weeks ago and were not 
advised of any additional information needed.
    We will provide further information but will not be able to meet 
the deadline of day after tomorrow. Please call me with any questions. 
Thank you.
    Answer (dated August 5, 2009). In response to your request 
yesterday August 5, I am resending the following:

    Our transmission and your ``thank you'' acknowledgment of our 
response to your request from July 22.
    A pdf copy of the letter faxed to Clark Porter in Sen. McCaskill's 
office on June 26. (See Attachment A.)
    I have highlighted in yellow the answers regarding maintenance 
previously provided the Committee in our July 22 transmission. I have 
added in red additional comments further to the questions provided us 
yesterday. We have no record of receiving these questions prior to 
yesterday, and to our knowledge, Sen. McCaskill has not contacted RAA 
seeking additional information or clarification as we offered in our 
June 26 letter. (See Attachment A.)
    As to the questions regarding findings from the DOT IG report 
citing unnamed air carriers, RAA cannot respond since the specific 
carriers are not named.
    Thank you and please acknowledge receipt of this message for our 
records.
                                 ______
                                 
          Response to Follow-up Written Question Submitted by 
       Hon. Claire McCaskill to Roger Cohen dated August 7, 2009
    Question. We received the fax in June, and recognize that we did 
not acknowledge it at the time. However, we believe the questions we 
asked were legitimate and that they addressed an important issue, 
namely: does the current regulato framework ensure the safety of 
aircraft maintenance. It is unclear to us whether this is information 
that you would prefer not to provide, cannot provide, or did not have 
enough time to provide. If the latter is the case, we can petition the 
committee to hold the record open.
    Our specific criticism is this; throughout your statements you fail 
to distinguish between certificated and non-certificated repair 
stations. You state your maintenance is ``conducted by or under the 
direct supervision of certificated FAA repair stations.'' Additionally, 
the chart you submitted to us makes no distinction between certificated 
and non-certificated repair stations. We would like to determine the 
breakdown of maintenance performed at the certificated repair stations 
themselves and how much is performed by Part 65 mechanics who are not 
employed by a certificated repair station or other subcontractors. Part 
65 mechanics are not required to have the same quality control systems, 
etc. as Part 145 or Part 121 certificated stations. Subcontracting 
oversight requirements for Part 121 repair stations differ 
substantially from those imposed on Part 145 repair stations. If, 
indeed, all maintenance is performed at Part 145 repair stations or at 
Part 121 repair stations, rather than by subcontractors, please state 
so clearly.
    Also, we mentioned the IG report because it indicates that at least 
some airlines are not doing a good job of adhering to the FAA 
requirements to which you referred. Conceivably, airlines would have 
different policies within the Operation Specification framework. We 
were asking you to account for disparities between airlines.
    Please let us know whether you could provide us with more clarity 
on these issues if given more time. Thank you.
    Answer (dated August 11, 2009). First and most importantly, RAA has 
never and would never question the legitimacy of any question, 
particularly one dealing with the airline industry's highest priority 
of safety. So in response to your question ``does the current 
regulatory framework ensure the safety of aircraft maintenance", our 
answer is yes.
    Further, please be assured that there is no information that ``we 
would prefer not to provide". RAA has provided and will continue to 
provide you and the Committee--to the best of our ability--the 
information you request. To that end, the attached (in highlights) 
responds to the questions posed in your August 7 e-mail (below).
    Thank you, and please call me if you need anything additional.

    Question. Please respond to our concern that you ``fail to 
distinguish between certificated and non-certificated repair 
stations.''
    Answer. All substantial maintenance (as defined by FAA and listed 
in an air carrier's Operations Specification D091) by RAA members that 
is contracted to an outside vendor, is accomplished by an FAA 
certificated repair station located either in the U.S. or in Canada.

    Question. What do you mean when you state your maintenance is 
``conducted by or under the direct supervision of certificated FAA 
repair stations.''
    Answer. The maintenance is accomplished by the employees of the 
certificated repair station. However it is not uncommon that small (but 
important) tasks may be contracted out by the repair station. Welding, 
for example may be accomplished by a third party vendor but the work 
would be ``under the direct supervision'' of the repair station.

    Question. We would like to know how much of maintenance is 
performed at the certificated repair stations themselves and how much 
is performed by Part 65 mechanics who are not employed by a 
certificated repair station or other subcontractors.
    Answer. RAA does not possess information regarding the amount of 
maintenance that is performed by Part 65 mechanics who are not employed 
by a certificated repair station. However, since the overwhelming 
majority of the work that Is contracted out by our members is 
accomplished by Bombardier repair facilities in Bridgeport, WV and 
Phoenix, AZ, and by the Embraer repair facility in Nashville, TN, we 
believe this ``third party'' maintenance is less than 5 percent of the 
total work accomplished. The Committee may wish to contact these 
providers independently to gain further information.

    Question. Is any maintenance accomplished at Part 121 repair 
stations, rather than a Part 145 repair station?
    Answer. The ``Part 121 repair station'' to which your are referring 
to, is one in which a Part 121 operator will supervise and sign off the 
work of a non certificated repair station under the air carrier's Part 
121 certificate. It is a legal option for an air carrier to do so, but 
as we stated in our earlier correspondence, none of our members 
reported to RAA that they do this. It is our understanding that all 
substantial maintenance accomplished by our members that is not done by 
their own employees is contracted out only to FM approved Part 145 
repair facilities.

    Question. What about different policies within the Operation 
Specification framework?
    Answer. With some limited exceptions, we understand our members 
list their substantial maintenance providers in OpsSpec D091.
    [Note: Senator McCaskill does not feel the answers to any of the 
above questions were sufficient.]
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                              Roger Cohen
    Question 1. Mr. Cohen, please provide documentation on the average 
starting salary for pilots and first officers of RAA airlines.
    Answer. As we indicated in our attached June 26 letter to Senator 
Begich also provided to the Committee, RAA does not have information 
regarding starting salaries for regional airline pilots. In our letter, 
we referred to the website www.airlinepilotcentral.com which has 
compensation information for all airlines, regional, mainline and 
cargo.

    Question 2. Mr. Cohen, as you committed to during the hearing, 
please provide documentation on the outcome of the most recent Safety 
Directors meeting at RAA's annual conference.
    Answer. In the attached June 26 letter, we also provided 
information from our recent safety director meetings. (See Attachment 
C.)

    Question 3. Mr. Cohen, during the hearing you invited members of 
the Committee to attend the next Safety Directors meeting. As soon as 
it is available, please provide the Committee with the details of 
upcoming Safety Directors meetings.
    Answer. The agenda has not been finalized for the next RAA safety 
directors' meeting which we will provide the Committee once finalized. 
As noted in our June 26 letter, we have extended an invitation to 
Senator Begich and we extend the same invitation to all committee 
members and staff.

    Question 4. Mr. Cohen, as you committed to during the hearing, 
please provide any RAA salary studies and carrier salary information 
(starting salary, average salary, and high salary) for the Committee.
    Answer. As RAA testified on June 17, information provided us from 
responding member airlines showed an average annual salary of more than 
$73,000 for Captains and more than $32,000 for First Officers. (This 
does not include benefits, including per diem expenses). As noted in 
our attached June 26 letter, complete comparative information on all 
airline pilot salaries is publicly available at 
www.airlinepilotcentral.com.
                                 ______
                                 
                              Attachment A
                               Regional Airline Association
                                      Washington, DC, June 26, 2009
Senator Claire McCaskill,
Washington, DC.

Senator Byron Dorgan,
Washington, DC.

Dear Sen. McCaskill:

    On behalf of the Regional Airline Association (RAA) member 
airlines, including St. Louis-based Trans States and GoJet, thank you 
for the opportunity to appear before the Senate Aviation Subcommittee 
on June 17, 2009.
    We can confidently assert that virtually all of our substantial 
aircraft maintenance is conducted by or under the direct supervision of 
certificated FAA repair stations in the U.S. or approved maintenance 
organizations in Canada (which are approved by the FAA under a 
reciprocal agreement with Transport Canada).
    If you'll indulge me a personal perspective, I have great memories 
about what many once considered the finest aircraft maintenance 
facility in the world--TWA's overhaul base in Kansas City. I began my 
airline career based in St. Louis, but spent several days each week at 
that facility. The work performed there was exemplary. More 
importantly, the thousands of highly skilled professionals who worked 
there, many my close friends, were the best in the business. I am just 
as confident in the reliability and safety of the maintenance conducted 
on RAA's member airline aircraft today.
    Thank you again for your consideration, and please let us know if 
we can provide anything additional. We will be contacting your office 
to schedule a time where we can discuss these and any other issues in 
greater depth.
            Respectfully,
                                               Roger Cohen,
                                                         President.
CC: Faye Malarkey Black, VP Legislative Affairs, Regional Airline 
            Association
                                 ______
                                 
                              Attachment B
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                              Attachment C
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Captain John Prater
    Question 1. Capt. Prater, as you committed to in the hearing, 
please share ALPA's recommendations to the FAA regarding flight duty 
and rest time with the Committee.
    Answer. ALPA's position on Flight Time regulations is that the 
regulations must be science based and insure a safe level of alertness, 
as required by ICAO. This would insure that flight crewmembers are 
allowed an adequate sleep opportunity, which would require maximum duty 
and minimum rest breaks, that there are safeguards to prevent 
cumulative fatigue, and that circadian rhythms are addressed. These 
issues should be addressed in a proscriptive rule. However the 
proscriptive rule needs to also provide the basis to move to the 
ultimate solution which would be a Fatigue Risk Management System.

    Question 2. Captain Prater, does ALPA have any statistics on the 
average commute of its membership from home to duty station?
    Answer. ALPA does not have data on the average time pilots spend 
commuting from their homes. Where a pilot lives is a personal lifestyle 
choice. We do support that pilots report to work fit for duty and they 
are required to certify that they are fit for duty when they sign the 
flight release for each flight.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
